No. _________
(CAPITAL CASE)

_________________________________________________
IN THE

Supreme Court of the United States
RODERICK NAPOLEON HARRIS,
Petitioner,
v.
TEXAS,
Respondent.
ON PETITION FOR A WRIT OF CERTIORARI TO THE
TEXAS COURT OF CRIMINAL APPEALS
____________________________
PETITION FOR A WRIT OF CERTIORARI
GWENDOLYN C. PAYTON
Counsel of Record
JOHN R. NEELEMAN
KILPATRICK TOWNSEND &
STOCKTON LLP
1420 Fifth Avenue
Suite 3700
Seattle, WA 98101
(206) 626-7714
gpayton@kilpatricktownsend.com
jneeleman@kilpatricktownsend.com
Benjamin Wolff
OFFICE OF CAPITAL AND
FORENSIC WRITS
1700 N. Congress Avenue
Suite 460
Austin, Texas 78701
(512) 463-8600
Benjamin.Wolff@ocfw.texas.gov

ADAM H. CHARNES
KILPATRICK TOWNSEND &
STOCKTON LLP
2001 Ross Avenue
Suite 4400
Dallas, TX 75201
(214) 922-7106
acharnes@kilpatricktownsend.com

CAPITAL CASE
I.

QUESTIONS PRESENTED

In Strickland v. Washington, this Court established its two-part test to
determine whether representation is ineffective in violation of the Sixth
Amendment: 1) whether the representation “fell below an objective standard of
reasonableness”; and 2) whether the “deficient performance prejudiced the defense.”
466 U.S. 668, 687-88 (1984). Strickland directed the courts to identify objective
standards of care for counsel defending an accused individual. In a capital case,
prejudice exists where there is a “reasonable probability” that the defendant would
not have received a death sentence had counsel effectively presented available
mitigation evidence. Id. at 695.
The questions presented are:
1.

Whether a habeas court must articulate and apply prevailing

professional norms in order to determine whether trial counsel’s representation was
ineffective in violation of the Sixth Amendment?
2.

When trial counsel failed to investigate mitigating evidence, whether a

habeas court can adequately assess the lawyers’ performance and determine the
existence of prejudice from a deficient performance by relying only on counsel’s post
hoc representations that they exercised their professional judgment or that further
investigation would not have changed the outcome of the trial?
3.

Whether the standard for identifying prejudice under Strickland is a

“preponderance of the evidence,” as held in this case, or is “reasonable probability”
as articulated by this Court in Strickland?
i

This is a case where the defendant, Roderick Napoleon Harris, presented the
only evidence about what the standard of care is. That evidence included the ABA
and Texas Guidelines,1 as well as expert testimony from an experienced local
practitioner. The Texas Court of Criminal Appeals (CCA) rejected all of Harris’s
evidence about the standard of care, and failed to identify any standard of care at
all. Instead, the CCA excused trial counsel’s conduct because they purportedly
relied on their “judgment.”
It is undisputed that trial counsel here completely failed to investigate
mitigating evidence: Before trial, Harris’s trial counsel learned that his 17-year-old
mother drank while pregnant, and knew that Harris was exposed to lead in utero
and as a child. But trial counsel failed to investigate these issues. Trial counsel
failed to develop a psycho-social history for Harris, which would have enabled them
to discover that he was a severely neglected and abused as a child. Trial counsel
also failed to investigate the State’s false claim that Harris belonged to a violent
street gang. Trial counsel only offered subjective, post hoc justifications for their
decisions not to investigate.
The undisputed evidence now shows that Harris suffers from Fetal Alcohol
Syndrome (FASD), has brain damage from lead exposure and FASD, was severely
abused as a child and was not (as the State claimed) in a gang.

ABA Guidelines for the Appointment and Performance of Defense Counsel in Death Penalty Cases,
31 HOFSTRA L. REV. 913 (2003); ABA Standards for Criminal Justice: Prosecution Function and
Defense Function (3d ed. 1993); State Bar of Tex., Guidelines and Standards for Texas Capital
Counsel, 69 TEX. B.J. 966 (2006); ABA Supplementary Guidelines for the Mitigation Function of
Defense Teams in Death Penalty Cases, 36 HOFSTRA L. REV. 677 (2008); State Bar of Tex.,
Supplementary Guidelines and Standards for the Mitigation Function of Defense Teams in Death
Penalty Cases (2015) (collectively the “ABA and Texas Guidelines”).
1

ii

II.

RELATED CASES STATEMENT

 The State of Texas v Roderick Harris, No. F09-00409, In the Criminal
District Court No. 7 of Dallas County, Texas. Judgment entered May 21,
2012.
 Roderick Harris v The State of Texas, No. AP-76,810, In the Court of
Criminal Appeals of Texas. Opinion entered May 21, 2014.
 Ex Parte Roderick Harris, No. W09-00409-Y(A), In the Criminal
District Court No. 7 of Dallas County, Texas. Order Entered March 31, 2020.
 Ex Parte Roderick Harris, No. WR-80,923-01, In the Court of Criminal
Appeals of Texas. Order entered December 16, 2020.
 Ex Parte Roderick Harris, No. WR-80,923-01, In the Court of Criminal
Appeals of Texas. Order for reconsideration entered January 27, 2021.

iii

III.

TABLE OF CONTENTS
Page

I.

QUESTIONS PRESENTED ................................................................................ i

II.

RELATED CASES STATEMENT ..................................................................... iii

III.

TABLE OF CONTENTS .................................................................................... iv

IV.

INDEX OF APPENDICES................................................................................. vi

V.

TABLE OF AUTHORITIES ............................................................................. vii

VI.

PETITION FOR A WRIT OF CERTIORARI ..................................................... 1

VII.

OPINIONS BELOW ............................................................................................ 1

VIII. JURISDICTION .................................................................................................. 1
IX.

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED ................................................................................. 1

X.

INTRODUCTION ............................................................................................... 2

XI.

STATEMENT OF THE CASE ............................................................................ 5
A.

The Pre-trial Proceedings. ....................................................................... 5

B.

The Trial. .................................................................................................. 8

C.

1.

The State’s Punishment Case. ...................................................... 8

2.

Harris’s Punishment Phase Defense and the Death
Sentence. ........................................................................................ 9

The Habeas Proceeding. ......................................................................... 10
1.

Harris’s Mother Told Trial Counsel She Drank While
Pregnant, and Trial Counsel Admitted They Did Not
Investigate. .................................................................................. 10

2.

Harris’s Trial Counsel Knew that He Was Potentially
Exposed to Lead Poisoning, Yet Failed to Investigate. .............. 11

3.

Harris’s MRI Shows Significant Brain Damage........................ 11

4.

Harris Suffers From FASD. ........................................................ 12

5.

Harris Has Brain Damage From Exposure to Lead................... 14

6.

Harris’s Psycho-Social History Shows Severe Abuse and
Neglect. ........................................................................................ 14

7.

Harris Did Not Belong to a Gang................................................ 17

8.

Trial Counsel’s Representation Fell Below Professional
Norms in Texas. ........................................................................... 18
iv

D.
XII.

The Habeas Adjudication. ...................................................................... 19

REASONS TO GRANT THE PETITION ......................................................... 22
A.

The Court Should Correct the CCA’s Failure to Identify or Apply
Any Professional Norms. ........................................................................ 22
1.

2.
B.

C.

The CCA’s Failure to Apply Professional Norms Deprived
Harris of Due Process. ................................................................. 22
a.

This Court requires habeas courts to determine and
apply professional norms. ................................................. 22

b.

The CCA failed to apply or articulate any
professional norms at all. ................................................. 23

c.

The CCA improperly accepted trial counsel’s post
hoc justifications for their failure to investigate
instead of the objective professional norms Harris
offered. ............................................................................... 24

Failure to Apply Professional Norms is a Recurring
Problem in the Lower Courts. ..................................................... 25

The CCA Should Not Have Given Trial Counsel Deference
Because Trial Counsel Did Not Investigate. ......................................... 29
1.

This Court Has Reiterated that Absent Investigation,
Courts May Not Defer to Trial Counsel’s Judgment, but
Habeas Courts Continue to Ignore this Direction. ..................... 29

2.

Trial Counsel Cannot Offer Post Hoc Justifications and
Claim they Made “Decisions” Where they Failed to
Investigate. .................................................................................. 31

3.

The CCA Improperly Found No Prejudice Where Trial
Counsel Failed to Investigate. .................................................... 33

The State Courts Violated Strickland by Applying the Wrong
Standard of Proof for Prejudice. ............................................................ 36

XIII. CONCLUSION .................................................................................................. 39

v

IV.

INDEX OF APPENDICES

Appendix A: Decision of the CCA, December 16, 2020;
Appendix B: State District Court’s Findings of Fact and Conclusions of Law, March
31, 2020;
Appendix C: The CCA’s denial of Harris’s Suggestion for Reconsideration, January
27, 2021;
Appendix D: Texas Code of Criminal Procedure, article 11.071 (statutory procedure
for habeas proceedings in Texas death-penalty cases).

vi

V.

TABLE OF AUTHORITIES
Page

Cases
Anderson v. Kelley,
938 F.3d 949 (8th Cir. 2019) .............................................................................. 27, 28
Andrus v. Texas,
140 S. Ct. 1875 (2020) ...................................................................................... passim
Bobby v. Van Hook,
558 U.S. 4 (2009) ........................................................................................ 2, 3, 22, 28
Com. v. Lassiter,
554 Pa. 586 A.2d 657 (1998) .................................................................................... 38
Ellis v. Harrison,
947 F.3d 555 (9th Cir. 2020) .................................................................................... 37
Escamilla v. Stephens,
749 F.3d 380 (5th Cir. 2014) .................................................................................... 31
Ex parte Jimenez,
364 S.W.3d 866 (Tex. Crim. App. 2012) .................................................................. 36
Ex parte Roderick Harris,
No. WR-80,923-01 (Tex. Crim. App. Dec. 16, 2020) .................................................. 1
Ex parte Wolf,
296 S.W.3d 160 (Tex. App. 2009) ............................................................................. 39
Harrington v. Richter,
562 U.S. 86 (2011) .......................................................................................... 3, 22, 24
Harris v. State,
No. AP-76,810, 2014 WL 2155395 (Tex. Crim. App. May 21, 2014) ........................ 9
Hebert v. Rogers,
890 F.3d 213 (5th Cir. 2018) .................................................................................... 37
Kemp v. Kelley,
924 F.3d 489 (8th Cir. 2019) .................................................................................... 26
Kyles v. Whitley,
514 U.S. 419 (1995) .................................................................................................. 37
Lichau v. Baldwin,
333 Or. 350 39 P.3d 851 (2002)................................................................................ 38
Menefield v. State,
363 S.W.3d 591 (Tex. Crim. App. 2012) .................................................................. 20

vii

Moore v. Texas,
137 S. Ct. 1039 (2017) .............................................................................................. 25
Murphy v. Davis,
737 F. App’x 693 (5th Cir. 2018) ........................................................................ 26, 33
Nava v. State,
415 S.W.3d 289 (Tex. Crim. App. 2013) .................................................................. 20
Overall v. State,
1988 WL 138228 (Tenn. Crim. App. Dec. 28, 1988) ................................................ 39
People v. Centeno,
60 Cal. 4th 659, 338 P.3d 938 (2014) ....................................................................... 38
Rector v. Johnson,
120 F.3d 551 (5th Cir. 1997) .................................................................................... 37
Roe v. Flores-Ortega,
528 U.S. 470 (2000) .................................................................................................. 28
Rompilla v. Beard,
545 U.S. 374 (2005) ................................................................................ 23, 29, 30, 31
Sears v. Upton,
561 U.S. 945 (2010) ............................................................................................ 34, 35
State v. L.A.,
433 N.J. Super. 1 A.3d 1276 (App. Div. 2013) ........................................................ 39
State v. Smothers,
590 N.W.2d 721 (Iowa 1999) .................................................................................... 38
State v. Vick,
632 N.W.2d 676 (Minn. 2001) .................................................................................. 38
Strickland v. Washington,
466 U.S. 668 (1984) .......................................................................................... passim
United States v. Myers,
2009 WL 10679641 (N.D. Tex. Apr. 8, 2009)........................................................... 32
Wiggins v. Smith,
539 U.S. 510 (2003) .......................................................................................... passim
Williams v. Stirling,
914 F.3d 302 (4th Cir.)
as amended (Feb. 5, 2019) ....................................................................................... 32
Williams v. Taylor,
529 U.S. 362 (2000) .......................................................................................... passim
Woodford v. Visciotti,
537 U.S. 19 (2002) .................................................................................................... 36
viii

Statutes
28 U.S.C. § 1257(a) ........................................................................................................ 1
28 U.S.C. § 2101(c) ......................................................................................................... 1
Rules
Tex. R. Evid. 703 .......................................................................................................... 24
Tex. R. Evid. 704 .......................................................................................................... 24
Other Authorities
ABA Guidelines for the Appointment and Performance of Defense Counsel in
Death Penalty Cases,
31 HOFSTRA L. REV. 913 (2003) .................................................................................. ii
ABA Guidelines,
Guideline 10.11 ........................................................................................................ 33
ABA Guidelines,
Guideline 10.7 .......................................................................................................... 18
ABA Standards for Criminal Justice: Prosecution Function and Defense
Function (3d ed. 1993) ............................................................................................... ii
ABA Supplementary Guidelines for the Mitigation Function of Defense
Teams in Death Penalty Cases,
36 HOFSTRA L. REV. 677 (2008) .................................................................................. ii
Applicant Roderick Harris’s Objections To The Trial Court’s Findings of Fact
and Conclusions of Law,
In The Texas Court of Criminal Appeals Austin, Texas, Writ Cause No.
WR-80,923-01, (October 8, 2020) ............................................................................. 15
Emily Olson-Gault,
Reclaiming Van Hook: Using the ABA’s Guidelines and Resources to
Establish Prevailing Professional Norms, 46 Hofstra L. Rev. 1279 (2018) ........... 28
Harris’s Suggestion for Reconsideration,
WR-80,923-01 (Tex. Crim. App. Off. Not. January 27, 2021) ................................... 1
State Bar of Tex.,
Guidelines and Standards for Texas Capital Counsel, 69 TEX. B.J. 966
(2006) .................................................................................................................... ii, 18
State Bar of Tex.,
Supplementary Guidelines and Standards for the Mitigation Function of
Defense Teams in Death Penalty Cases (2015) ........................................................ ii
Texas Code of Criminal Procedure,
11.071.......................................................................................................................... 2

ix

VI.

PETITION FOR A WRIT OF CERTIORARI

Roderick Harris respectfully petitions for a writ of certiorari to review the
judgment of the CCA.
VII.

OPINIONS BELOW

The CCA’s unpublished opinion, Ex parte Roderick Harris, No. WR-80,923-01
(Tex. Crim. App. Dec. 16, 2020), accepting wholesale the trial court’s Findings of
Fact and Conclusions of Law, is in Appendix A. The trial court’s Findings of Fact
and Conclusions of Law, Cause No. F09-00409-Y (Criminal Dist. Ct., Dallas County,
Texas Mar. 20, 2020), are in Appendix B. The CCA’s denial of Harris’s Suggestion
for Reconsideration, WR-80,923-01 (Tex. Crim. App. Off. Not. Jan. 27, 2021), is in
Appendix C.
VIII. JURISDICTION
The CCA issued its opinion affirming the trial court’s decision on December
16, 2020. Appendix A. The CCA denied Harris’s Suggestion for Reconsideration on
January 27, 2021. Appendix C. Pursuant to the Supreme Court’s March 19, 2020
Order, the 90-day deadline set forth in 28 U.S.C. § 2101(c) is extended to 150 days.
This Court has jurisdiction under 28 U.S.C. § 1257(a).
IX.

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED

The U.S. Constitution’s Sixth Amendment provides in relevant part: “In all
criminal prosecutions, the accused shall enjoy the right . . . to have the Assistance of
Counsel for his defense.” U.S. Const. amend. VI. The U.S. Constitution’s
Fourteenth Amendment provides in relevant part: “No state shall . . . deprive any

1

person of life, liberty, or property, without due process of law[.]” U.S. Const. amend.
XIV. The state statute that governs requests for habeas relief in Texas deathpenalty cases, Texas Code of Criminal Procedure, article 11.071, is reproduced in
Appendix D.
X.

INTRODUCTION

Strickland directed habeas courts to identify the “prevailing professional
norms” in trial counsel’s locale at the time of trial and measure trial counsel’s
performance against those norms. 466 U.S. at 690; see also Bobby v. Van Hook, 558
U.S. 4, 14 (2009) (Alito, J., concurring) (“It is the responsibility of the courts to
determine the nature of the work that a defense attorney must do in a capital case
in order to meet the obligations imposed by the Constitution.”). Although the Court
has declined to dictate the standards in every situation and location, the Court has
mandated that the lower courts do that work. This rule makes sense. If the trial
court does not identify the standard of care, it cannot determine if counsel’s
performance fell below it.
In his habeas hearing, only Harris presented the evidence on what the
standard of care was at the time of trial. He presented expert testimony from a
local practitioner, pointed to the ABA and Texas Guidelines for defending capital
cases, and showed that trial counsel’s performance undeniably fell below any of
these standards. The CCA summarily rejected all these standards, but identified no
alternative standard at all. The CCA instead said that trial counsel’s failure to
investigate was not deficient based entirely on trial counsel’s subjective post hoc
assertions that they did not investigate whether Harris suffered from FASD, lead
2

poisoning or childhood abuse because they used their judgment and did not think
the jury would care. But Strickland “calls for an inquiry into the objective
reasonableness of counsel’s performance, not counsel’s subjective state of mind.”
Harrington v. Richter, 562 U.S. 86, 105, 110 (2011). The CCA completely failed to
identify and articulate the relevant objective professional norms, or measure trial
counsel’s performance against objective norms.
The CCA found that trial counsel’s performance was adequate based on the
“heavy measure of deference to counsel’s judgments” required by Strickland. But
the CCA cannot defer to trial counsel’s decisions as tactical if they have not
investigated what evidence is potentially available. Wiggins v. Smith, 539 U.S. 510,
522-23 (2003).
This is a recurring problem in post-conviction cases in the lower courts.
Citing Van Hook, courts reject the ABA standards as representing only guidelines,
but then fail to articulate or apply any other standards. Courts frequently also
reject qualified expert testimony opinion on local standards, as occurred here,
leaving no identified standards at all. The courts then invariably rely on trial
counsel’s post hoc explanations to justify their conduct.
Trial counsel cannot exercise informed judgment where they have not
actually done any investigation and do not know the facts. It is one thing to decide
not to present evidence you know about, but a completely different thing to not
present evidence you made no effort to find. This Court has repeatedly said trial
counsel who fail to investigate are deficient.

3

The CCA also found that trial counsel’s deficiencies did not prejudice Harris.
The CCA again improperly accepted trial counsel’s bald assertions that the issues
they failed to investigate—Harris’s FASD, lead poisoning, abusive childhood, and
the falsity of the State’s claim that Harris belonged to a violent gang—would have
made no difference. The CCA also applied a preponderance of the evidence
standard to the prejudice prong, in violation of Strickland’s less onerous “reasonable
probability” standard—a recurring problem in state habeas courts.
Roderick Harris’s case shows that this Court needs to revisit Strickland and
reaffirm that a habeas court must articulate and apply prevailing professional
norms. This is the only way to determine whether trial counsel’s representation
objectively deficient or not. Otherwise, habeas proceedings become outcomeoriented, inconsistent and unguided, with results turning on trial counsel’s
subjective rationalizations. Particularly in cases where trial counsel failed to
investigate mitigating evidence, the habeas courts cannot rely on trial counsel’s
after-the-fact justifications claims that certain evidence would not have made a
difference.
The Court also needs to clarify Strickland’s requirement that the standard of
proof for prejudice is “reasonable probability,” not “preponderance of the evidence”
as the CCA held in this case. State and federal courts repeatedly ignore this dictate
from Strickland.

4

XI.
A.

STATEMENT OF THE CASE

The Pre-trial Proceedings.
Roderick Harris was indicted for the shooting death of Alfredo Gallardo on

March 17, 2009. Harris was represented at trial by court-appointed attorneys Brad
Lollar, Doug Parks and Mike Howard. Lollar was appointed lead counsel on or
about April 1, 2009. Roderick Harris’s Proposed Findings of Fact and Conclusions
of Law, Cause No. F-0900409-Y, In Criminal District Court No. 7 Dallas County,
Texas, filed October 23, 2019 (“HPFFCL”), ¶28.2 The State gave formal notice that
it would seek the death penalty on August 24, 2009. HPFFCL, ¶34. Parks was
appointed as second chair in June 2011. HPFFCL, ¶39. Howard joined the team in
September of 2011, as third chair. HPFFCL, ¶31.
Lollar understood that the beginning of a case is the most critical time in
preparing a defense, but the trial team did almost no work to prepare Harris’s
defense until nearly three years after Lollar’s appointment. HPFFCL, ¶36. Trial
began on May 7, 2012. Between April 1, 2009 and October 1, 2011, Lollar billed
only 33 hours total—about 15 hours per year for the first two years of the case.
Lollar did not begin reviewing witness videos until the end of March 2012. He did
not review the record of the case until the beginning of April 2012. Id.
In the first two years after his appointment, Lollar spent only three hours
with Harris. Id. He did not start an investigator working on the case until

“HPFFCL” cites are supported by detailed citations to the habeas trial proceeding transcripts and the exhibits
admitted in that proceeding.
2

5

December 19, 2010, when he retained Brendan Ross, and Antoinette McGarrahan,
PhD, a neuropsychologist. Id.
Lollar claimed Howard was responsible for the mitigation case, though
Howard denies it. HPFFCL, ¶38. Howard spent even less time working on Harris’s
case prior to the start of voir dire—20.9 hours—a little over one hour of work per
week. Howard only spent 2.3 hours total meeting with Harris. Id.
Parks met with Harris for the first and only time on October 20, 2011, for
only an hour-and-a-half. HPFFCL, ¶ 39. By the time voir dire started, Parks had
only worked 21.9 hours on the case, which is fewer than four hours per month. Id.
Trial was scheduled for May 7, 2012, and Parks did his first trial preparation on
March 29, 2012, but then did no more work until April 9, 2012. Id.
In the two-year period after his appointment, Lollar spent only five hours
consulting with his mitigation team, Ross and McGarrahan. HPFFCL, ¶40. Ross
understood that a mitigation investigation must begin as soon as possible because
“witnesses disappear,” “memories fade,” and “records get lost.” Id. Yet Ross did not
begin any work on the case until December 19, 2010, over a year after Harris’s
indictment and his attorneys were on notice that they needed to prepare a deathpenalty mitigation case. Id.
The trial team knew that Harris had been exposed in utero to alcohol and
lead, but the trial team did not investigate this as possible mitigation evidence.
HPFFCL, ¶¶ 54-56. Lollar admitted that Harris’s mother, Pamela Maddox, told
him that, while she was pregnant, she drank. Id. Trial counsel also knew that

6

Harris and his mother had grown up next to the RSR lead Smelter in Dallas, and
that their home was a Superfund site and had been subjected to massive
environmental remediation due to toxic amount of lead in the soil and air. Counsel
did not investigate Harris’s lead exposure. HPFFCL, ¶¶ 132-34.
McGarrahan did not begin work on the case until July 1, 2011, over two years
after Harris’s attorneys were on notice that they needed to prepare a death-penalty
mitigation case. Id. Trial counsel did not instruct McGarrahan to investigate
whether Harris suffered from FASD. HPFFCL, ¶¶ 54-62. She was not qualified to
make such a diagnosis and had never done so. Id. Likewise, trial counsel did not
instruct McGarrahan to investigate whether Harris suffered from lead poisoning.
HPFFCL, ¶¶ 132-34.
McGarrahan did some testing on Harris which she admits showed
neuropsychological deficits. HPFFCL, ¶¶ 63-64. But she did not tell Harris’s trial
counsel what her conclusions and possible testimony were until a week after trial
had already started. HPFFCL, ¶ 60-61. During trial, she wrote an email saying
that she had nothing helpful to contribute at trial. Id. As a result, trial counsel
called no expert to address any of Harris’s neuropsychological deficits. HPFFCL, ¶¶
63-64.
Trial counsel did not prepare any expert witnesses to testify until after trial
had already started, and only then for a de minimis amount of time. HPFFCL, ¶
41. Parks did not meet with the defense expert Dr. Kessner, whom he put on the
stand at trial, until May 16, 2012—nine days after trial had already started. Parks

7

did not meet with defense experts Jim Aiken and Frank AuBuchon until May 17,
2019—ten days after trial began. Id. Parks prepared these two experts together in
one meeting for about an hour. Id. None of these experts had ever met Harris. Id.
Harris’s trial counsel knew he was in special education, public school records
labeled him as having “Learning Disabilities/Emotional Behavior Disorders,” he
repeated a grade in elementary school, and dropped out in eleventh grade.
HPFFCL, ¶¶ 163, 381-82. His school records show that he first started talking
about killing himself as early as seven years old, a school psychologist diagnosed
him with chronic depression, and he was diagnosed with ADHD. As a child, Harris
talked about hearing voices. HPFFCL, ¶ 179. Yet trial counsel did not perform an
MRI on Harris to determine whether he had brain abnormalities.
Trial counsel learned before trial that the State intended to tell the jury
Harris was a gang member and present expert testimony on how dangerous gang
members are. HPFFCL, ¶¶ 398-402. Trial counsel did not investigate the State’s
evidence, nor did they hire an expert to respond to it. Id
B.

The Trial.
The jury convicted Harris of capital murder.
1.

The State’s Punishment Case.

In the punishment phase, the state claimed that Harris was a member of a
violent street gang. HPFFCL, ¶¶ 398-402. The State offered photographs of
Harris’s tattoos taken in April 2012, about three weeks before trial. Harris’s
counsel did not object to these exhibits. Id. The State also presented testimony of
Dallas Police Department Detective Barrett Nelson as a purported expert on gangs.
8

Id. Nelson said Harris’s tattoos proved that Harris was a member of a dangerous
gang, the “Fish Trap Bloods.” HPFFCL, ¶¶ 398-402.
2.

Harris’s Punishment Phase Defense and the Death Sentence.

In response to the State’s punishment phase case, Harris’s trial counsel
called four family members. Harris v. State, No. AP-76810, 2014 WL 2155395, at *4
(Tex. Crim. App. May 21, 2014). They said that Harris had ADHD and was in
special education. Id. They claimed that when he was young, Harris “set a room of
his family’s house on fire,” that his “mother, who suffers from manic depression and
schizophrenia, gave him insufficient attention and affection,” and that he helped to
care for his two younger brothers and protect them from his parents’ violence. Id.
They said that Harris started using drugs when he was young. He became paranoid
and heard voices when he used drugs. He has three children. Id.
The defense also called two experts, neither of whom was familiar with the
record, had interviewed any witnesses or met Harris. HPFFCL, ¶ 146. Both
specifically denied being asked to render an opinion about Harris himself, and only
provided general information. Id. Dr. John Roache, a drug addiction expert,
testified that drugs are addictive and explained how marijuana and PCP affect the
body. Id. Dr. Gilda Kessner, a psychologist, testified that certain childhood risk
factors can lead to later delinquent or violent behavior. Id.
The trial judge sentenced Harris to death.

9

C.

The Habeas Proceeding.
Harris filed an application for writ of habeas corpus in Texas state court and

the court ordered an evidentiary hearing on several claims, including whether
Harris’s trial counsel were deficient in failing to investigate and present in the
punishment phase (i) evidence that he suffered from FASD, (ii) evidence that he
was exposed to toxic levels of lead in utero and as a child, (iii) testimony from an
expert explaining the mitigating impact of his life history, and (iv) testimony from a
gang expert to rebut the State’s evidence of Harris’s involvement in a street gang.
1.

Harris’s Mother Told Trial Counsel She Drank While Pregnant,
and Trial Counsel Admitted They Did Not Investigate.

Harris’s mother drank Wild Irish Rose and Thunderbird “every weekend”
during her first trimester.3 HPFFCL, ¶ 55. Each of Harris’s trial counsel testified
that they were aware prior to the trial that Harris’s mother drank alcohol while
pregnant.
Harris’s trial counsel admitted that they did not investigate whether Harris
might have FASD. HPFFCL, ¶¶ 54-62. They did not instruct McGarrahan (or
anyone else) to investigate this. They did not know whether McGarrahan was even
qualified to diagnose FASD. Trial counsel knew she had never diagnosed FASD.
Nor is she is not an expert in FASD. Id. Yet Lollar testified that he relied on
McGarrahan to tell him whether he should investigate FASD, and she did not. Id.

Wild Irish Rose and Thunderbird are wines “typically fortified to alcohol by volume content of about
13 to 18 percent . . . [and] substantially stronger than wine.” HPFFCL, ¶ 55.
3

10

Trial counsel each admitted that at the time of Mr. Harris’s trial in 2012, it
was well-known in the in the legal community that an FASD diagnosis was a
mitigating factor that could have spared Harris a death sentence. HPFFCL, ¶ 59.
Lollar knew at the time of trial that there is no amount of alcohol that a pregnant
woman can safely drink, especially in the first trimester. Id. McGarrahan also
admitted that it was “well known in the community, and specifically the
neuropsychological community, that any amount of alcohol can be problematic.” Id.
Lollar admitted that, had he investigated and found evidence of fetal alcohol
spectrum disorder, he “would have put that on.” HPFFCL, ¶ 62.
2.

Harris’s Trial Counsel Knew that He Was Potentially Exposed to
Lead Poisoning, Yet Failed to Investigate.

All of Harris’s trial counsel knew that Harris grew up next to the RSR lead
smelter in Dallas and that it was a Superfund site. They did not hire a toxicologist
to investigate whether Harris had damage from lead exposure. Lollar admitted
that had he investigated and found evidence that Harris suffered from lead
exposure, he would have presented that evidence at trial. HPFFCL, ¶ 132.
However, again, he claimed he relied on McGarrahan to tell him whether he
should investigate lead poisoning, and she did not. He did not ask McGarrahan to
investigate Harris’s possible lead exposure, or whether she was qualified to do so.
3.

Harris’s MRI Shows Significant Brain Damage.

Habeas counsel had an MRI performed on Harris. HPFFCL, ¶ 100. Dr.
Travis Snyder, a neuroradiologist, evaluated the MRI and discovered a cavum
septum pellucidum, which is a space in the brain that ordinarily fuses shut when an
11

infant develops normally. Id. A cavum septum pellucidum in an adult signifies
abnormal fetal brain development. Id.
Jeffrey David Lewine, Ph.D., a neuroscientist, explained that the MRI
showed the brain was undersized: “Low volume were seen throughout the brain,
but especially in temporal, parietal, and occipital regions, and also the left
hippocampus. Low gray matter volume was additionally seen for bilateral cingulate
regions.” HPFFCL, ¶ 10-04. Dr. Lewine correlated Harris’s small brain size to
prenatal and childhood exposures to toxins such as alcohol and lead. Id.
Joseph Wu, M.D., a professor emeritus of Psychiatry and Human Behavior at
the University of California, Irvine, analyzed the MRI and concluded that Harris
showed significant brain abnormalities that “corroborate the presence of a damaged
brain most likely due to lead toxicity, traumatic brain injury and in utero exposure
to alcohol.” HPFFCL, ¶¶ 104-05. With respect to alcohol exposure in particular,
Dr. Wu noted that Harris’s brain size was abnormally small and had a “smaller
caudate volume . . . consistent with [the] finding that patients with fetal alcohol
spectrum disorder show that caudate is among the regions [ ] most affected with
approximately 16% volume reduction.” HPFFCL, ¶ 105.
4.

Harris Suffers From FASD.

Harris presented testimony from multiple experts that he has FASD. Dr.
Julian Davies, a pediatrician and expert in FASD at the University of Washington
Fetal Alcohol Spectrum Diagnostic Clinic, diagnosed Harris with Alcohol-related
neurodevelopmental disorder (ARND), a form of FASD that has severe effects on
executive function and cognitive abilities. HPFFCL, ¶¶ 44, 85-95.
12

Dr. Davies also studied Harris’s childhood development and academic
history, which presented “evidence of a complex pattern of behavior or cognitive
abnormalities that are inconsistent with developmental level and cannot be
explained by familial background or environment alone, such as learning
difficulties; deficits in school performance; poor impulse control; problems in social
perception; deficits in higher level receptive and expressive language; poor capacity
for abstraction or metacognition; specific deficits in mathematical skills; or
problems in memory, attention, or judgment.” HPFFCL, ¶ 95.
Dr. Joan Mayfield has a Ph.D. in neuropsychology with a focus in children
and has extensive experience diagnosing FASD. HPFFCL, ¶ 96. Dr. Mayfield
testified that she reviewed the cognitive tests McGarrahan performed on Harris
before trial, and that the results show significant impairment consisted with FASD.
HPFFCL, ¶ 97. For example, his performance on the Wisconsin Card Sorting Test
McGarrahan administered shows significant neurocognitive deficits. Id. Less than
1% of the population performs as poorly as Harris did. Id. The 15-point
discrepancy between Harris’s verbal IQ and performance IQ scores—the IQ “split”—
is a significant red flag for FASD. Id. Harris’s performance when McGarrahan
administered the Wechsler Memory Scale, the California Verbal Learning test and
the Rey-Osterrieth test showed significant evidence of FASD, as did his significant
short-term memory deficits displayed by the test results. Id. Dr. Mayfield
concluded that the tests that McGarrahan herself performed pointed to FASD, and

13

based on them she would have recommended trial counsel fully investigate FASD.
HPFFCL, ¶¶ 98-99.
5.

Harris Has Brain Damage From Exposure to Lead.

Harris called Thomas Dydek, Ph.D., a toxicologist, who testified about
Harris’s high levels of exposure to lead in utero and as a child. HPFFCL, ¶¶ 135138. Harris and his mother both grew up in a Superfund site that the government
ultimately remediated by removing the soil. HPFFCL, ¶ 367. As a child, Harris
lived 2,000 feet downwind of the smelter, and where the dirt ultimately was
removed in the 1990s because contamination levels were so high. HPFFCL, ¶ 127.
Dydek explained how fetuses in utero absorb lead from their mother.
HPFFCL, ¶ 136. Habeas counsel had Harris’s mother tested for lead contamination
on October 23, 2018 at the Icahn School of Medicine at Mount Sinai Hospital in
New York. The test showed that her bone-lead concentration was “approximately
30% greater than the average of the predictions of the concentration expected for
someone her age.” HPFFCL, ¶ 140. Habeas counsel attempted to test Harris for
lead, but Texas would not allow him to be transported for the test. HPFFCL, ¶ 141.
6.

Harris’s Psycho-Social History Shows Severe Abuse and Neglect.

The trial team’s investigator, Ross, admitted that preparation for the penalty
phase of trial “requires extensive and generally unparalleled investigation into
personal and family history.” HPFFCL, ¶ 144. Yet the trial team did not create a
social history for Harris. Ross admitted that the social history should have included
any sexual or emotional abuse, family history of mental illness, domestic violence,

14

poverty, familial instability, neighborhood conditions, peer influences, traumatic
events, and educational history. HPFFCL, ¶ 144.
Habeas counsel retained Dr. Laura Sovine, a clinical social worker and social
historian, and she developed a psycho-social history for Harris. HPFFCL, ¶ 148.
Her investigation uncovered that Harris was born in West Dallas to impoverished
parents who were abusing alcohol and drugs, engaging in domestic violence, and
mentally ill. HPFFCL, ¶ 149. Harris’s mother has bipolar disorder, and was
hospitalized three times for mental health issues. Harris’s biological father, Eric
Propes, has schizophrenia. Id.
Harris’s mother gave birth to Harris at seventeen after drinking alcohol and
smoking marijuana during her pregnancy. HPFFCL, ¶ 150. After his birth, his
mother frequently left Harris with “a rotating cast of caregivers,” “while she partied
and struggled with her own mental health” and was “incapable of bonding with
[Harris] . . . paying very little attention to him” and “struggling to connect.”
HPFFCL, ¶ 151. His mother did not “show much affection” to Harris; she did not
hug him or tell him she loved him. Id.
Harris’s biological father went to prison shortly after Harris was born.
HPFFCL, ¶ 152. When Harris was three years old, his mother married Ramon
Maddox, Sr. Maddox physically abused Roderick. Id. He frequently beat Harris,
usually with a belt or extension cord. He sexually abused Harris. Id.; Applicant
Roderick Harris’s Objections To The Trial Court’s Findings of Fact and Conclusions

15

of Law, In The Texas Court of Criminal Appeals Austin, Texas, Writ Cause No. WR80,923-01, dated October 7, 2020 (accepted October 8, 2020), pp. 9-14.
As a child, Harris regularly witnessed Maddox physically abuse his mother.
Maddox frequently beat and raped Ms. Maddox. HPFFCL, ¶ 153. The police were
called to the Maddox home fifteen times. Id. Ms. Maddox would often flee to her
sister’s home bruised and bloody. Id.
Early in his life, Harris began showing many of the hallmark cognitive
deficits and disabilities that happen when a child is exposed to alcohol in utero.
HPFFCL, ¶ 154. Public school records identify him as having “Learning
Disabilities/Emotional Behavior Disorders.” HPFFCL, ¶ 163. He was in in special
education classes until he dropped out of high school in eleventh grade. Id.
Starting at age seven, Harris repeatedly talked about killing himself.
HPFFCL, ¶ 163. He reported hearing voices as a child. Id. He received no
psychiatric care or medication. Id. He was diagnosed with ADHD but his parents
did not allow him to take medications. Id.
By high school, Harris was self-medicating with illegal drugs. Id. When
Harris was arrested for marijuana possession at school, the arrest report noted that
“suitable supervision, care, or protection not provided by parent, guardian,
custodian, or other person.” HPFFCL, ¶ 160.
Harris struggled to make friends. Harris was frequently bullied and teased.
When was 16, he self-reported as having “0 friends.” HPFFCL, ¶ 163. Harris’s
parents and teachers treated his difficulty learning and depression as deviance and

16

rule-breaking rather than as signs of cognitive impairment. HPFFCL, ¶ 160. As he
grew older, Harris’s mother and stepfather disciplined him even more harshly, and
he started to run away from home. Id.
Harris preferred jail to living in his abusive home. Harris was placed in
detention at an emergency shelter, and he told his probation officer he wanted to be
locked up as opposed to returned to his home. Harris dropped out of school before
completing 11th grade and became “essentially homeless.” HPFFCL, ¶ 163.
7.

Harris Did Not Belong to a Gang.

At trial, the State told the jury that that Harris was in a gang based on a
tattoo he had. The State called an expert, Detective Nelson, about how dangerous
gangs are. In the habeas proceeding, Harris also offered undisputed evidence that
Harris had no gang-related tattoos when he was arrested.
Had trial counsel investigated, they would have learned that Harris obtained
the tattoos long after he was arrested and incarcerated. Trial counsel’s files
contained a photo of Harris taken May 12, 2009, right after Harris’s arrest and
three years before the start of trial. HPFFCL, ¶ 408. The photo shows that Harris
did not have the tattoo that the State claimed proved he was a gang member. Id.
Had they investigated, trial counsel would also have learned that Harris’s
family denied he ever belonged to a violent gang, and that his juvenile record—
including reports prepared by the Dallas County Juvenile Department and Dallas
Police Department, as well as a report from “Concerned Citizens of Dallas,” a
Juvenile Department boot camp—repeatedly state that Roderick had no gang
affiliation. HPFFCL, ¶ 406-09.
17

8.

Trial Counsel’s Representation Fell Below Professional Norms
in Texas.

At the habeas hearing, Harris argued that all attorneys are bound by the
prevailing professional norms specific to death penalty representation. One place
these norms are documented is the ABA and Texas Guidelines. Under any
prevailing norms for capital counsel and these guidelines, counsel must conduct
“thorough and independent investigations relating to the issues of both guilt and
penalty.” ABA Guidelines, Guideline 10.7; Texas Guidelines, Guideline 11.1 (same).
HPFFCL, ¶¶ 339-41.
Harris also called a capital-defense standard of care expert to establish the
professional norms in Texas at the time of Harris’s trial. Richard Burr has 40 years
of experience representing clients sentenced to death in Texas. HPFFCL, ¶ 349.
Burr testified that trial counsel’s failure to investigate whether Harris suffered
from fetal alcohol syndrome disorder, lead poisoning, and brain damage, and
whether he belonged to a violent gang, fell below professional norms at the time of
trial. HPFFCL, ¶¶ 349-50, 363-64, 423, 425. Burr explained that “Prenatal
exposure to alcohol for many years, well before 2009, has been a big red flag.”
HPFFCL, ¶ 363. For a client with history of prenatal exposure to alcohol, a capital
defense attorney must fully investigate the possibility of FASD as mitigating
evidence and Burr would have done so here. Id.
Even if a neuropsychological exam “doesn’t show much,” a reasonable capital
defense attorney must “keep looking, because that doesn’t negate having fetal
alcohol disorder, especially if you have certain exposure over a period of time during
18

the first trimester, which is when the brain is forming.” HPFFCL, ¶ 364. “If . . .
counsel is on notice that the defendant is living for a significant amount of time in a
Superfund site that has been found to have toxic levels of lead,” then he has “a duty
under the prevailing norms to investigate that exposure.” HPFFCL, ¶ 373. “[B]y
2009, the death penalty defense community had known for quite some time that
exposure to environmental toxins—and the most prevalent environmental toxin is
lead, especially for poor people who grow up where there’s lead-based paint in
housing projects that has flaked off and gotten into the soil, that type of exposure
can be harmful, much less living in the shadow of a Superfund lead smelter site.”
HPFFCL, ¶ 373.
Burr testified that retaining a gang expert is “essential” because gang
membership is “one of the highest impact facts there is.” HPFFCL, ¶ 423. “[T]he
mere mention of it gives rise to the fear and stereotyping that we all know is
associated with it.” Id. Burr also addressed trial counsel’s failure to investigate
whether Harris’s tattoos were related to his membership in a violent gang.
HPFFCL, ¶ 425. The evidence shows that Harris got the tattoos in jail after he was
arrested and did not belong to a gang. Burr testified that prevailing professional
norms would require trial counsel to investigate whether Harris acquired gangrelated tattoos later, and why this occurred. Id.
D.

The Habeas Adjudication.
After Harris presented his live testimony, the judge who heard the evidence

left the bench before ruling. A new judge, who did not hear any testimony, signed
the State’s proposed findings of fact and conclusions of law verbatim, except that
19

the court deleted language that said the findings were based on the court’s
“personal knowledge and experience.” Appendix B ¶¶502-505. The new judge did
not hold any hearing or allow oral argument.
The CCA affirmed the trial court and adopted its findings. Appendix A. The
CCA’s opinion fails to identify prevailing professional norms for Harris’s counsel in
this capital case. The trial court rejected the ABA and Texas Guidelines because
they “are not law, but guidelines of practice.” Appendix B ¶ 172. The court also
rejected Burr’s testimony. Appendix B ¶ 184.
The CCA’s opinion states that “[a] record that does not explain trial counsel’s
decisions will not show deficient performance ‘unless the challenged conduct was ‘so
outrageous that no competent attorney would have engaged in it.’” Appendix B
Findings at 6–7 (citing Nava v. State, 415 S.W.3d 289, 308 (Tex. Crim. App. 2013)
and Menefield v. State, 363 S.W.3d 591, 593 (Tex. Crim. App. 2012)). Applying this
standard, the court concluded that trial counsel were not ineffective. The court
justified this with the assertion that “[i]n an ineffectiveness case, a particular
decision not to investigate must be directly assessed for reasonableness in all the
circumstances, applying a heavy measure of deference to counsel’s judgments.”
Appendix B at 28. Thus, CCA adopted trial counsel’s subjective, post hoc testimony
that “based on the information they had from Dr. McGarrahan indicating Applicant
had little or no cognitive impairment,” trial counsel exercised judgment to which the
court just deferred. Appendix B ¶ 231. Trial counsel’s complete reliance on

20

McGarrahan was the entire basis for the CCA’s finding that trial counsel were not
deficient.
In the alternative, the CCA found that trial counsel’s ineffectiveness did not
prejudice Harris. The court held the standard for showing prejudice was as follows:
“An applicant asserting a claim of ineffective assistance of counsel has the burden to
prove, by a preponderance of the evidence, that . . . the deficient performance
prejudiced the defense such that ‘there is a reasonable probability that, but for
counsel’s unprofessional errors, the result of the proceeding would have been
different.’” Appendix B at 26 (citation omitted).
With respect to prejudice, the CCA’s findings again were based entirely on
trial counsel’s testimony that they believed that had they investigated the
mitigating evidence offered by habeas counsel, it would not have made a difference
because McGarrahan told them during trial that she did not believe the results of
her examination could help their case.
Likewise, the CCA concluded that trial counsel’s failure to investigate
Harris’s lead exposure did not prejudice his defense: “Because the expert testimony
would have been, at best, that [Harris] Applicant may have been (more likely than
not) exposed to lead, it is not reasonably likely the outcome of Applicant’s trial
would have been different even if counsel had presented evidence of childhood lead
exposure in the punishment phase.” Appendix B ¶ 234.

21

XII.
A.

REASONS TO GRANT THE PETITION

The Court Should Correct the CCA’s Failure to Identify or Apply Any
Professional Norms.
Strickland “calls for an inquiry into the objective reasonableness of counsel’s

performance, not counsel’s subjective state of mind.” Harrington, 562 U.S. at 110.
The lower court must identify the prevailing professional norms before it decides
whether a potential justification for counsel’s performance is objectively reasonable.
Strickland, 466 U.S. at 688.
1.

The CCA’s Failure to Apply Professional Norms Deprived Harris
of Due Process.
a.

This Court requires habeas courts to determine and
apply professional norms.

Strickland requires habeas courts to identify whether the representation “fell
below an objective standard of reasonableness.” Strickland, 466 U.S. at 688.
Objective standards of reasonableness are the “professional norms” prevailing in the
time and place of the trial. See id. “It is the responsibility of the courts to
determine the nature of the work that a defense attorney must do in a capital case
in order to meet the obligations imposed by the Constitution . . . .” Van Hook, 558
U.S. at 14 (Alito, J., concurring). The courts must identify objective evidence of
prevailing norms to ensure that courts undertake “an inquiry into the objective
reasonableness of counsel’s performance, not counsel’s subjective state of mind.”
Harrington, 562 U.S. at 105, 110.

22

Here, the CCA failed to identify objective standards of reasonableness. The
CCA could not have determined whether trial counsel’s performance was deficient
by measuring their representation against “prevailing professional norms” in trial
counsel’s locale at the time of trial, as required by Strickland.
b.

The CCA failed to apply or articulate any professional
norms at all.

Harris offered the ABA and Texas Guidelines as evidence of professional
norms. This Court has relied on the ABA standards to determine that the
defendant’s attorney’s investigation of mitigating circumstances was deficient.
Rompilla v. Beard, 545 U.S. 374, 389-90 (2005); Wiggins, 539 U.S. at 533; Williams
v. Taylor, 529 U.S. 362, 396 (2000). The CCA rejected the ABA and Texas
Guidelines, finding that “the ABA and Texas Bar Association guidelines are not
law, but guidelines of practice.” Appendix B¶ 172.
Harris also presented the testimony of expert Burr, who testified to the
prevailing standards of care among local criminal defense counsel in Texas
defending capital cases. Burr testified how trial counsel’s performance fell below
prevailing professional norms. Once trial counsel became aware that Harris’s
mother drank while pregnant with him, and that his mother and he were exposed to
lead toxins from a lead smelter near their homes their entire lives, trial counsel
should have fully investigated whether Harris suffered from FASD and lead
poisoning. Habeas counsel undertook such an investigation, discovered that Harris
suffers from FASD and lead poisoning, and obtained proof that he is afflicted with
brain damage. Burr explained that evidence such as habeas counsel discovered and
23

developed here could have provided powerful mitigating evidence in the punishment
phase. Burr testified that trial counsel should have investigated whether Harris
really belonged to a violent gang. HPFFCL, ¶¶ 349-50, 363-64, 423, 425.
The CCA also rejected Burr’s testimony. The reason the CCA gave was that
Burr applied professional norms to the facts as he understood them, and this
“moves beyond the scope of the standards of care recommended by the ABA and
Texas Bar Association guidelines in a mitigation investigation to what Mr. Burr’s
personal recommendations might be under a set of facts.” Appendix B ¶ 184. This
was legally incorrect. Burr properly applied processional norms to the facts as he
understood them—indeed, he properly addressed the ultimate issue. Texas Rule of
Evidence 703, similar to the analogous federal rule, states that “[a]n expert may
base an opinion on facts or data in the case that the expert has been made aware of,
reviewed, or personally observed.” Tex. R. Evid. 703. Further, Texas Evidence Rule
704 states that “[a]n opinion is not objectionable just because it embraces an
ultimate issue.” Tex. R. Evid. 704.
The CCA here failed to identify or apply any prevailing norms at all, and
therefore applied no objective standards at all to trial counsel’s conduct.
c.

The CCA improperly accepted trial counsel’s post hoc
justifications for their failure to investigate instead of
the objective professional norms Harris offered.

The CCA completely failed to identify the prevailing norms against which
trial counsel’s representation were to be measured. Thus, the CCA failed to conduct
“an inquiry into the objective reasonableness of counsel’s performance, not counsel’s
subjective state of mind.” Harrington, 562 U.S. at 105, 110. Absent objective
24

standards supporting trial counsel’s reasoning, there were only trial counsel’s
subjective post hoc assertions to support their decisions.
Trial counsel justified their failure to investigate on the fact that
McGarrahan told them during trial that she had nothing to say that would help
Harris. However, trial counsel did not instruct McGarrahan to investigate FASD or
lead exposure, nor did they ask her whether she was qualified to investigate these
conditions—and she was not qualified and had never investigated them. Trial
counsel asserted they felt that reliance on family was sufficient and that they did
not need an expert to explain the effects of Harris’s horrific upbringing on his
actions, or to refute the allegations that he belonged to a gang.
The CCA failed to articulate how these post hoc justifications satisfied any
objective standards, and merely set an impossibly high bar for Harris: “A record
that does not explain trial counsel’s decisions will not show deficient performance
unless the challenged conduct was ‘so outrageous that no competent attorney would
have engaged in it.” Appendix B Findings at 6–7 (citations omitted).
2.

Failure to Apply Professional Norms is a Recurring Problem in
the Lower Courts.

The CCA’s failure to articulate and apply any prevailing norm is a consistent
and recurring problem in post-conviction cases. The Court needs to correct these
problems, or there will be no grounding in prevailing professional norms, no
framework or assessing counsel’s performance, inconsistencies and result-oriented
outcomes. This Court undertook to correct a similar problem in Moore v. Texas, 137
S. Ct. 1039, 1053 (2017), holding that the CCA improperly relied on its own
25

“nonclinical” factors for determining mental disability, rather than the “medical
community’s diagnostic framework.” Likewise, the Court needs to emphasize that
trial counsel’s performance must be measured through application of professional
norms developed by lawyers experienced in representing capital defendants—
whether offered through the ABA standards or expert testimony or other recognized
sources for which there is a proper foundation.
This problem is not limited to this case; it is a recurring one. For example, in
Kemp v. Kelley, 924 F.3d 489, 500–01 (8th Cir. 2019), the court without explanation
rejected testimony from a legal expert that trial counsel’s failure to investigate
FASD while preparing the mitigation case and decision without expert advice to not
purse the issue fell below professional norms. The expert testified that trial
counsel’s performance violated the ABA Guidelines, “which commentary states that
counsel cannot adequately perform the necessary background investigation without
the assistance of investigators and others.” Id. The court held that the ABA
standards are only guides, and accepted wholesale trial counsel’s ex post
explanation that he reasonably detected only “hints” but no “red flags” that his
client was afflicted with FASD. Id. at 502.
In Murphy v. Davis, 737 F. App’x 693, 704–05 (5th Cir. 2018), the court
rejected the defendant’s argument that trial counsel was deficient because she
failed to hire a qualified mitigation expert to investigate and present his
background, instead hiring a psychologist the court admitted had no experience or
training in preparing mitigation. The court also rejected the defendant’s claim that

26

trial counsel was deficient in failing to hire the unqualified psychologist until two
months before trial. The court recognized that Wiggins and the ABA standards
formally recognized and reaffirmed a professional norm requiring trial counsel to
rely on a qualified mitigation expert to investigate and help develop a presentation
of the defendant’s background. Id. But the court held that trial counsel was not
deficient based entirely on trial counsel’s post hoc explanations that she could not
find a qualified mitigation expert and concluded that the psychologist would be good
enough. Id. Trial counsel also asserted that she did not delay in hiring a mitigation
expert because Wiggins was decided a few months before trial, and before Wiggins a
mitigation expert was not the professional norm. Id. But Wiggins did not create a
professional norm requiring a psychosocial history. Wiggins recognized a preexisting professional norm of which trial counsel in Murphy should have been aware
since her appointment. Wiggins, 539 U.S. at 524 (“standard practice in Maryland in
capital cases at the time of Wiggins’ trial included the preparation of a social history
report”).
In Anderson v. Kelley, 938 F.3d 949, 964 (8th Cir. 2019), the court denied
Anderson’s claim that his trial counsel was ineffective for failing to investigate
whether Anderson had FASD. As the dissent noted, “Anderson’s lead mitigation
attorney acknowledged the team ‘did not consider the possibility that [Anderson]
might have been exposed to alcohol in utero or that he suffered from fetal alcohol
syndrome. . . . It just isn’t something we considered one way or the other.’” Id. at
963-64. “The majority deflect[ed] blame from Anderson’s attorneys by shifting focus

27

to the experts his attorneys retained and their failure to identify FASD.” Id. at
964. Implicitly, the majority recognized that counsel’s failure to dig deeper fell
below the ABA standards, stating, “we emphasize, that the Supreme Court and this
court have instructed repeatedly that the ABA Guidelines are ‘only guides to what
reasonableness means, not its definition.’” Id. at 958 n.3 (quoting Van Hook, 558
U.S. at 8 and citing Roe v. Flores-Ortega, 528 U.S. 470, 479 (2000) (claiming the
case holds that “imposing ‘specific guidelines’ on counsel is ‘not appropriate’”)
(citation omitted)). But as the dissent noted, “[t]he experts did not have access to
everything that counsel did and, more importantly, they lacked the most valuable
evidence in this case—[the mother’s] admission that she drank while pregnant—
because counsel failed to uncover it. . . . When counsel fail to ask important
questions and turn up crucial facts, that failure cannot be shifted to experts.” Id. at
964; see also Emily Olson-Gault, Reclaiming Van Hook: Using the ABA’s Guidelines
and Resources to Establish Prevailing Professional Norms, 46 HOFSTRA L. REV.
1279, 1304 (2018) (“some [courts] have used [Van Hook] to disregard the [ABA]
Guidelines entirely in their analysis of ineffective assistance of counsel claims,”
while not identifying any alternative norms).
What the case law shows is that, citing Van Hook, habeas courts reject the
ABA standards as only guidelines, and then fail to articulate or apply any
standards. These courts often also reject expert testimony on the local practice for
no legally cognizable reason, as occurred here. The default “standard” is invariably
trial counsel’s post hoc explanations.

28

B.

The CCA Should Not Have Given Trial Counsel Deference Because
Trial Counsel Did Not Investigate.
1.

This Court Has Reiterated that Absent Investigation, Courts
May Not Defer to Trial Counsel’s Judgment, but Habeas Courts
Continue to Ignore this Direction.

This Court’s precedents establish that where, as here, counsel failed to
investigate issues that may have affected the jury’s decision to impose a death
sentence, the petitioner is entitled to relief. Absent investigation, there is no
deference to trial counsel’s decisions. In Williams v. Taylor, 529 U.S. at 372–73, the
Court reversed because, as here, trial counsel failed to investigate Williams’s
childhood. The Court held that “even if counsel neglected to conduct such an
investigation at the time as part of a tactical decision . . . tactics as a matter of
reasonable performance could not justify the omissions.” Id. at 373. Here, trial
counsel admitted that had he known Harris suffered from FASD and lead
poisoning, he would have presented the evidence. But he was unware of it because
he did not investigate.
In Rompilla, 545 U.S. at 390–93, the Court reversed a death sentence
because trial counsel had neglected to look in the file in Rompilla’s prior conviction.
Id. at 390-92. “If the defense lawyers had looked in the file on Rompilla’s prior
conviction, it is uncontested they would have found a range of mitigation leads that
no other source had opened up.” Id. at 390. These included his difficult childhood
in urban poverty, his parents’ and his own alcoholism, possible fetal alcohol
syndrome disorder, and test results that showed mental illness and limited
cognition. Id. at 390-91. When habeas counsel tested him, they found that
29

Rompilla suffered from organic brain damage. Id at 392. The Court acknowledged
that under Strickland, it must give a “heavy measure of deference to counsel’s
judgments,” but there was no judgment where counsel failed to investigate. Id. at
381, 392 (citation omitted).
Here, the Court should similarly hold. Trial counsel admit they did not
investigate the mitigating evidence Harris’s habeas counsel found, including
evidence of Harris’s brain damage. And they admit that if they had uncovered this
evidence, they would have presented it. In Wiggins, 539 U.S. at 522-23, the Court
expressly held that courts should defer to counsel’s decisions not to investigate leads
to potentially mitigating evidence only if they conducted a reasonable investigation
into the defendant’s background. Id. at 512 (“In deferring to counsel’s decision not
to present every conceivable mitigation defense despite the fact that counsel based
their alleged choice on an inadequate investigation, the Maryland Court of Appeals
further unreasonably applied Strickland.”).
Recently, in Andrus v. Texas, 140 S. Ct. 1875, 1882 (2020), the Court
reiterated that “to assess whether counsel exercised objectively reasonable
judgment under prevailing professional standards, we first ask whether the
investigation supporting counsel’s decision not to introduce mitigating evidence of
Andrus’ background was itself reasonable.” The Court reversed because habeas
counsel had not conducted any investigation, and therefore his decision not to offer
mitigating evidence deserved no deference. Id. at 1887. This situation is
indistinguishable from the case at bar.

30

Courts are still deferring to counsel’s judgment where they failed to
investigate, even ignoring professional norms offered by petitioners. See supra at
25-28. The Court should grant this petition to clarify and reinforce that, under its
precedents, trial counsel here deserve no deference.
2.

Trial Counsel Cannot Offer Post Hoc Justifications and Claim
they Made “Decisions” Where they Failed to Investigate.

The State courts denied Harris habeas relief solely on the principle of
complete deference to trial counsel’s decisions—even though trial counsel did not
even undertake to investigate the mitigating evidence offered by habeas counsel.
“[I]f a purportedly tactical decision is not preceded by a reasonable investigation,
then it is not sufficiently informed and not entitled to the deference typically
afforded counsel’s choices.” Escamilla v. Stephens, 749 F.3d 380, 392 (5th Cir. 2014)
(“We reject[ ] any suggestion that a decision to focus on one potentially reasonable
trial strategy. . . . [i]s ‘justified by a tactical decision’ when ‘counsel did not fulfill
their obligation to conduct a thorough investigation of the defendant’s
background[.]’”) (citation omitted).
Here, as in Williams, Rompilla, Wiggins and Andrus, trial counsel did not
deserve deference because they did not investigate. They were aware that Harris’s
mother drank while pregnant with Harris, and that he grew up in a Superfund site,
but they failed even to investigate what is undeniably powerful mitigating
evidence—fetal alcohol syndrome disorder and lead poisoning. Fetal alcohol
syndrome disorder is “widely acknowledged to be a significant mitigating factor that
reasonable counsel should have at least explored—as outlined in the ABA
31

Guidelines and caselaw at the time.” Williams v. Stirling, 914 F.3d 302, 315 (4th
Cir.), as amended (Feb. 5, 2019).
The CCA denied Harris habeas relief notwithstanding the evidence offered by
habeas counsel that Harris has FASD and significant deficits because of lead
poisoning, as verified by an MRI and accompanying expert testimony showing brain
damage.
Trial counsel knew that the State would offer testimony that Harris belonged
to a violent gang, including expert testimony interpreting his tattoos. Courts
recognize gang evidence is highly prejudicial, and it is for this reason that they
severely restrict use of gang evidence at trial. See, e.g., United States v. Myers, No.
4:08-CR-170-Y, 2009 WL 10679641, at *2 (N.D. Tex. Apr. 8, 2009) (evidence of gang
membership is only allowed where it goes to some specific permissible purpose; for
instance, where gang membership demonstrates involvement in the alleged
conspiracy). Yet trial counsel did not investigate and therefore discover that the
State’s gang evidence was false. If they had investigated, they would have
discovered that Harris has no significant gang history and he received the allegedlyincriminating tattoo long after the crime at issue.
Trial counsel also failed to develop a psycho-social history of Harris’s life.
The CCA’s opinion claims that “[t]he ABA guidelines do not require that a trial
team use expert testimony to present a defendant’s social history to the jury.”
Appendix B ¶ 270. But whether or not the trial team uses an expert to present the
psycho-social history, they must develop one and present it through lay or fact

32

witnesses. See ABA Guidelines, Guideline 10.11 cmt. (noting the importance of
presenting “the client’s complete social history” at punishment).
There is no question that at the time of Harris’s trial in 2012, it was a
professional norm for trial counsel to develop a psycho-social history of a criminal
defendant, with help from an expert. In 2003, the Wiggins Court noted, “standard
practice in Maryland in capital cases at the time of Wiggins’ trial included the
preparation of a social history report.” Wiggins, 539 U.S. at 524. As the Fifth
Circuit has noted, immediately after Wiggins, if not before, all courts explicitly
recognized preparation of a psycho-social history was a professional norm. Murphy,
737 F. App’x at 705; see Wiggins, 539 U.S. at 517 (“[A]t the close of the [habeas]
proceedings, the judge observed from the bench that he could not remember a
capital case in which counsel had not compiled a social history of the defendant,
explaining, ‘[n]ot to do a social history, at least to see what you have got, to me is
absolute error. I just-I would be flabbergasted if the Court of Appeals said anything
else.’”)
3.

The CCA Improperly Found No Prejudice Where Trial Counsel
Failed to Investigate.

Harris must also show that that trial counsel’s deficient performance
prejudiced him. Andrus, 140 S. Ct. at 1885. “Here, prejudice exists if there is a
reasonable probability that, but for his counsel’s ineffectiveness, the jury would
have made a different judgment about whether [Harris] deserved the death penalty
as opposed to a lesser sentence.” Id. at 1885-86 (citing Wiggins, 539 U.S. at 536).

33

The CCA concluded there was no prejudice by relying on counsel’s subjective
post hoc assertion. Trial counsel testified they did not investigate because
McGarrahan emailed them during trial that she could not provide helpful testimony
regarding Harris’s cognitive deficits. The court’s logic was that because
McGarrahan said that she had nothing helpful to say at trial, trial counsel’s failure
to investigate did not matter. The CCA ignored the undisputed record introduced
by habeas counsel— MRI evidence that Harris had organic brain damage, Dr.
Davies’s diagnosis that he suffered from FASD, and Dr. Dydek’s testimony that he
was poisoned in utero and as a child by lead. The CCA did not address whether this
evidence would have overcome McGarrahan’s opinion in an email to trial counsel a
week after trial began.
The State courts’ finding of no prejudice is facially unbelievable and contrary
to the law. The CCA should have assessed the prejudice prong based on the totality
of the evidence. In assessing whether Harris showed that his trial counsel’s
ineffectiveness prejudiced him, “‘the reviewing court must consider ‘the totality of
the available mitigation evidence—both that adduced at trial, and the evidence
adduced in the habeas proceeding.’” Id. at 1886 (quoting Williams, 529 U.S. at 397–
398 and citing Sears v. Upton, 561 U.S. 945, 956 (2010) (“A proper analysis of
prejudice under Strickland would have taken into account the newly uncovered
[mitigation] evidence . . ., along with the mitigation evidence introduced during [the
defendant’s] penalty phase trial, to assess whether there is a reasonable probability

34

that [the defendant] would have received a different sentence after a
constitutionally sufficient mitigation investigation.” (citing cases)).
The CCA evaluated prejudice by focusing on the evidence offered by the
prosecution at trial, and essentially ignoring the new, mitigating evidence
presented by habeas counsel. However, courts must take account of all the evidence
admitted in the habeas proceeding—the whole record. As this Court recently found
in Andrus, a factually similar case:
The record before us raises a significant question whether the
apparent “tidal wave,” 7 Habeas Tr. 101, of “available mitigating
evidence taken as a whole” might have sufficiently “‘influenced the
jury’s appraisal’ of [Andrus’] moral culpability” as to establish
Strickland prejudice, Wiggins, 539 U.S. at 538, 123 S. Ct. 2527
(quoting Williams, 529 U.S. at 398, 120 S. Ct. 1495). (That is, at the
very least, whether there is a reasonable probability that “at least one
juror would have struck a different balance.” Wiggins, 539 U.S. at 537,
123 S. Ct. 2527.) That prejudice inquiry “necessarily require[s] a court
to ‘speculate’ as to the effect of the new evidence” on the trial evidence,
“regardless of how much or little mitigation evidence was presented
during the initial penalty phase.” [Sears, 561 U.S. at 956]; see also id.,
at 954, 130 S. Ct. 3259 (“We have never limited the prejudice inquiry
under Strickland to cases in which there was ‘little or no mitigation
evidence’ presented”).
Andrus, 140 S. Ct. at 1887. In determining whether there is prejudice, the CCA
should have considered the MRI showing brain damage, Dr. Davies’s diagnosis that
Harris suffered from FASD, Dr. Dydek’s testimony that Harris suffered cognitive
impairments as a result of lead exposure in utero as a child, and that the State
falsely claimed that Harris was in a violent gang. The CCA also ignored Harris’s
tormented psycho-social history.
The CCA’s error here is pervasive in the lower courts. See e.g., Andrus, 140
S. Ct. at 1887 (“Given the uncertainty as to whether the Texas Court of Criminal
35

Appeals adequately conducted that weighty and record-intensive analysis in the
first instance, we remand for the Court of Criminal Appeals to address Strickland
prejudice in light of the correct legal principles articulated in the case.”); see supra
at 25-28. Here, the CCA based its finding that there was no prejudice based solely
on the subjective belief of trial counsel who did no investigation. Without the
benefits of an investigation, trial counsels’ subjective beliefs are inherently
distorted. Andrus, 140 S. Ct. at 1885-86.
C.

The State Courts Violated Strickland by Applying the Wrong
Standard of Proof for Prejudice.
In addressing the prejudice prong, the CCA deprived Harris of due process

because it held him to a standard of proof higher than Strickland prescribes. The
CCA held the standard for showing prejudice was as follows: “An applicant
asserting a claim of ineffective assistance of counsel has the burden to prove, by a
preponderance of the evidence, that . . . the deficient performance prejudiced the
defense such that ‘there is a reasonable probability that, but for counsel’s
unprofessional errors, the result of the proceeding would have been different.’”
Appendix B at 26 (citing Strickland, 466 U.S. at 694; Ex parte Jimenez, 364 S.W.3d
866, 883 (Tex. Crim. App. 2012)).
But “Strickland held that to prove prejudice the defendant must establish a
‘reasonable probability that, but for counsel’s unprofessional errors, the result of the
proceeding would have been different;’ it specifically rejected the proposition that
the defendant had to prove it more likely than not that the outcome would have
been altered.” Woodford v. Visciotti, 537 U.S. 19, 22 (2002).
36

“Reasonable probability” to prove prejudice is a less of a burden than a
preponderance of the evidence. See Strickland, 466 U.S. at 694 (holding that
prejudice can be shown “even if the errors of counsel cannot be shown by a
preponderance of the evidence to have determined the outcome”); accord Kyles v.
Whitley, 514 U.S. 419, 433-34 (1995) (“[A] reasonable probability that . . . the result
of the proceeding would have been different . . . does not require demonstration by
a preponderance.”) (citations omitted).
The federal circuits disagree about the correct standard. Fifth Circuit courts
continuously apply the preponderance of the evidence standard to the prejudice
prong, in blatant violation of this Court’s holdings, while other circuits disagree.
See, e.g., Rector v. Johnson, 120 F.3d 551, 563 (5th Cir. 1997)
(“Rector bears the burden of proving both prongs [of Strickland] by a
preponderance of the evidence.”); Randoff v. United States, No. 9:13cv289, 2014 WL
12815048, at *1 (E.D. Tex. Oct. 27, 2014) (“Mere allegations of prejudice are
insufficient; the movant must affirmatively prove by a preponderance of the
evidence that he was prejudiced as a result of counsel’s deficient performance.”),
report and recommendation adopted 2017 WL 3599539 (E.D. Tex. Aug. 21, 2017);
Hebert v. Rogers, 890 F.3d 213, 229 (5th Cir. 2018) (“In order to prevail on a claim
for ineffective assistance of counsel, a party must prove—by a preponderance of the
evidence—her counsel performed deficiently and that deficient performance caused
her prejudice.”) (Steward, J., concurring); compare Ellis v. Harrison, 947 F.3d 555,

37

559 (9th Cir. 2020) (finding error where the lower court required the defendant to
show prejudice by a preponderance of the evidence) (Nguyen, J., concurring).
The problem is epidemic in the state courts, including in the highest courts of
Texas (as here), California, Iowa, Pennsylvania, Minnesota and Oregon. E.g.,
People v. Centeno, 60 Cal. 4th 659, 674, 338 P.3d 938, 950 (Cal. 2014) (a defendant
alleging ineffective assistance of counsel “bears the burden of showing by a
preponderance of the evidence that (1) counsel's performance was deficient because
it fell below an objective standard of reasonableness under prevailing professional
norms, and (2) counsel's deficiencies resulted in prejudice”); State v. Smothers, 590
N.W.2d 721, 722 (Iowa 1999) (“To establish ineffective assistance of counsel,
Smothers must prove, by a preponderance of the evidence, both that his trial
counsel failed to perform an essential duty and that prejudice resulted from the
failure.”); Commonwealth v. Lassiter, 554 Pa. 586, 592, 722 A.2d 657, 660 (1998) (“A
criminal defendant sustains a claim of ineffectiveness of counsel by proving by a
preponderance of the evidence: (1) that the underlying claim is of arguable merit; (2)
that counsel’s performance had no reasonable basis; and (3) that counsel’s
ineffectiveness worked to his prejudice.”); State v. Vick, 632 N.W.2d 676, 688 (Minn.
2001) (“The second prong of the test, prejudice, requires a defendant to show by a
preponderance of the evidence that counsel’s errors so prejudiced the case that a
different outcome would have resulted but for the errors.”); Lichau v. Baldwin, 333
Or. 350, 359, 39 P.3d 851, 856 (2002) (“To prevail, petitioner must demonstrate, by
a preponderance of the evidence, that McCrea failed to exercise reasonable

38

professional skill and judgment, and that petitioner suffered prejudice as a result.”);
Ex parte Wolf, 296 S.W.3d 160, 168 (Tex. App. 2009) (“To establish ineffective
assistance of counsel, Wolf had to prove by a preponderance of the evidence in the
court below that (1) Devlin’s representation fell below an objective standard of
reasonableness; and (2) Devlin’s deficient performance resulted in prejudice to the
defense.”); State v. L.A., 433 N.J. Super. 1, 13, 76 A.3d 1276, 1283 (App. Div. 2013)
(“It is well-settled that to set aside a conviction based upon a claim of ineffective
assistance of counsel, a petitioner must prove, by a preponderance of the evidence,
that (1) counsel performed deficiently, and made errors so serious that he or she
was not functioning as counsel guaranteed by the Sixth Amendment; and (2)
defendant suffered prejudice as a result.”); Overall v. State, No. 88-215-III, 1988 WL
138228, at *1 (Tenn. Crim. App. Dec. 28, 1988)
(“When the petitioner seeks to vitiate a conviction on the ground that counsel’s
representation was ineffective, the petitioner must establish by a preponderance of
the evidence (a) the services rendered or advice given by counsel fell below “the
range of competence demanded of attorneys in criminal cases . . . and (b) the
unprofessional conduct of counsel enured to the prejudice of the petitioner.”).
XIII. CONCLUSION
The Court should grant the petition, vacate the order below, and remand this
case with instructions to identify and apply professional norms, consider the
mitigating evidence, reassess the prejudice prong in light of that mitigating
evidence, and apply a reasonable probability, not a preponderance standard to
assess prejudice.
39

Respectfully submitted,

GWENDOLYN C. PAYTON
Counsel of Record
JOHN R. NEELEMAN
KILPATRICK TOWNSEND &
STOCKTON LLP
1420 Fifth Avenue
Suite 3700
Seattle, WA 98101
(206) 626-7714
gpayton@kilpatricktownsend.com
jneeleman@kilpatricktownsend.com

ADAM H. CHARNES
KILPATRICK TOWNSEND &
STOCKTON LLP
2001 Ross Avenue
Suite 4400
Dallas, TX 75201
(214) 922-7106
acharnes@kilpatricktownsend.com

Benjamin Wolff
OFFICE OF CAPITAL AND
FORENSIC WRITS
1700 N. Congress Avenue
Suite 460
Austin, Texas 78701
(512) 463-8600
Benjamin.Wolff@ocfw.texas.gov

40

APPENDIX A

IN THE COURT OF CRIMINAL APPEALS
OF TEXAS
NO. WR-80,923-01

EX PARTE RODERICK HARRIS, Applicant

ON APPLICATION FOR POST-CONVICTION WRIT OF HABEAS CORPUS
FROM CAUSE NO. F-0900409-Y IN CRIMINAL DISTRICT COURT NO. 7
DALLAS COUNTY
Per curiam.
ORDER
This is an application for a writ of habeas corpus filed pursuant to the provisions of
Texas Code of Criminal Procedure Article 11.071.
In May 2012, a jury convicted Applicant of the capital murder of Alfredo Gallardo in
the course of committing or attempting to commit robbery. See TEX. PENAL CODE
§ 19.03(a)(2). The jury answered the special issues submitted under Article 37.071 of the

Harris – 2
Texas Code of Criminal Procedure, and the trial court, accordingly, set punishment at death.1
This Court affirmed Applicant’s conviction and sentence on direct appeal. Harris v. State,
No. AP-76,810 (Tex. Crim. App. May 21, 2014) (not designated for publication).
In his application, Applicant presents six claims challenging the validity of his
conviction and sentence. The trial court held an evidentiary hearing, entered findings of fact
and conclusions of law, and recommended that we deny the relief that Applicant seeks.
We have reviewed the record regarding Applicant’s allegations. Some of his claims
are multifarious and overlapping. In Claims 1 and 2, Applicant argues that counsel were
ineffective for failing to introduce certain mitigating evidence, including:
•

Expert testimony to show that he has suffered permanent brain damage due to Fetal
Alcohol Spectrum Disorder and toxic lead exposure;

•

A social worker to explain how his childhood experiences influenced his behavior;

•

A gang expert to rebut the State’s gang expert and to place in context Applicant’s past
involvement in a youth gang; and

•

An expert to discuss the “school to prison pipeline.”
In Claim 3, Applicant argues that his counsel were ineffective for failing to object to

testimony that he was wearing a stun belt when he was inadvertently allowed to ride
unsupervised in an elevator. In Claims 4 and 5, Applicant faults defense counsel’s decision
not to object—and appellate counsel’s decision not to bring a claim—regarding testimony
and evidence about:
1

Unless otherwise indicated, all references to “Articles” refer to the Texas Code of
Criminal Procedure.

Harris – 3
•

The fatal injuries Applicant inflicted on Carlos Gallardo, Alfredo Gallardo’s brother,
during the same criminal transaction;

•

First responders’ efforts to save Alfredo Gallardo;

•

The fact that Applicant shot at responding officers as he tried to escape;

•

Items found in a car that was parked at the scene of the crime; and

•

Applicant’s booking sheet which listed the car’s license plate.
Applicant fails to meet his burden under Strickland v. Washington, 466 U.S. 668

(1984), to show by a preponderance of the evidence that his counsel’s representation fell
below an objective standard of reasonableness and that there was a reasonable probability
that the result of these proceedings would have been different but for counsel’s deficient
performance. See Ex parte Overton, 444 S.W.3d 632, 640 (Tex. Crim. App. 2014) (citing
Strickland, 466 U.S. at 688).
In Claim 4, Applicant additionally alleges that he was denied due process by trial
counsel’s failure to object—and the trial court’s overruling counsel’s pretrial evidentiary
objections—to the admission of forensic evidence regarding the death of Carlos Gallardo.
Applicant killed Carlos Gallardo during the same robbery in which he killed Alfredo
Gallardo. He fails to demonstrate that the trial court or trial counsel erred. Cf. Devoe v.
State, 354 S.W.3d 457, 469 (Tex. Crim. App. 2011) (“Evidence of another crime, wrong, or
act also may be admissible as same-transaction contextual evidence where ‘several crimes
are intermixed, or blended with one another, or connected so that they form an indivisible
criminal transaction, and full proof by testimony . . . of any one of them cannot be given

Harris – 4
without showing the others.’”) (citations omitted); see also Sonnier v. State, 913 S.W.2d 511,
519 (Tex. Crim. App. 1995) (“[W]hen the power of the visible evidence emanates from
nothing more than what the defendant has himself done we cannot hold that the trial court
has abused its discretion merely because it admitted the evidence.”). Similarly, Applicant
has not demonstrated that a due process violation resulted from counsel’s decision not to
object to the forensic evidence enumerated in Claim 5.
Applicant’s constitutional challenge in Claim 6 to Article 37.071’s “10-12 Rule” is
not cognizable on habeas review and lacks merit; he raised a similar claim on direct appeal
and we have previously rejected such challenges. See Ex parte Hood, 304 S.W.3d 397, 402
n.21 (Tex. Crim. App. 2010) (“[T]his Court does not re-review claims in a habeas corpus
application that have already been raised and rejected on direct appeal.”); see also Smith v.
State, 297 S.W.3d 260, 278 (Tex. Crim. App. 2009) (rejecting the argument that the “10-12
rule” violates the Eighth Amendment principles discussed in Mills v. Maryland, 486 U.S. 367
(1988), and that the trial court violated the defendant’s constitutional rights “by instructing
the jury in this manner”). Applicant also argues in Claim 6 that the statutory instructions
misled at least one juror, offering a juror’s affidavit in support. The affidavit describes the
juror’s deliberative process and purports to convey aspects of the group’s deliberations. Her
affidavit is not competent, admissible evidence here. See TEX. R. EVID. 606(b).
We adopt the trial court’s findings of fact and conclusions of law.2 Based upon the
2

We note that, in Findings 264, 355, and 365, the habeas court refers to “the capital

(continued...)

Harris – 5
trial court’s findings and conclusions and our own review of the record, we deny relief.
IT IS SO ORDERED THIS THE 16TH DAY OF DECEMBER, 2020.

Do Not Publish

(...continued)
murder of Carlos Gallardo,” instead of the capital murder of Alfredo Gallardo. This appears to
be a clerical error and does not affect the validity of the court’s findings.

APPENDIX B

Cause No. W09-00409-Y(A)

In Criminal District Court No. 7 of Dallas
County, Texas
Trial Court Cause No. F09-00409-Y

EX PARTE RODERICK HARRIS

FINDINGS OF FACT AND CONCLUSIONS OF LAW

TABLE OF CONTENTS

BACKGROUND FACTS .......................................................... : ........ 4
PROCEDURAL HISTORY ............................................................. 22
GENERAL FINDINGS OF FACT .................................................... 23
SPECIFIC FINDINGS OF FACT .................................................... 25
GROUND 1: Ineffective Assistance ofTrial Counsel .................. 25
Trial Counsel Did Not Render Ineffective Assistance by Not
Investigating and Presenting Fetal-Alcohol-Spectrum-Disorder
Evidence in the Punishment Phase of Trial .......................... 37
Trial Counsel Did Not Render Ineffective Assistance by Not
Investigating and Presenting Childhood-Lead-Exposure
Evidence in the Punishment Phase .................................... 75
Trial Counsel Did Not Render Ineffective Assistance by Not
Presenting the Testimony of a Social Historian like Laura
Sovine During the Punishment Phase ofTrial ..................... 82
Trial Counsel Did Not Render Ineffective Assistance by Not
Presenting the Testimony of a School-to-Prison-Pipeline
Expert like Dr. Courtney
Robinson during the Punishment Phase of Trial .................. 91
Trial Counsel Did Not Render Ineffective Assistance by Not
Presenting the Testimony of a Gang Expert to
Contextualize Applicant's Gang
Membership as Mitigating ................................................. 100
GROUND 2: Gang-Related Evidence ....................................... 101

2

GROUND 3: Counsel's Decision not to Object to Evidence
Applicant Wore a Restraint During Voir Dire .......................... 125
GROUND 4: Admission of Medical Examiner's Testimony and
Forensic Evidence Related to the Death of Carlos Gallardo . . . .. 131
GROUND 5: Counsel's Alleged Failure to Object to Certain
Evidence During the Guilt/Innocence Phase of Trial .............. 135
GROUND 6: "As Applied" Challenge to Article 37.071's Mandate
Not to Tell Jurors that Failure to Reach a Verdict Results in a Life
Sentence .............................................................................. 139
CONCLUSION ...................... ., ......................................................... 147

3

Having considered the original application for writ of habeas
corpus; the State's answer; official court documents and records
from the trial, direct appeal, and these writ proceedings; evidence
presented at the hearings conducted on May 29, 20 18 through
June 1, 2018, July 16, 2018, and September 10 through 12, 2018;
other filings by the parties in this writ proceeding; the Court
makes the following findings of fact and conclusions of law.
BACKGROUND FACTS

Applicant was convicted and sentenced to death for the
March 17, 2009 capital murder of Alfredo Gallardo committed in
the course of a home-invasion robbery.
Alfredo and Maria Carmin Gallardo lived in a mobile home in
east Dallas with their children and Alfredo's brother, Carlos
Gallardo. (RR58: 31-32, 36, 38, 56-57, 126; SE 1-5). 1 On the
evening of March 17, 2009, Alfredo, his wife Maria, brother Carlos,
sons Omar and Jair, daughter Yahaira, and grandson Martine
Junior were at home. (RR58: 61, 63-64, 67-68, 133). As Alfredo
started to exit the front door at nine o'clock p.m. to check on his
daughter who was at a friend's home, Applicant forcefully pushed
the door open and pointed a gun at Alfredo's head. (RR58: 77-79,
126-128). Thirteen-year-old Yahaira attempted to retreat with her
younger brother and nephew into her parents' bedroom, but
Applicant called out to her, demanding, "Come here, bitch." (RR58:
55-56, 77, 80-83, 128-129). While he spoke, Applicant pointed the
gun at the family. (RR58: 83). He forced Alfredo and Carlos to sit on
1

Throughout these findings and conclusions, "RR" refers to the reporter's record on direct
appeal. "CR" refers to the clerk's record on direct appeal. "SE" refers to the State's exhibits
admitted at trial. "DE" refers to Applicant's exhibits admitted at trial. "WRR" refer to the
reporter's record in these writ proceedings. "Application Exh." refers to Applicant's Exhibits
numbered 1 through 28 attached to his original writ application (this includes the affidavit
of Dr. Julian Davies, filed February 23, 2015, and identified as Exhibit 28). "WRR State's Exh."
refers to the State's exhibits 1 through 17 admitted during the writ hearing. "WRR
Applicant's Exh." refers to Applicant's exhibits 1 through 15 admitted during the writ
hearing. Other reports and affidavits filed by the parties with the court's permission in this
proceeding, but not admitted with exhibit numbers, are identified using the author's or
affiant's last name.

4

the sofa, and demanded money and jewelry. (RR58: 77, 79, 82, 130).
Yahaira translated Applicant's demands into Spanish for her
parents and uncle. (RR58: 83-84, 87, 144). She told Applicant the
family did not have any money. (RR58: 130, 132).
Alfredo and Maria's adult son Omar was in his bedroom
watching television. , (RR58: 39, 42). Omar heard his father
speaking in a panicked voice. (RR58: 39). He peeked out, saw the
robbery in progress, exited the home through his bedroom window,
and sought assistance from the mobile home park security guard.
(RR58: 30-31, 39-43, 47, 50-51, 135). The security guard called
911 and reported the robbery. (RR58: 31, 35, 43-44; SE 6, 6A).
Meanwhile inside the home, Yahaira gave Applicant a twodollar bill from her mother's purse. (RR58: 84, 131). Applicant
demanded the men's wallets, and struck both in the face with the
gun. (RR58: 85-86, 128-130). At gunpoint, Applicant forced Alfredo
and Carlos to lie face down on the living room floor and took their
wallets. (RR58: 87-89, 129-130). Applicant herded the family from
the living room through the master bedroom and bathroom,
forcing them into the master closet. (RR58: 89-90, 93-94, 131133). He repeatedly asked for money, jewelry, or drugs. (RR58: 9091, 130, 132, 134). He also asked for the keys to the red truck
parked outside the house; Yahaira lied and told him her brother
had the keys and was at a party. (RR58: 98; SE 98-99, 134). The
family did not have any drugs on the premises. (RR58: 111).
Applicant was angry the family did not have any money. (RR58:
132-133).
As they went through the master bedroom, Yahaira handed
Applicant a case containing some jewelry; Applicant removed a
necklace and two rings. (RR58: 90- 92, 118; SE 20, 21). In the
closet, Applicant tied Alfredo's hands with a belt and made Yahaira
tie her uncle's hands. (RR58: 94-95, 136). Yahaira believed Applicant
was going to kill them. (RR58: 95). While the family was in the
closet, they heard Applicant searching the bathroom cabinets and
yelling. (RR58: 96-98, 133; SE 19).
5

Applicant returned, pointed the gun at Maria, and started to
take her out of the closet. (RR58: 100-101, 134). When Maria cried
and prayed for him not to take her, Applicant pulled on Yahaira
instead, starting to remove her from the closet. (RR58: 101, 136).
Applicant was angry. (RR58: 136). Maria was hysterical, and he
threatened to kill them one-by-one if Maria did not calm down.
(RR58: 102, 134- 135, 144-145).
Applicant then pointed the gun at Alfredo and grabbed his
shirt, pulling him out of the closet and into the adjacent bathroom.
(RR58: 101-103, 136, 148-149). Carlos followed. (RR58: 104, 116,
137). Applicant and Alfredo fell into a large Jacuzzi tub, and
Applicant began shooting. (RR58: 102-103, 113-116).
Applicant shot Alfredo first. Yahaira saw Applicant push
Alfredo off himself-in disgust-because of the blood. (RR58: 106).
Yahaira felt a bullet whiz past her in the closet, and her mother
pulled her to the floor. (RR58: 105-106, 137). Applicant continued
to shoot, killing Carlos, who had crouched down near the
bathroom sink at the first gunshots. (RR58: 104, 107, 116). Yahaira
recalled hearing about six gunshots. (RR58: 110). In the courtroom,
Yahaira identified Applicant as the assailant who shot her father
and uncle. (RR58: 82, 118).
Alfredo sustained two gunshot wounds, to the left side of his
face and to his upper left chest. (RR59: 20, 267-269). Carlos also
suffered two gunshot wounds, to the left side of his face and left
shoulder. (RR59: 291). After shooting the men, Applicant left.
(RR58: 107). Yahaira ran from the closet, telling her mother that her
father had been killed. (RR58: 137). Maria saw that her husband
and brother-in-law were covered in blood. (RR58: 138). As she
came out of the closet, Maria heard additional gunfire outside the
trailer. (RR58: 139).
The Dallas Police Department responded to the 911 robbery call
immediately, while Applicant was still in the house. (RR58: 31, 44,
155). Officers were forming a perimeter around the trailer when
Applicant fired the shots inside the home. (RR58: 158-160, 170, 172,
190, 205-206, 208-210). Officer Justin Bowen was positioned
6

outside at the rear wall of the trailer immediately adjacent to where
shots were fired in the bathroom. (RR58: 208-210). Officer Bowen
testified that he "heard five gunshots come from the immediate
other side of that wall." (RR58: 208). A few moments later,
Applicant exited the trailer onto the front porch; Officer Martin
Rivera yelled "police" and instructed Applicant to get on the
ground. (RR58: 172- 173, 190-191). Applicant fired his weapon at
the officers and ran in the opposite direction toward the rear of the
trailer, unexpectedly bumping shoulders with Officer Bowen in the
dark. (RR58: 166, 173-174, 191-192, 195-197, 211-213; RR59: 31,
33-34). Officer Bowen saw Applicant's gun muffle flash and shot
Applicant in the leg and back. (RR58: 213-214, 220-221; RR59:
107, 119-120). Officer David Yzaguirre jumped on Applicant to
restrain him. (RR58: 160-161, 175, 215). Applicant struggled,
refusing to be handcuffed. (RR58: 161-162, 175-177; RR59: 3738). At least three officers were required to get Applicant under
control. (RR58:161-162, 175-176, 180, 216, 233-234; RR59: 37).
Officers recovered Applicant's .40 caliber Glock pistol from the
ground near where the struggle occurred. (RR58: 176, 193-194;
RR59: 84-85, 90-91; SE 81, 89). The slide was locked back, and all
the ammunition in the gun had been fired. (RR58: 193, 236; RR59:
85). Alfredo's wallet and a two-dollar bill were also recovered from
the ground. (RR59: 84-85, 92, SE 83, 92). The Court admitted
Officer Bowen's in-car video and wireless body microphone
recordings into evidence. (RR58: 221-228; SE 149).
Officers entered the trailer and performed CPR on Alfredo.
(RR59: 18-22, 24, 39; SE 41). Carlos, who was lying face down on
the bathroom floor, had no pulse. (RR59: 18, 41; SE 38).
Eventually, ~he Dallas Fire Department declared both men dead at
the scene. (RR59: 42).
Officers subsequently located Applicant's cohort, Anthony
Burton, asleep in Applicant's vehicle in the driveway next door.
(RR58: 45-46; RR59: 43-44, 48, 171- 178; SE 26, 44-46). Officers
recovered a firearm, multiple sets of gloves, and one live round of
ammunition from the car. (RR59: 134-141; SE 98-99, 101-102,
104,107, 110, 111A-111D).
7

DNA found on one of the gloves from the vehicle matched
Applicant's DNA. (RR59: 214; SE 111C, 122). DNA test results on
biological material from the magazine of Applicant's Glock pistol,
State's Exhibit 89, included Applicant, Alfredo, and Carlos as
possible contributors. (RR59: 209-211, 227, 229; SE 122). Testing
on another swab from the pistol included Alfredo and Carlos as
possible contributors. (RR58: 211-212; SE 122).
According to medical examiner Dr. Joni McClain, Alfredo
sustained the gunshot to his cheek from a distance of . one to
three feet. (RR59: 267 -268). This bullet traveled through the left
side of his face, esophagus, and lung, and penetrated his chest wall.
(RR59: 268; SE 132-133, 140). The gunshot to the upper left side of
his chest perforated the left side of his trunk and entered the soft
tissue surrounding the bladder. (RR59: 269; SE 140). Both
gunshots traveled in a downward direction. (RR59: 274, 276-277,
285; SE 140). Dr. McClain removed both bullets during the
autopsy. (RR59: 268-269, 278; SE 139-139A, 140).
Dr. Reade Quinton testified that the gunshot wound to
Carlos's face entered and exited, causing stippling on Carlos's
eyelid, nose, forehead, and cheek. (RR59: 291-292, 294-295; SE
142, 146). Dr. Quinton estimated the range of fire to be close to
three feet. (RR59: 296-297). The gunshot to Carlos's left shoulder
entered the left chest cavity, traveled through the lung, and grazed
the aorta, moving in a downward direction. (RR59: 292, 295-297; SE
144, 146). Dr. Quinton removed the bullet that entered the
shoulder. (RR59: 298; SE 145, 146). Carlos also had a laceration
over his left eyebrow. (RR59: 293; SE 23, 142, 146). Anne Koettel,
a trace evidence examiner, testified that analysis of Carlos's clothing
along with range-of-fire testing of Applicant's gun indicated the gun
muzzle was more than two feet away from Carlos's clothing when
it was fired. (RR59: 24 7 -252; SE 126-128).
Authorities transported Applicant to Baylor Hospital where
he underwent surgery for his gunshot wounds and was
hospitalized for one month. (RR59: 106, 114, 117; SE 117). The
officer who rode with Applicant in the ambulance noticed he was
8

wearing one red glove, which was removed in the emergency
room and retained with his clothing. (RR59: 148-153; SE 115,
117). Officers also recovered Carlos's wallet and the stolen jewelry
from Applicant's possessions at the hospital. (RR59: 95-96, 151154, 167, 177, 181-182; SE 20, 21, 115, 117). The initial
toxicology screen done at the hospital indicated Applicant had
opiates in his system, which medical personnel had administered
for pain; the toxicology did not reveal that he had taken PCP.
(RR59: 116-117).
Yahaira was the sole witness Applicant called during the
guilt/innocence phase. (RR60: 79). She testified that her father
was wearing a white t-shirt when Applicant shot him; the t-shirt
apparently was not collected at the scene or retained. (RR60: 80).
The State did not offer any rebuttal evidence (RR60: 81), and the
jury found Applicant guilty of capital murder for the murder of
Alfredo Gallardo in the course of or during a robbery, as charged in
the indictment. (RR60: 126).
At the punishment phase of trial, the State presented
evidence of multiple extraneous aggravated robberies Applicant
committed during the month prior to the capital murder in the
case-in-chief. In one of those robberies, Applicant shot three
brothers, killing one.
Luis Gonzalez resided in an apartment at 810 Blaylock Street
in Dallas. On February 15, 2009, two black males confronted him
at his apartment door, forced him into the apartment, put a gun to
his head, wrapped a sweatshirt around his head and face, and tied
his wrists with speaker cord wires. (RR62: 230-236, 257). One
man carried the gun and the other had an unlit cigarette in his
mouth. (RR62: 233- 234). The men demanded money. (RR62: 235).
They robbed him of his watch, shoes, a set of wheel rims (which
were stored in his apartment), a stereo, his wallet containing
approximately $450 in cash, another $900 from the apartment,
and his cell phone. (RR62: 236-240, 256). Gonzalez believed the
men were going to kill him. (RR62: 257). They ransacked the
apartment. (RR62: 239). Each of the robbers wore one red glove and
9

one white glove. (RR62: 243). They fled the scene in a 1984 or 1985
white Ford with dark tinted windows. (RR62: 241-242). This
description matched the description of Applicant's vehicle. (RR62:
242; SE 274-277). Gonzalez identified Applicant in the courtroom as
the robber who pointed the gun to his head. (RR62: 255-256). After
pointing to him, Gonzalez said, "It would be impossible for me to
forget him." (RR62: 255).
Officers collected a glove and a cigarette butt from the crime
scene. (RR62: 253; RR63: 12-16, 27; SE 176). DNA test results
on a cutting from the glove included Applicant as a possible
contributor. (RR63: 113-116; SE 279-280).
On March 3, 2009, Applicant and two accomplices
committed aggravated robbery and capital murder in an apartment
complex at 301 North Ewing in Dallas. Three brothers were shot;
one died at the scene. (RR63: 147-148).
Margarita Chavez and Karen De La Cruz Espinoza lived in an
apartment on the first floor with their five children. (RR63: 188).
Espinoza and her son arrived home on March 3, 2009 at 10:30
p.m. and parked in the back parking lot of the complex. (RR63:
190-193). As Espinoza and her son walked through the lot, three
black males followed; when she opened her apartment door, the
men pushed them into the apartment. (RR63: 196-195). One man,
who seemed to be the leader, pointed his gun at close range to the
children. (RR63: 196, 200). A child translated what the men were
saying into Spanish for his parents. (RR63: 197). The leader
demanded that Espinoza turn over her handbag. (RR63: 196, 199).
They threatened to kill the family. (RR63: 196-197). The men
ransacked the apartment. (RR63: 202-204; SE 201, 203). They stole
approximately $500 in cash, a payroll check for $380, an Xbox,
DVDs, Espinoza's purse, a women's watch, Chavez's wallet, a set
of keys, and a collapsible baton Chavez used in his work as a
security guard; the men packed the items into the family's
suitcases. (RR63: 204-205, 209). Two of the men left the
apartment while one remained at the door. (RR63: 204). When the
opportunity arose, Espinoza shoved him out the door. (RR63: 20610

207). Chavez viewed a photo lineup with Applicant's photograph in it
but did not identify anyone. (RR64: 71-72). In the courtroom,
Espinoza identified Applicant as the man who she described as the
leader of the three men in her apartment. (RR63: 210-212).
Upstairs, Applicant attempted to enter Roberto Ramos's
apartment. Ramos struggled with Applicant in an attempt to keep
him from entering. (RR63: 232, 246). Ramos's brother Eustacia
Torres Gallegos heard the commotion and went into the living
room. (RR63: 234). Applicant shot Eustacia in the chest. (RR63:
234-236, 250). A third brother, Martin Figueroa Torres, walked into
the living room and saw his . brother struggling with Applicant.
(RR63: 243-246). When Martin stepped toward the door, Applicant
reached over Ramos's shoulder and shot him in the face. (RR63:
247-250).
Applicant then shot Ramos three times, in the mouth, upper
back, and left thigh, killing him.
(RR62: 232-235; RR63: 236,
250, 274; RR64: 104-105). A neighbor, Joe Ozuna, witnessed the
shooting, which occurred on the landing outside the apartment
door. (RR63: 272-278). Martin and Eustacia survived and testified
at trial. The first officers at the scene found Ramos's body in the
breezeway outside his apartment. (RR63: 153, 158; SE 211).
Ramos's 13-year-old daughter Jasmine Juarez was in a
bedroom of the apartment. (RR63: 278). Upon hearing the
gunshots, she called 911. (RR36: 288). The Court admitted the
recording of her 911 call into evidence. (RR63: 289). A few minutes
later, she found her father on the ground outside the apartment
door; she kissed him and told him she loved him. (RR63: 293-294).
Martin later identified Applicant in a photo lineup after viewing
the lineup for about two-and-a-half minutes. (RR63: 254-255;
RR64: 67-75). Applicant challenged the validity of this identification
during cross-examination of Martin and a detective who viewed the
lineup procedure. (RR63: 256, 261-268; RR64: 72-75). Martin did
not identify Applicant in the courtroom. {RR63: 253).
II

After the upstairs shootings, the two suspects fled toward
the rear of the apartment complex, dropping a watch, set of keys,
and Chavez's baton. (RR63: 166- 168, 178, 208-209, 313; RR64: 37;
SE 232, 234, 243). DNA obtained from biological material on the
baton matched Applicant's DNA. (RR64: 93-96; SE 254-255). The
DNA analyst testified that one would expect to find that same DNA
profile only once in every 8.34 trillion people. (RR64: 96). On March
11, 2009, a surveillance video at Cash Plus Pawn recorded a
transaction in which Applicant pawned the Xbox stolen in the
robbery; the pawn ticket reflected Applicant's name. (RR63: 296302; RR64: 44-49; SE 248, 249, 251).
The State offered evidence related to Applicant's youth,
including that he was assigned to a behavioral adjustment
classroom for disruptive students at Brandenburg Middle · School
in Garland, Texas. (RR62: 30). A Garland police department
school resource officer testified that, when Applicant was 14-yearsold, his mother reported him as a run-away, and his Dallas middle
school suspended him. During this incident, Applicant became
combative. Applicant's mother refused to pick him up, and the
school resource officer took him into custody, transferring him to a
Dallas facility for run-away children. (RR62: 33-36).
A former assistant principal at Samuel High School in Dallas,
where Applicant was a freshman, testified that school personnel
found a knife 'With a six- inch blade hidden in the lining of
Applicant's coat in February 2000, and authorities arrested him.
(RR62: 74-79, 84-86; SE 166). The following school year, in
September 2000, Applicant was arrested at school for possession
of marijuana. (RR62: 87 -90).
The Court admitted photographs of Applicant's tattoos, a
number of which are associated -with gangs. (RR62: 150-163).
Detective Barrett Nelson, a Dallas police officer assigned to a U.S.
Marshall's Task Force at the time of trial and previously assigned
to the Dallas Gang Unit, testified as an expert witness. (RR62: 43).
At the prosecutor's request, Nelson examined the photographs of
Applicant's tattoos. (RR62: 46). He explained that the "STR8"
12

tattoo on Applicant's right forearm and "HOOD" on his left forearm
are meant to be lined up and read "straight hood," which means
Applicant comes from the hood, or street, and will handle his
business in a hood type of manner. (RR62: 46-47; SE 152-155).
He indicated the tattoo "HUSTLA," meaning hustler, on the inside
of Applicant's right forearm indicates he is hustling for his money,
in life, and to get ahead, including selling narcotics. (RR62: 48-49;
SE 156). The witness added that most gang members are selling
narcotics or "jacking and robbing people"-i.e. hustling for their
money. (RR62: 49).
Detective Nelson explained that Applicant's tattoo, "Fish
Trap," references the Fish Trap Bloods criminal street gang in
Dallas. (RR62: 50-51; SE 159). This street gang is named after the
former Fish Trap projects on Fish Trap Street in West Dallas. (RR62:
50-51). Applicant also has tattoos of "West" and "212." (RR62: 5052; SE 158). The number 212 is associated with West Dallas, which
has the zip code 75212, and is associated with the Fish Trap
Bloods. (RR62: 51). The number 3500 on the inside of Applicant's
left forearm represents the 3500 block in front of the former Fish
Trap projects. (RR62: 52; SE 162). Applicant's star tattoos also
mean he is associated with the Bloods. (RR62: 51).
Nelson testified that, in his opinion, the combination of the
"Fish Trap," stars, and the numbers 212 and 3500 indicate
Applicant is a Fish Trap Bloods gang member. (RR62: 51..:53, 64;
SE 159-160). Applicant's left forearm also has a tattoo of "Piru,"
which is the street in Los Angeles where the Bloods were founded.
(RR62: 53; SE 163). Applicant has a tattoo, "CK," which Nelson
testified means "Crip killer," again indicating Applicant is a Blood
member; in West Dallas, the rival gang to the Fish Trap Bloods are
the Rupert Circle Crips. (RR62: 53). The officer further testified that
the red items Applicant carried at the time of the capital murder-a
red cell phone and red key chain-and the red glove he was
wearing demonstrate his allegiance to the Bloods and identify him
as a gang member. (RR62: 63-64). In closing on direct
examination, Nelson testified the Bloods are known as a
particularly violent gang; during the witness's time in the Dallas
13

gang unit, they committed murders, aggravated robberies,
narcotics sales, assaults, and home invasion robberies. (RR62: 64).
On cross-examination, Nelson explained that Fish Trap Bloods are
not an organized gang with an organizational hierarchy or meeting
place. (RR62: 65-68). He also testi,fied that Applicant is not listed as
a gang member with the Dallas police department's gang unit.
(RR62: 68-69).
Christopher Arno testified that he and Applicant were
acquaintances in Atlanta, Georgia in 2002. (RR62: 94-99). The two
men lived in the same apartment complex. On one occasion,
Applicant pulled what appeared to be a handgun (but was a BB
gun) on Amo; on another occasion, Arno found Applicant passed
out on his front porch early one morning. (RR62: 101-103, 107,
113). Arno called the police, and Applicant was arrested for
criminal trespass, a misdemeanor. (RR62: 104-106, 113-115).
Because of these interactions, Arno was frightened of Applicant and
moved out of the apartments. (RR62: 101, 106).
Several police officers testified that they arrested appellant
in Dallas for various offenses: on December 5, 2002, for
unauthorized use of a motor vehicle; on December 23, 2003, on
warrants for probation violation and burglary; on September 20,
2006, for traffic violations in which he was later charged with felon in
possession of a firearm; on April 19, 2007, for unauthorized use of
a motor vehicle; and on December 27, 2007, for possession of
marijuana. (RR62: 119-131, 166-171, 175-182, 188-194, 197 -200;
RR63: 125-136; SE 171-172). The jury heard testimony from
Applicant's probation officer regarding several probation violations
of failure to report and drug use. (RR62: 142-164). The Court
admitted into evidence certified judgments reflecting Applicant's
prior criminal convictions. (RR62: 208-209; SE 167, 168, 170,
170A, 173, 175).
In his punishment case, Applicant re-called Martin Figueroa
Torres to testify about his police interview and photo lineup
identification. (RR64: 142-148). Applicant also called an expert, Dr.
Charles Weaver III, who testified extensively about eyewitness
14

identification. (RR64: 155-191, 211-214). Weaver indicated he had
never seen a witness view a lineup for two-and-a-half minutes before
making an identification. (RR64: 186-187).
Four of Applicant's family members testified in detail about
his upbringing, youth, family history, education, and character: his
mother, Pamela Maddox; stepfather, Ramon Maddox ("Ramon Sr.");
half-brother, Ramon Madddox, Jr. ("Ramon Jr."); and a cousin,
Shamy Conley. Applicant's mother was a seventeen- year-old high
school dropout when Applicant was born. (RR64: 219) .. When
Applicant was a small child, she went out a lot, left him with other
people, smoked marijuana, and drank alcohol. (RR64: 222, 227228). Applicant's biological father, Eric Propes, was incarcerated
much of Applicant's life, had little involvement with him, and used
crack cocaine.2 (RR64: 218-219, 239, 258). When Applicant was twoyears-old, he was in a car accident with his mother, hit his head,
and was knocked unconscious; the repercussions of this accident
were unknown. (RR64: 230-232).
Pamela married Ramon Sr. when Applicant was three years
old. (RR64: 227, 244-45; RR65: 37). Pamela and Ramon Sr. had a
volatile relationship; Ramon Sr. was physically abusive. (RR64:
225-226, 263; RR65: 41-42). The children witnessed some of this
violence for about ten years.3 (RR64: 227, 261, 263-264). Ramon
Sr. was very strict; he disciplined Applicant with a belt and
extension cord and struck him. (RR64: 237, 259-260; RR65: 4142). On one occasion, Ramon Sr. choked Applicant; another time,
his mother hit him with a broom (for stealing her car at age 12).
(RR64: 260-261). The parents partied, left the children with
Applicant in charge at 11 or 12 or 13 years of age, and used alcohol
and marijuana in front of the children.4 (RR64: 262-263, 280;
RR65: 42).
2

Eric Propes was incarcerated at the time of Applicant's trial. (RR64: 218
Ramon Jr. testified he never actually saw his parents hit one another, but he saw them
arguing while holding a knife and an iron, and he frequently heard them fighting. (RR64: 2633

264, 285).
4

Ramon Jr. testified, however, that he never saw his parents using illegal drugs. (RR64: 281).
IS

Family members testified Applicant was diagnosed with
Attention Deficit Hyperactivity Disorder (ADHD) at age six or seven;
he had difficulty in school and was placed in special education in
second or third grade. (RR64: 228-229, 286-287; RR65: 42-43).
Learning was hard for Applicant. (RR65: 42-43). He continued in
special education until he dropped out of school in the tenth or
eleventh grade. (RR64: 209, 228, 239). He had a difficult time in
school, and other students teased about his special education
placement. (RR64: 266). Doctors prescribed Ritalin from age seven
through 14. (RR64: 229-230, 264-65). The Ritalin made him
lethargic. (RR65: 43). When Applicant was young, he set a back
room in the family's house on fire. (RR65: 45).
Evidence indicated Applicant's mother gave him insufficient
attention and affection during his upbringing. (RR64: 234). She was
emotionally distant. (RR64: 235). She suffers from manic
depression, schizophrenia, and bipolar disorder and has a history
of multiple mental health hospitalizations, including one for a
suicide attempt. (RR64: 237-238; RR65: 47). Ramon Sr.'s
testimony indicated Pamela sometimes had auditory and visual
hallucinations. (RR65: 46). There is mental illness in Applicant's
maternal and paternal families. (RR64: 237 -238). Ramon Sr.
testified that beginning at age 10, Applicant would become
depressed and talk about killing himself. (RR65: 50).
Ramon Jr. was aware that Applicant joined a gang when he
was 10 years old. (RR64: 268, 276-277). When Applicant was 11 or
12, he helped take care of his two younger brothers, cleaned house,
and cooked. (RR64: 262). He attempted to protect his siblings from
his parents' physical violence and fighting. (RR64: 264). Ramon Jr.
and Conley (a cousin) testified that they loved Applicant. (RR64:
272; RR65: 100). Conley said he was fun loving as a youth and
very protective of her and her sister. (RR65: 91). Applicant began
running away from home at age 13, and, due to the physical abuse
in his household, began challenging his stepfather at age 15.
(RR64: 233-234, 251). He ran away often but returned to check
on his brothers. (RR64: 274-275).
16

Applicant's mother and stepfather's lifestyle changed when
he was fifteen years old. (RR64: 226, 235). Ramon Sr. testified that
he became a Jehovah's Witness and gave up marijuana and alcohol.
(RR64: 54-55). He tried to involve Applicant and his brothers in
activities with the church. (RR64: 236, 254).
Family members reported Applicant used alcohol, marijuana,
and PCP. (RR64: 269, 273-274; RR65: 59, 94). Ramon Jr. testified
Applicant talked to himself and became paranoid when he used
drugs. (RR64: 269-270). Applicant's cousin testified he was
paranoid and heard voices when he used PCP. (RR65: 94). Ramon
Jr. said that Applicant talked to himself and acted strange even
when he was not using narcotics; he did not know, howev~r, if
Applicant had mental health issues. (RR64: 270-271, 274). Ramon
Sr. testified that, when Applicant was older, he called home and
talked about people watching him and talking to him. (RR65: 51). At
these times, Applicant's mother would sometimes locate Applicant
and bring him home. (RR65: 51).
Applicant has three children. (RR64: 239, 272). Ramon Sr.
testified Applicant has been more attentive and responsible since
being incarcerated for this offense. (RR65: 58). Applicant has
expressed remorse for these offenses. (RR65: 59). During his
incarceration in Dallas County, Applicant has been taking
medications that have helped him. (RR65: 60).
Applicant called additional expert witnesses to testify about
the following subject matters: alcohol and drug addiction,
including PCP use; Applicant's childhood risk factors for violence,
as evidenced during his family members' testimony at trial; the
management of inmate populations and the prison system's ability
to successfully manage inmate behavior; and the Texas prison
system. (RR64: 156-216; RR65: 119-146, 152-233).
Dr. John Roache has a Ph.D. in pharmacology and
specializes in clinical pharmacology. (RR65: 119-122, 140). He is
a professor of psychiatry and pharmacology and chief of the
division of alcohol and drug addiction at the University of Texas
17

Health Science Center medical school in San Antonio. (RR65: 119121; DE 23). For over 30 years, he has conducted research with
patients to understand the causes and consequences of drug abuse
and addiction. (RR65: 121).
Dr. Roache reviewed Dallas County jail records reflecting that
in December 2008, Applicant was in the Dallas County jail on a
marijuana charge, and a jail physician diagnosed him with
Cannabis Dependence, along with an indication to rule out Druginduced Psychosis and Mood Disorder. (RR65: 137-138, 142-143).
Other jail records reflected Applicant had a PCP dependence that
included a history of daily PCP use. (RR65: 138-139, 144-145).
Dr. Roache testified at trial that early life risk factors can
lead a person to begin using drugs, and repeated use and exposure
causes the drugs to act biologically on the brain. (RR65: 124-126).
Over time, drugs take control of the reward center of the brain
(which is a motivational brain circuit) and other rewards and
pleasures in life diminish in importance-life all becomes about
drug involvement, seeking and procuring a supply, consuming and
using drugs, and recovering from drug effects. (RR65: 124-125).
This chronic drug condition affects the frontal lobes of the brain,
which involve conscious decision making and planning; ultimately,
the drug user has less volitional control and exhibits more
impulsive action. (RR65: 125-126). ADHD in early childhood
involves the frontal lobes, and the inability to control oneself, by
acting impulsively without thought and planning. (RR65: 126).
Individuals already driven by impulse and urge, who lack thought
and planning, are vulnerable to addiction, leading to a vicious cycle.
(RR65: 126-127).
Dr. Roache also testified at trial about the effects of chronic
marijuana and PCP use. (RR65: 127-135). PCP, or phencyclidine,
affects the neurochemical systems in the brain that are involved in
motivational circuitry. (RR65: 128). PCP has both sedative and
stimulant properties, which is very unsettling for most people.
(RR65: 129-130). It simultaneously causes a dissociative state
where nothing matters (dulling sensations and relaxing a person),
18

while at the same time also agitating and arousing him. (RR65:
130). PCP additionally has a euphoria affect and creates a sense of
empowerment, invincibility, and invulnerability. (RR65: 130). PCP
can create visual hallucinations and psychotic effects, including
paranoia and persecutory delusions. (RR65: 130-133). PCP can in
addition rarely cause extreme violence. (RR65: 133-134). Some
people are particularly vulnerable to PCP-induced psychosis
involving paranoia and violence, and experts do not know why,
although bipolar mania and schizophrenia produce risks for PCPinduced mania or psychosis. (RR65: 133-134, 144). Engaging in
extreme violence under the influence of PCP, though rare, tends to
be
associated
with
individuals
who
have
underlying
vulnerabilities, like bipolar and schizophrenia, in their personal or
family history. (RR65: 135, 143-144). Dr. Roache testified that once
a person is in a setting without PCP, the person would become
more clear, more coherent, and more in control. (RR65: 140).
Dr. Gilda Kessner, a psychologist, testified based on listening
to Applicant's family members' testimony in the courtroom (his
stepfather, mother, brother, and cousin) and applying the
relevant research and literature to his circumstances. (RR65: 20,
22, 154-156, 163-164). Dr. Kessner did not interview Applicant.
(RR65: 20, 154). The defense team used Dr. Kessner's testimony to
educate the jury about the risk factors present in Applicant's life
from an early age, which research shows correlate with the
probability that a child will be violent in the future. (RR65: 20).
Dr. Kessner testified there is research identifying certain
commonalities or risk factors in a child's life that correlate with the
potential for violence in the future. (RR65: 155-156). She explained
that the Department of Justice, Office of Juvenile Justice and
Delinquency Prevention, and Office of the Surgeon· General have
compiled studies and statistics into meta-analysis identifying these
risk factors for juveniles. (RR65: 155). The primary goal of this
research is to identify the best opportunity to intervene to prevent
future delinquency or violence. (RR65: 156, 161).

19

Dr. Kessner testified that an early risk factor with regard to
Applicant that stands out in particular is hyperactivity-which is a
primary risk factor for delinquency, disruptive behavior, and
violence later in life. (RR65: 155-157). Applicant's parents reported
he was identified with hyperactivity in his early school years. (RR65:
156-157). Other risk factors that apply to Applicant involve being
bom to a young mother who lacked parenting skills:
Being born to a young mother without any parenting
skills is another factor. That his mother - - she was
pretty clear on describing that she didn't have that
ability, that sensibility, when she was 16 or 17 when he
was bom and, consequently, she still wanted to be a
teenager herself so she allowed him to be babysat or
watched by a variety of different people. She didn't
name them or identify who they were in particular other
than her mother, but that she wasn't equipped to parent a
newborn or a toddler. . . . And you know, a young child
learning - - having the first level of security with the
parent and not getting that, is going to have some
behavior problems.
(RR65: 157-158). Dr. Kessner testified that the fact Applicant's
mother had a difficult time showing affection to him would affect
his secure attachment to his primary caretaker, which influenced
his emotional development. (RR65: 158). With regard to the State's
earlier emphasis on the fact Applicant's brother grew up in the
same household but was never violent, Dr. Kessner explained that
children are never raised the same or in the same world, and
each child is hom essentially into a different family, because the
family circumstances are different for each child: Applicant was
born to a single mother and biological father who was incarcerated
when Applicant was young, while his brother was bam to a married
couple with an older half-sibling (Applicant). (RR65: 158-159, 166168). Thus, the exposure and the genetics of the siblings was
different. (RR65: 159).

20

Dr. Kessner testified that the risk factors have a multiplicative
or cumulative effect. (RR65: 160). For example, a child at age 10
who has six of the risk factors is 10 times more likely to commit an
offense or be violent by age 18 or older than a child at age 19 who
has only one risk factor. (RR65: 160). Dr. Kessner said it is
noteworthy that Applicant met his biological father (who had a
history of incarceration) at ages three and 11 and Applicant's
mother began having significant mental health problems when he
was around age 10 or 11. (RR65: 160-161). Either of these factors
alone would be very emotionally disruptive to a child; such
circumstances would create chaos in the family and be confusing to
~ 10 or 11 year old. (RR65: 160-161).
Dr. Kessner explained that the purpose behind the research is
to identify not just risk factors but also the protective factors, which
may be more difficult to define or identify-for example, poor
grades are a risk factor, and good grades are a protective factor.
(RR65: 161). She testified that being born into poverty is another
risk factor, and having supportive parents is a protective factor, but
those are not on a continuum. The research is ongoing on those
issues, and regarding the concept of the resilience of the individual.
(RR65: 161-162).
In rebuttal, the State offered witness Bobby Moorehead, a
Dallas County Sheriffs Deputy, to testify about drawings Applicant
made during voir dire. (RR65: 234-235, 238-239; SE 165). Defense
counsel cross-examined Deputy Moorehead about an incident
during voir dire in which two deputies were escorting Applicant
from the jail to voir dire proceedings; the deputies inadvertently
left Applicant unsupervised in a courthouse elevator. (RR65: 240245). Applicant did not leave the elevator. (RR65: 245). The elevator
went up and down once, and deputies intercepted it. Applicant was
not handcuffed or shackled but was wearing a stun belt at the time.
(RR65: 241, 247).
The State called the detective who showed the photographic
lineup to Martin Figueroa Torres to testify about the identification.
(RR65: 248-258). She said that in his identification, Martin said,
21

"mas o menos," which could be translated from Spanish into
English as "more or less," but also means "yes, that is it; that's
the person." (RR65: 255-256).
Two Dallas County detention officers testified about
Applicant's incarceration in the Dallas County jail since his arrest.
One officer testified the jail has received inmate reports that
Applicant runs his tank by bullying other inmates and trying to use
their commissary funds; jail authorities have moved Applicant from
tank to tank as a result. (RR65: 270-277, 282-283). The officer
indicated Applicant is very clever and uses his size to intimidate
other inmates. (RR65: 27 5-276).
Five members of the Gallardo family told the jury how their
father's murder has affected the family. (RR65: 285-294). Finally,
the State offered and the Court admitted several recorded jail calls,
including Applicant's conversations with his child's mother, a
friend, and his mother. (RR65: 295-303; SE 295-298). In one
conversation, the mother of Applicant's child accused him of not
"caring" or he would not have put himself in his current situation.
(RR65: 30 1). Applicant responded that he had "motherfucking
bills to pay." (RR65: 301). In separate conversations with a friend
and his mother, Applicant provided different accounts of an
altercation he had with another inmate over a pair of shoes; the
inmate required medical treatment at the hospital for a gash on his
head. (RR65: 301-303; RR66: 12- 18). Finally, in a recorded
telephone call with a friend after the guilty verdict issued, Applicant
stated that when he gets to prison he will "put bread in his pocket"
and continue "the hustle." (RR65: 18-21; SE 295A, 295B).
Based on the foregoing and other evidence before them, the jury
answered the special issues in a manner that required the Court to
sentence Applicant to death.
PROCEDURAL HISTORY

Applicant is confmed pursuant to the judgment and sentence
of the Criminal District Court No. 7 of Dallas County, Texas,
22

convicting him of the March 17, 2009 capital murder of Alfredo
Gallardo committed in the course of a home-invasion robbery.
(CR2: 709-711). In accordance with the jury's answers to the special
issues, this Court sentenced Applicant to death on May 21, 2012.
(CR2: 684-685, 709-711).
Applicant appealed his conviction and sentence. The Texas
Court of Criminal Appeals affirmed this Court's judgment on direct
appeal. Harris v. State, No. AP- 76,810, 2014 WL 2155395 (Tex.
Crim. App. May 21, 20 14) (not designated for publication). On
August 14, 2014, Applicant filed a petition for writ of certiorari on
his direct appeal in the United States Supreme Court. On
January 12, 2015, the Supreme Court denied his petition. Harris v.
Texas, 135 S. Ct. 945 (20 15).
On June 11, 2014, Applicant filed his original application for
writ of habeas corpus under Article 11.071 of the Texas Code of
Criminal Procedure, alleging six grounds for relief. The State
received a statutorily authorized extension of time and filed its
answer on December 10, 2014. On February 6, 2015, this Court
entered an Order Designating Issues, which designated
Applicant's Claims 1 through 5 for further investigation. The Court
conducted an evidentiary hearing on those issues on May 29, 20 18
to June 1, 2018; July 16, 2018; and September 10-12, 2018. The
Court ordered the parties to file proposed findings of fact and
conclusions of law by October 23, 2019.
GENERAL FINDINGS OF FACT
(1)

The Court takes judicial notice of the Court's trial file 1n
cause number F09- 00409-Y.

(2)

The Court takes judicial notice of the clerk's record from the
trial in cause number F09-00409-Y.

(3)

The Court takes judicial notice of the entire reporter's record
from the trial in cause number F09-00409-Y.
23

(4)

The Court takes judicial notice of the Court's writ file in
cause number W09- 00409-Y(A), with the exception of two of
Applicant's filings that the Court has stricken from the record
by its prior Order dated July 19, 20 19. Those two filings are:
"Bone Lead Test Result and Interpretation"
Report for Pamela Maddox by Ferne Nilsa
Cummings, M.D., Icahn School of Medicine at
Mount Sinai, dated October 24, 2018, attached
as Applicant's Exhibit A to Applicant's
"Supplemental Bone Lead Evidence - Bone
Lead Testing Result for Pamela Maddox,"
filed December 4, 20 18; and
(a)

(b) Expert Rebuttal Affidavit of Dr. Julian Davies,

dated April 4, 2019, attached as Exhibit C to
"Roderick Harris's Submission of Additional
Evidence Pursuant to the Court's November 26,
2018 Order," filed June 12, 2019.
The Court finds Applicant filed these two items without
permission and in violation of the Court's November 26,
20 18 Order, which delineated the only remaining evidence
to be allowed in this case. The Court has not considered the
contents of those two filings in making these findings of fact
and conclusions of law.
(5)

The Court takes judicial notice of the entire reporter's
record from the writ proceedings in cause number W0900409-Y(A).

(6)

At the writ hearing, this Court admitted Exhibit 1 to Applicant's
writ application, the Affidavit of Dr. Natalie Novick Brown, only
to the extent other experts relied on the affidavit in this writ
proceeding. (WRR2: 117-118; WRR7: 6-7). The Court has not
considered Dr. Brown's Affidavit and the information contained
in it for any other purpose.
24

(7)

(8)

At the writ hearing, this Court admitted Exhibit 4 to Applicant's
writ application, the Affidavit of Charles Rotramel, only to the
extent other experts relied on the affidavit in this writ
proceeding. (WRR2: 116-118; WRR7: 9). The Court has not
considered Mr. Rotramel's Affidavit and the information
contained in it for any other purpose.
At the writ hearing, this Court admitted Exhibits 8, 9, 10, 12,
13, 15, 16, and 17 to Applicant's writ application only to the
extent an expert relied on these affidavits in this writ
proceeding. (WRR7: 5-6). The Court has not considered these
affidavits for any other purpose. The Court does not admit
these affidavits and the information contained in them for the
truth of the matters asserted.
Exhibits 8, 9, 10, 12, 13, 15, 16, and 17 are:
Exhibit 8: the Affidavit of Shirley Cook
Exhibit 9: the Affidavit of Lisa
Escobedo Exhibit 10: the Affidavit of
Michael Harris
Exhibit 12: the Affidavit of Ramon
Maddox, Sr. Exhibit 13: the Affidavit of
Ramon Maddox, Jr. Exhibit 15: the
Affidavit of Eric Propes
Exhibit 16: the Affidavit of Kenneth
Propes Exhibit 17: the Affidavit of Willie
Propes
SPECIFIC FINDINGS OF
FACT GROUND 1
Alleged Ineffective Assistance of Trial Counsel

In Ground 1, Applicant contends trial counsel rendered
ineffective assistance by not sufficiently investigating and
presenting evidence during the punishment phase of trial that he
suffers from a fetal alcohol spectrum disorder and was exposed to
25

toxic levels of lead as a child. (Application, at 19-41). Applicant
further contends in Ground 1 that trial counsel rendered ineffective
assistance by not presenting the testimony of a social historian or
a school-to-prison-pipeline expert during the punishment phase
of trial to explain the mitigating impact of his life history.
(Application, at 41-70). In particular; Applicant asserts that trial
counsel should have presented the testimony of Laura Sovine, or
a similar social worker, to explain Applicant's social history and
Dr. Courtney Robinson, or a similar school-to-prison- pipeline
expert, to explain Applicant's school-to-prison life trajectory to the
jury. (Application, at 43-45). He further asserts that trial counsel
should have presented a gang expert to tum the aggravating
aspect of Applicant's gang membership into mitigating evidence.
(Application, at 42-44, 57-58, 68-69).
The benchmark for judging any claim of ineffective assistance
of counsel is whether counsel's conduct so undermined the proper
functioning of the adversarial process that the trial cannot be relied
upon as having produced a just result. Strickland v. Washington, 466
U.S. 668, 686 (1984); Hernandez v. State, 726 S.W.2d 53, 57 (Tex.
Crim. App. 1986).
An applicant asserting a claim of ineffective assistance of

counsel has the burden to prove, by a preponderance of the
evidence, that (1) counsel's performance was deficient, falling below
an "objective standard of reasonableness," and (2) the deficient
performance prejudiced the defense such that "there is a reasonable
probability that, but for counsel's unprofessional errors, the result of
the proceeding would have been different." Strickland, 466 U.S. at
694; Ex parte Jimenez, 364 S.W.3d 866, 883 (Tex. Crim. App. 20 12).
Strickland's first prong "sets a high bar." Buck v. Davis, -

U.S. -, 137 S. Ct. 759, 775 (2017). An accused is not entitled to
representation that is errorless. Ex parte Kunkle, 852 S. W.2d 499,
505 (Tex. Crim. App. 1993). Reviewing courts indulge a. strong
presumption that counsel's conduct fell within the wide range of
reasonable assistance, and that the challenged action might be
considered sound trial strategy. Strickland, 466 U.S. at 689; see Ex
26

parte McFarland, 163 S.W.3d 743, 753 (Tex. Crim. App. 2005). The

mere fact that another attorney might have pursued a different
tactic at trial does not suffice to prove a claim of ineffective
assistance of counsel. Ex parte Miller, 330 S.W.3d 610, 616 (Tex.
Crim. App. 2009). The Strickland test is judged by the totality of
the representation, not by counsel's isolated acts or omissions,
and the test is applied from the viewpoint of an attomey at the time
he acted, not through hindsight. Jimenez, 364 S.W.3d at 883;
McFarland, 163 S.W.3d at 753.
A record that does not explain trial counsel's decisions will not
show deficient performance "unless the challenged conduct was 'so
outrageous that no competent attorney would have engaged in it."'
See Nava v. State, 415 S.W.3d 289, 308 (Tex. Crim. App. 2013)
(quoting Menefield v. State, 363 S.W.3d 591, 593 (Tex. Crim.
App. 2012)).
Although a reviewing court may refer to standards published by
the American Bar Association and other similar sources as guides
to determine prevailing professional norms, publications of that
sort are only guides because no set of detailed rules can
completely dictate how best to represent a criminal defendant.
Strickland, 466 U.S. at 688-689.
Ineffectiveness claims may not be built on retrospective
speculation; the record must affirmatively demonstrate the alleged
ineffectiveness. Bone v. State, 77 S.W.3d 828, 835 (Tex. Crim.
App. 2002). Moreover, if a reviewing court can speculate about
the existence of further mitigating evidence, then it just as logically
might speculate about the existence of further aggravating evidence.
Id. at 835-836.
The United States Supreme Court has explained that "[s]trategic
. choices made after thorough investigation of law and facts
relevant to plausible options are virtually unchallengeable; and
strategic choices made after less than complete investigation are
reasonable precisely to the extent that reasonable professional
judgments support the limitations on investigation." Wiggins v.
27

Smith, 539 U.S. 510, 521-522 (2003) (quoting Strickland) 466 U.S. at

690-691). Thus, counsel has a duty to make reasonable
investigations or to make reasonable decisions regarding further
investigations. See Wright v. State, 223 S.W.3d 36, 42 (Tex. App.Houston [1st Dist.] 2006, pet. refd). In an ineffectiveness case, a
particular decision not to investigate must be directly assessed for
reasonableness in all the circumstances, applying a heavy measure
of deference to counsel's judgments. Id.
Determining whether prejudice exists in the context of a failureto-investigate claim relating to the punishment phase requires
courts to evaluate the totality of the evidence in determining
whether,
if the jury had been confronted with the
uninvestigated evidence, there is a reasonable probability it would
have returned a different sentence. Ex parte Briggs, 187 S.W.3d
458, 470 n.37 (Tex. Crim. App. 2005) (citing Wiggins, 539 U.S. at
536). An applicant must affirmatively prove prejudice; it is not
enough to show that the errors of counsel had some conceivable
effect on the outcome of the proceedings. Strickland, 466 U.S. at
693.
To render performance that is constitutionally sufficient,
counsel should pursue all reasonable leads. Wiggins, 539 U.S. at
524. In evaluating counsel, a court must consider not only the
quantum of evidence already known to counsel, but also whether
the known evidence would lead a reasonable attorney to investigate
further. ld. at 527. However, "the duty to investigate does not force
defense lawyers to scour the globe on the off chance something will
turn up; reasonably diligent counsel may draw a line when they
have good reason to think further investigation would be a waste."
Rompilla v. Beard, 545 U.S. 374, 383 (2005).
Additionally, trial counsel is entitled to rely on their experts.
See Murphy v. Davis, 901 F.3d 578, 592-593 (5th Cir. 2018)
(finding that counsel was entitled to rely upon the objectively
reasonable evaluations and opinions of their expert) (citing Segundo
v. Davis, 831 F.3d 345, 352 (5th Cir. 2016)); Wilson v. Sirmons, 536
F.3d 1064, 1089 (lOth Cir. 2008) (noting that, to a degree, counsel
28

should be able to rely on an expert to determine what evidence is
necessary to an effective evaluation, and what additional evidence
the expert needs to complete testing).
The Defense Team
(9)

The Court appointed Brad Lollar, Doug Parks, and
Mike Howard to represent applicant in this capital murder
trial. (WRR4: 68; WRR7: 146; WRR8: 16). Mr. Lollar was
first-chair counsel; Mr. Parks was second-chair counsel; and,
Mr. Howard was third-chair counsel. (WRR4: 71-73; WRR7:
146, 167; WRR8: 16). In June 2011, the Court appointed
Mr. Parks to replace the original second-chair, Russell
Wilson, who left defense practice to join the District
Attorney's Office. (WRR4: 72-73, 123; WRR8: 16, 68).
Applicant's family had also retained Calvin Johnson before
the State filed its Notice of Intent to Seek Death. Mr.
Johnson continued on the case as additional counsel to the
appointed attorneys. His role primarily consisting of
communicating with Applicant and Applicant's family.
(WRR4: 71-73).

(10)

Mr. Lollar and Mr. Parks have very extensive criminal trial
experience in death penalty cases.

(11)

Mr. Lollar has tried 14 death penalty cases, beginning in
1987; defendants in at least three of those cases received a
life sentence. (WRR4: 68-69; WRR9: 18). In the most
recent case that Mr. Lollar tried (prior to his testimony in
the writ hearing), Erbie Lee Bowser received a life sentence.
(WRR4: 69).

(12)

Mr. Lollar was licensed to practice law in 1977. He was a
Dallas County Assistant District Attorney from August 1977
until January 1982. He was a criminal defense attorney in
private practice from 1982 to 2005 and 2008 to 2013. He was
the appointed Chief Public Defender in Dallas County from
2005 to 2008. Since March 4, 2013, he has been employed
in the Capital Murder Division of the Dallas County Public
29

Defender's Office. (WRR4: 66-67, 69; WRR State's Exh. 5).
(13)

Mr. Lollar presents at continuing legal education seminars for
the Dallas Bar Association, the Dallas Criminal Defense
Lawyers Association, and the Center for American and
International Law. (WRR4: 70-71; WRR State's Exh. 6).

(14)

Mr. Parks was licensed to practice law in 1970 and has
been in private practice criminal defense since about 1971.
(WRR8: 13). He has extensive experience representing capital
defendants: at the writ hearing, he testified he was working
on his 26th death penalty case. (WRR3: 98-99, 120; WRR8:
13). He tried his first death penalty case in 1978. (WRR8: 14).

(15)

Mr. Lollar and Mr. Parks have tried three or four death
penalty
cases together
previously.
(WRR8:
43-44)
Defendants in at least two of those cases received life
sentences. (WRR8: 15).

( 16)

Mr. Howard was licensed to practice law in Texas in 2004.
(WRR7: 144). This was his first death penalty case, although
prior to this trial he worked for approximately five years in
the Dallas Public Defender's Office-including two years in
felony courts trying jury cases, including murders and capital
murders-and worked in private defense practice. (WRR7:
145- 146). Mr. Howard has experience trying two capital
murder trials with Mr. Lollar when Mr. Lollar was Dallas
County's Chief Public Defender. (WRR4: 124; WRR7: 147).

(17)

The Court appointed Mr. Howard to the trial team after Mr.
Parks, and he began working on the case in September 2011.
(WRR7: 146, 170).

(18)

Mr. Lollar retained Brendan Ross as the trial team's
mitigation specialist. (WRR4: 74). Ms. Ross has a Master's
Degree in Social Work and has been a mitigation specialist
since 2003. (WRR9: 17). She has worked on more than 50
death penalty cases. (WRR9: 17). She attends annual
trainings by the Texas Criminal Defense Lawyers
30

Association, National Association of Criminal Defense
Lawyers, and National Association of· Social Workers.
(WRR9: 17). She has worked on several cases with Mr. Lollar.
(WRR9: 18). Mr. Lollar testified he had regular contact with
Ms. Ross throughout their representation. (WRR6: 159).
Ms. Ross began working on the case in December 2010.
(WRR9: 49-50).
(19)

The defense team's themes in the punishment phase
included a theme that Applicant is not a future danger when
he is in custody and has no access to drugs or PCP-which
had made him paranoid and prone to outbursts. (WRR4:
90-91, 96-97; WRR7: 150; WRR8: 39, 41-42). While
incarcerated, Applicant exhibited a marked downslide in
any misconduct or violence. (WRR4: 90, 96-97; WRR7: 150).
The team used expert testimony, by S.O. Woods and James
Aiken, to explain the Texas Department of Criminal
Justice's (TDCJ's) inmate classification system, TDCJ's
ability to professionally manage and control inmate behavior,
and prison security and administration-in order to show
that the probability of future dangerousness is low. (WRR7:
150-151; RR65: 192-233, 170-192). Additionally to show
Applicant was not a future danger, the team used an
incident in which deputies were escorting Applicant to a
conference room for jury selection and left him alone,
unsupervised, in a courthouse elevator (while the elevator
traveled up and down), and he was a perfect gentleman; he
made no attempts to hurt anyone, escape, or take any
inappropriate actions. (WRR4: 106-114; WRR7: 151).

(20)

Mr. Parks noted in his testimony at the writ hearing that
the definition of mitigating evidence in Texas is: some
evidence that would tend to lessen a person's moral
blameworthiness. (WRR8: 42). Mr. Parks explained some
jurors might consider Applicant's drug dependence to be
mitigating, in addition to being relevant to the future danger
special issue, and this evidence could improve Applicant's
chances for a favorable answer to the mitigation special
issue. (WRR8: 42).
31

(21)

(22)

(23)

The trial team's intent in the mitigation case was also to
counter the State's theme of personal responsibility and
choices and show that Applicant was a child like any other,
but a series of choices were made for him that he had no
hand in-including that his mother exposed him to
marijuana in utero, that she left him to go out and party,
that his biological father abandoned him, that his stepfather abandoned him by partying until Applicant was a
teenager, and that he witnessed domestic violence in the
home. (WRR7: 152-153). The team intended to show these
circumstances then set Applicant down a path with a
predisposition to mental health issues (with onset of mental
health issues in his late teens), and drug abuse-all of which
resulted in acting out and adult criminal behavior. (WRR7:
153). Defense themes in the mitigation case were also (a)
the familial and Applicant's history of mental health issues,
(b) Applicant's history of drug abuse, especially PCP, and its
interplay with psychosis and schizophrenic symptoms, and
(c) the possible neurological damage Applicant received at
two years old from a head injury during a car accident.
(WRR7: 151-152).
Of the three attorneys, Mr. Howard was the primary contact
with Applicant, and worked at establishing a personal
connection with him. (WRR7: 148). Mr. Howard focused too
on Applicant's initial criminal offenses as an adult, and
thematically tying those back into the larger mitigation case,
including the mental health, neurological health, and drug
use themes. (WRR7: 148- 149).
Mr. Howard testified that he did the first half of Applicant's
closing arguments in the punishment phase, where he
focused on the mitigation special issue. (WRR7: 149). To do
that, he reviewed Applicant's personal history, including prebirth, youth, experience in the home, mental health history,
drug use history, and special education issues, and tied those
aspects of Applicant's life into the expert testimony of Dr.
Gilda Kessner and others. (WRR7: 149). Mr. Howard testified
32

that Mr. Lollar's focus in the second half of closing
arguments in the punishment phase was the death penalty
as a whole, conveying the moral objections to the death
penalty to the jury, and the future dangerousness special
issue. (WRR7: 149).
(24)

The defense team was cognizant of putting the best narrative
before the jury while not opening the door for a counter
attack. (WRR4: 76; WRR7: 160- 161; WRR9: 20-21).

(25)

Mr. Parks testified that in his opinion and experience,
although writs of habeas corpus in death penalty cases tend
to focus on the mitigation special issue, there is a better
chance at trial of obtaining a death sentence on the future
danger special issue. (WRR8: 41-42). He testified the defense
team here tried to "work both issues." (WRR8: 41-42).

(26)

The Court admitted the trial team's billing records into
evidence at the writ hearing. (WRR Applicant's Exh. 6, 9, 1113). Mr. Lollar and Ms. Ross were not aware whether their
billing records were complete. (WRR6: 145; WRR9: 48). Each
team member indicated through their testimony that
although their billing records include much of the work they
do on a case, not all work is listed. Mr. Lollar testified he does
not list all the work he does on a case in his billing records;
the admitted records do not list .everything he did on this
case; a portion of his billing from the beginning ·of the case
may be missing; he may have made visits to Applicant that
are not listed in these records; and, he had communications
with co-counsel that are not listed. (WRR6: 156-160). Mr.
Parks testified he does not list all of the work he does on a
case in the billing records, and each description does not
include everything he did on a particular date. (WRR8: 16-17,
76-78). Mr. Howard testified that he did not list everything
he did on this case in his billing records, and his records
do not list every defense team meeting. (WRR7: 186-189,
191). Mr. Howard is cognizant of not breaching
confidentiality when completing his pay sheets and of not
revealing any information to the State about case
33

preparation, because the billing records are accessible as
public records. (WRR7: 187 -188). Ms. Ross indicated she
expended a lot more time on this case than reflected in her
billing. (WRR9: 25-26).
(27)

Mr. Parks replaced the former second-chair counsel, Mr.
Wilson, on this case. (WRR8: 81). Mr. Wilson's billing
records were not offered into evidence in these writ
proceedings. There is 'no evidence before the Court regarding
the work Mr. Wilson performed on the case.

(28)

The Court finds the billing records do not contain all of the
work the trial team undertook in representing Applicant.

(29)

The team met and communicated frequently during their
representation-in person, by phone, and by email. (WRR4:
76, 130; WRR6: 160; WRR7: 147-148, 188-189, 191; WRR8:
79-80; WRR9: 20). Mr. Lollar testified that he had many
phone conferences with Ms. Ross that are not reflected in
his billing records. (WRR6: 159-160). During individual voir
dire, the attorneys communicated daily, not just about voir
dire but also about other aspects of the case. (WRR7: 148,
191; WRR8: 71). Mr. Parks indicated in his testimony that
his billing records do not list all team meetings or
communications with the team as "team meetings." (WRR8:
71, 73, 79). Ms. Ross testified she had frequent contact with
the attorneys. (WRR9: 20).

(30)

The American Bar Association's (ABA's) Supplementary
Guidelines for the Mitigation Function of Defense Teams in
Death Penalty Cases recommend that lead counsel assemble
a capital defense team that includes one member qualified by
training and experience to screen for the presence of mental
or psychological disorders or impairments. See ABA
Guidelines for the Appointment and Performance of Defense
Counsel in Death Penalty Cases, Guideline 4.1, 10.4(C),
Commentary (2003). Mr. Lollar retained the services of
Brendan Ross, a mitigation specialist and social worker,
which meets this requirement.
34

(31)

In addition, counsel retained several experts to· assist
them in the investigation and development of their
punishment case.

(32)

Counsel retained Dr. Antionette McGarrahan, a forensic
neuropsychologist, to evaluate Applicant's intellectual,
cognitive, and psychological functioning. Dr. McGarrahan
received a Ph.D. in clinical psychology from U.T.
Southwestern Medical Center in Dallas in 1999 and
participated in a fellowship in forensic psychology at the
University of Kansas City, Missouri. (WRR7: 77). She is a
licensed psychologist in Oklahoma and Texas. (WRR7: 78).
Dr. McGarrahan acted as a consulting expert to the trial team.
(WRR4: 75). In addition to evaluating Applicant, she reviewed
records and provided analysis of Applicant's life history.
(WRR4: 75, 77, 80-83; WRR State's Exh. 7). Dr.
McGarrahan attended some of the team meetings. (WRR4:
83; WRR6: 151). She ultimately recommended using family
members to describe the mitigating aspects of Applicant's life
history, along with use of an expert, Dr. Gilda Kessner.
(WRR4: 81; WRR State's Exh. 7).

(33)

Trial counsel retained Dr. Gilda Kessner, a licensed
psychologist, to testify about childhood risk factors that
correlate with violence later in life. (RR65: 155-162; 166-168).
She testified that a 10-year-old child with six risk factors is
tenfold more likely to engage in violence as an adult than a
child with a single risk factor. (RR65: 160). Dr. Kessner's
testimony was tied to the mitigation theme that many
things Applicant experienced in life were not choices he
made, but choices that others made for him. (WRR7: 154).

(34)

Trial counsel retained Dr. John Roache, a clinical
pharmacologist, to testify about drug addition, particularly
related to marijuana .and PCP. (RR65: 64- 69). Prior to his
testimony, Dr. Roache reviewed some of Applicant's Dallas
County jail mental health records. (RR65: 137-139, 142145). Dr. Roache testified about characteristics of brain
function and addiction, ADHD as a risk factor for addiction,
35

and the possible effects of chronic marijuana and PCP use,
including (for PCP) psychosis, paranoia, and even violence.
(RR65: 124-144).
(35)

The team implemented a strategy of not having Dr. Kessner
and Dr. Roache examine Applicant in person. (WRR7: 156).

(36)

Trial counsel retained three prison experts. (RR65: 11-19, 2428, 146-149).
Two of these experts testified before the jury about the
classification of inmates in TDCJ and a prison system's
ability to control inmate behavior. (RR65: 170-233).

(3 7)

(3 8)

Trial counsel retained an eyewitness identification ·expert,
Dr. Charles Weaver, to testify about a witness's identification
in an extraneous double robbery and murder. (WRR4: 98-99;
RR64: 155-215). Two men robbed a family in a downstairs
apartment, and then one of the assailants went to an
upstairs apartment and shot three individuals, killing one.
(RR63: 188-209, 232-250). A witness upstairs identified
Applicant as the shooter. (RR63: 254-268). Trial counsel
used Dr. Weaver to challenge the accuracy of this
identification. (WRR4: 98-99).
The trial team explored calling as a witnesses the two
Parkland Hospital physicians who treated Applicant while he
was in the Dallas County Jail and provisionally diagnosed
him with schizophrenia. (WRR7: 155-156). Although the
trial team's position was that a treating physician would not
open the door to the State calling its expert, Dr. Christine
Reed, who had examined Applicant, the Court made it clear
in pre-trial proceedings that calling a treating physician
could result in the Court allowing the State to call its
examining expert to testify. (WRR7: 155-156). The trial team
elected not to call the treating physicians for this reason.
(WRR7: 155-156).

36

(39)

Determining which witnesses to call are strategy decisions.
(WRR7: 154).

(40)

Determining the balance and focus of evidence between the
two special issues in a death penalty case are strategy
decisions.

(41)

Based on their experience and qualifications, Mr. Lollar, Mr.
Parks, and Mr. Howard were qualified to formulate and
execute effective trial strategies.

(42)

The Court finds the testimony of Mr. Lollar, Mr. Parks, and
Mr. Howard is credible and true.

Trial Counsel Did Not Render Ineffective Assistance by Not
Investigating and Presenting Fetal-Alcohol-SpectrumDisorder Evidence in the
Punishment Phase of Trial
(43)

(44)

Mr. Lollar testified at the writ hearing that he relied on Dr.
McGarrahan, his neuropsychological expert, to advise him
what issues or impairments Applicant had and how those
issues affected his behavior. (WRR4: 136). Dr. McGarrahan
advised him that Applicant's deficits were minimal and would
not have affected his behavior. (WRR4: 136, 139). Mr. Lollar
testified that although Applicant's mother, Pamela Maddox,
had told the trial team she drank a couple of glasses of
wine on the weekends during the first six or eight weeks of
pregnancy, the importance of that type of testimony is
affected by the degree to which the witness says she engaged
in the behavior. (WRR4: 137). Moreover, Mr. Lollar explained
he relied on his expert to explain to him what the issues
and areas of concern were with his client. (WRR4: 137).
Mr. Howard testified at the writ hearing that Ms. Maddox had
informed the trial team she drank an occasional glass .of wine
during the first few-maybe first six-weeks of pregnancy.
(WRR7: 162). He reviewed the affidavit Ms. Maddox submitted
for this writ, and testified it reflects more alcohol intake than
what she told the trial team. (WRR7: 162).
37

(45)

Ms. Maddox testified at trial that she drank alcohol and
smoked cigarettes and marijuana before she was pregnant
and up until the time she learned she was pregnant. (RR64:
222-223). She testified she learned she was pregnant at
about six weeks. (RR64: 223). Mter that, she stopped
smoking and drinking. (RR64: 223-224).

(46)

In support of his writ claim, Applicant submitted an affidavit
with his writ application by Ms. Maddox, dated May 29, 2014,
in which she indicates she learned she was pregnant when
she was about two months into the pregnancy. (Applicant's
Writ Exh. 11, at 1). She also states she "drank a few glasses of
wine on the weekends before [she) found out that (she]
was pregnant." (Applicant's Writ Exh. 11, at 1-2). She
continues, "I stopped drinking when I learned I was
pregnant with Roderick. (Applicant's Writ Exh. 11, at 2).
.

(47)

Ms. Maddox testified at the writ hearing that when she was
17, before she knew she was pregnant, she did not drink
everyday but she drank Thunderbird and Wild Irish Rose on
the weekends. (WRR2: 33). Dr. Julian Davies, one of
Applicant's experts for this writ, testified that Thunderbird
and Wild Iris Rose are wines that are typically fortified with
alcohol to a volume content of about 13 to 18 percent.
(WRR3: 47). Ms. Maddox also testified at the writ hearing
that she learned she was pregnant at about six weeks.
(WRR2: 64-65). Ms. Maddox testified that when she found
out she was pregnant she stopped drinking completely.
(WRR2: 66).

(48)

Mr. Lollar indicated at the writ hearing that Ms. Maddox did
not inform the trial team at the time of trial that she drank
fortified wines like Thunderbird. (WRR4: 148-149).

(49)

The Court finds that, at these writ proceedings, Ms. Maddox
expanded the information she provided about the amount
and type of alcohol she drank during pregnancy from what
she told the defense team during the pre-trial investigation
38

and even from what she told Applicant's writ counsel in the
writ investigation in 2014, as reflected in her affidavit. (See
WRR3: 87). The Court finds Applicant's trial counsel were
not aware of this information because Ms. Maddox failed to
reveal it until 2018. The Court finds trial counsel could not
have been ineffective for failing to act on information that was
not provided to them.
(50)

Ms. Ross's billing records reflect more than 30 contacts with
Ms. Maddox. (WRR9: 22; WRR Applicant's Exh. 13).

(51)

Both defense attorneys in closing arguments at trial, Mr.
Howard and Mr. Lollar, emphasized that Applicant suffered
from in utero exposure to harmful substances (alcohol
and/or marijuana). (WRR4: 149-150; RR66: 44, 46, 63).

(52)

Julian Davies, M.D., provided an affidavit and testified in
support of Applicant's writ. (WRR3: 24-112; Applicant's Writ
Exh. 28). Dr. Davies is a pediatrician with specialties in
international adoption, foster care, fetal alcohol spectrum
disorder, and the impacts of complex trauma. (WRR3: 34, 77;
WRR Applicant's Exh. 2). He is a clinical professor of
pediatrics at the University of Washington and has a faculty
clinic practice where the majority of patients are fostered or
adopted. (WRR3: 35). He is also one of two pediatricians at
the University of Washington Fetal Alcohol Syndrome
Diagnostic Clinic, which provides diagnostic evaluations for
children and adults. (WRR3: 35).

(53)

Dr. Davies examined Applicant, reviewed various records,
and diagnosed him with Alcohol Related Neurodevelopmental
Disorder (ARND), which is one of the Fetal Alcohol Spectrum
Disorders (FASD). (WRR3: 42-43, 56, 65, 75; Applicant's
Writ Exh. 28, at 11, 14). He based his diagnosis of ARND
on the amount and pattern of brain dysfunction Applicant
exhibits, the history of prenatal exposure to alcohol (which
Dr. Davies describes as "significant first trimester alcohol
exposure"), and the results of his differential diagnosis
process (of ruling out other etiologies). (WRR3: 76).
39

(54)

Dr. Davies testified that ARND is a permanent birth defect
syndrome caused by
maternal
alcohol
consumption
during pregnancy. (WRR3: 37, 78; Applicant's Writ Exh.
28, at · 1). He explained that alcohol consumption during
pregnancy
causes
brain
injury
and
neurological
impairments. (WRR3: 37). ARND is a diagnosis under the
FASD that involves a pattern of brain impairments that have
been associated with prenatal alcohol injuries. (WRR3: 3839).
.

(55)

Dr. Davies lists the records he reviewed and relied on in
his affidavit. (Applicant's Writ Exh. 28, at 2). These included
the affidavits of Dr. James Underhill and Dr. Natalie Brown.
(Applicant's Writ Exh. 28, at 2; WRR3: 79-80; WRR6: 87).

(56)

In support of his FASD claim, Applicant submitted with his
application the affidavit of Dr. Natalie Novick Brown, a
psychologist. {Application Exh. 1). Dr. Brown did not testify at
the writ hearing; Applicant instead utilized the testimony of
psychologist Joan Mayfield. (WRR2: 116). The State moved
to strike Dr. Brown's affidavit on the basis she was not
appearing to testify (thus there would be no opportunity for
cross-examination) and writ counsel had replaced her with
another expert. (WRR2: 116). The Court denied the State's
request to strike the affidavit but ruled the Court would not
consider it for any purpose except to the extent another
expert in the hearing relied upon it. (WRR2: 11 7 -118).

(57)

Dr. Davies testified Applicant does not have the facial features
necessary for a diagnosis of Fetal Alcohol Syndrome or Partial
Fetal Alcohol Syndrome, and he does not exhibit a growth
deficiency, which is sometimes present in FASD disorders.
(WRR3: 75, 85-86).

(58)

Dr. Davies testified that no amount of alcohol during
pregnancy is safe; any amount of alcohol places a fetus at
risk of developing FASD. (WRR3: 50, 88-90). Dr. Davies also
testified that it is common for mothers to minimize or
40

underreport their alcohol consumption. (WRR3: 48-50, 88;
Applicant's Writ Exh. 28, at 12). He testified whenever a
mother reports prenatal alcohol use, the general direction of
error is greater intake than reported, "[s]o it is reasonable to
think that whenever you are given a specific alcohol amount
that there may have been more." (WRR3: 88). Dr. Davies
characterized Ms. Maddox's testimony in the writ hearing as
evidencing a ((high risk pattern of alcohol exposure." (WRR3:
108).
(59)

Dr. Davies considered and ruled out other possible etiologies
in Applicant's life which could account for what he diagnosed
as significant neurological damage, including (a) the fetal
distress and asphyxia Applicant experienced at birth from
the umbilical cord being wrapped around his neck, which
required two minutes of resuscitation; (b) the car accident
Applicant was in at age two which resulted in facial
lacerations and a loss of consciousness; (c) possible
childhood lead exposure; and (d) other adverse childhood
experiences including his mother being depressed and
emotionally distant, being left to be cared for by others
early in life while his mother was partying, experiencing
parental alcohol and marijuana use in his presence during
his early years, witnessing domestic violence, and being
subjected to corporal punishment. (WRR3: 51-55, 92-96;
Applicant's Writ Exh. 28, at 14).

(60)

Dr. Davies testified that children with FASD have difficulties
with behavior and cognitive abilities in childhood. (WRR3:
57). He concluded Applicant exhibited a pattem of
behavioral and developmental challenges consistent with
what he sees in the fetal alcohol syndrome clinic. (WRR3: 5657). Dr. Davies noted that Applicant's Attention Deficit
Hyperactivity Disorder (ADHD), diagnosed at age. seven,
represents a significant area of brain dysfunction. (WRR3:
56, 58, 60). Dr. Davies reviewed Dr. James Underhill's
neuropsychological test scoring of Dr. McGarrahan's raw
test data in order to look at different domains of brain function
and possible areas of impairment. (WRR3: 59-60). Dr.
41

Davies concluded the neuropsychological testing shows
Applicant has significant impairment in memory and his
executive functioning is an area of concern. (WRR3: 60- 61).
He explained that one of the hallmarks of brain injury caused
by alcohol is significant variability in test scores, with some
in the typical range and others showing significant areas of
impairment. (WRR3: 61). Dr. Davies noted that school
personnel diagnosed Applicant with a learning disability in
math, which is another area of significant impairment.
(WRR3: 62). Regarding IQ testing, he testified he often
encounters a significant split between the Verbal
Comprehension Index and the Perceptual Reasoning Index
in FASD patients-like the split evident in Applicant's testing.
(WRR3: 63).
(61)

Dr. Davies testified that during his examination Applicant
self-reported a history of significant problems with anger
management; mood swings related to feeling neglected by
his mother; high levels of impulsivity, inattention,
and
hyperactivity; symptoms of anxiety like compulsive
neatness, hand washing, and checking things; problems
with lying; and sensory sensitivities like bright lights and
being touched. (WRR3: 69).
·

(62)

Dr. Davies relied on Dr. Underhill's score report of Dr.
McGarrahan's raw test data. (WRR3: 80-81). He testified that
information regarding malingering, test performance, fatigue
during a testing session, distractions, and a person's current
medications and mental health might influence a testing
session. (WRR3: 81-82, 91).

(63)

Dr. Davies testified he conducted a Montreal Cognitive
Assessment of Applicant, which is a cognitive screening
tool. (WRR3: 72-75, 90). He testified Applicant failed the
assessment, earning 21 out of 30 points, with a normal score
being 26 or above. (WRR3: 73). A portion of the test is a
naming task with animal pictures-of a lion, rhinoceros, and
camel. (RR3: 74; WRR State's Exh. 1). Applicant earned two
42

of the three points in this section because he identified the
camel as an emu. (RR3: 74; WRR State's Exh. 1). Applicant
also lost one point for not knowing the correct year. (WRR
State's Exh. 1). Dr. Davies did not perform any effort testing
or tests of malingering, but he emphasized in his testimony
that his impression was Applicant was giving full effort.
(WRR3: 75, 90-91).
(64)

Dr. Davies stated in his affidavit that prenatal exposure to
alcohol can cause lower IQ, ADHD, difficulties with judgment
and impulse control, language and social difficulties,
learning disabilities, memory problems, and impairments in
cognitive skills like flexibility, planning, organization,
inhibition, and problem solving. (Applicant's Writ Exh. 28, at
1). He admitted in his testimony, however, that these
outcomes could be consistent with a number of disorders or
environmental factors. (WRR3: 79).

(65)

Neurobehavioral Disorder Associated with Prenatal Alcohol
Exposure (ND- PAE) is a diagnosis contained in the
"Conditions for Further Study" portion of
the
DSM-5. 5
American Psychiatric Association, Diagnostic and
Statistical Manual of Mental Disorders 798 (5th ed. 2013)
(DSM-5). (WRR3: 99-100, 109-110). The proposed criteria
for diagnosis includes "more than minimal exposure to
alcohol during gestation, including prior to pregnancy
recognition." DSM-5, at 798. The discussion of prenatal
alcohol use in the DSM -5 manual includes:
Although both animal and human studies have
documented adverse effects of lower levels of
drinking, identifying how much prenatal exposure is
needed to significantly impact neurodevelopmental

5

The DSM-5 also includes a disorder called "Neurodevelopmental Disorder Associated with
Prenatal Alcohol Exposure," which is included as an "Other Specified Neurodevelopmental
Disorder." DSM-5, at 86. This disorder which is in the main body of the DSM-5, however, does
not list any specific diagnostic criteria separate from other neurodevelopmental disorders. The only
reference in the DSM-5 to the amount of alcohol use relevant to prenatal alcohol exposure is in
the diagnosis for "Neurobehavioral Disorder Associated with Prenatal Alcohol Exposure" in the
"Conditions for Further Study." DSM-5, at 798-799.
43

outcomes remains challenging. Data suggest that a
history of more than minimal gestational exposure
(e.g., more than light drinking) prior to pregnancy
recognition and/ or following pregnancy recognition
may be required. Light drinking is defined as 1-13
drinks per month with no more than two of these
drinks consumed on any one drinking occasion.
DSM-5, at 799. (RWW3: 109-110).
(66)

Post-conviction counsel retained Dr. Joan Mayfield in this
case to review the reports of Dr. Davies and Dr. Brown and
determine if Dr. McGarrahan's testing was consistent with
their opinions; she found it was. (WRR6: 15). She disagrees
with the opinion that Dr. McGarrahan's testing shows little or
no cognitive impairment. (WRR6: 15, 56).

(67)

Dr. Mayfield has a Ph.D. from Texas A&M University; her
focus is in child clinical and neuropsychology. (WRR6: 17).
From 1996 to 20 15, she was a pediatric neuropsychologist at
Our Children's House, a pediatric specialty hospital, at
Baylor Hospital. (WRR6: 18). She has experience diagnosing
children with FASD. (WRR6: 17-19).

(68)

Dr. Mayfield has testified in court about 10 or 12 times.
(WRR6: 17). She has never been retained by the State, and
she has testified for the defense in a criminal case about five
times. (WRR6: 37).

(69)

Dr. Mayfield did not perform any testing of Applicant, meet
and evaluate Applicant, or diagnose Applicant. (WRR6: 5051). She did not review Dr. McGarrahan's raw testing data
to prepare for her testimony in the writ hearing. (WRR6:
41).
Dr. Mayfield examined Applicant's history and . testing
profile for characteristics consistent with FASD. (WRR6: 39,
69). She concluded his test scores are consistent with an
FASD diagnosis, but she cannot say they are conclusory for
FASD. (WRR6: 51, 66).

(70)

44

(71)

Dr. Mayfield's testimony at the writ hearing included her
opinion that, if she had tested Applicant, she would have
conducted a few of Dr. McGarrahan's tests differently and
she would have completed some additional testing in the
areas of executive functioning, attention and listening, math
reasoning, receptive language, and memory. (WRR6: 23, 2627, 30-31, 34, 51).

(72)

Dr. Mayfield did not perform the additional testing she
recommends, and Applicant does not present any evidence
the additional testing would have altered the outcome of his
testing.

(73)

From Dr. McGarrahan's testing, Dr. Mayfield noted
Applicant had substantial attention problems on one of six
categories of the Wisconsin Card Sorting Test-and attention
problems are consistent with FASD. (WRR6: 24-25, 27 -28).
She noted that a higher percentage of people diagnosed with
FASD have learning disabilities, particularly in math. (WRR6:
29). She explained that Applicant's 15-point discrepancy on
the WAIS-IV between his Verbal Comprehension Index of 81
and Perceptual Reasoning Index of 96 is significant because
math reasoning is language based; Applicant's lower verbal
performance is reflective of a deficiency in math, due to the
language component of math reasoning. (WRR6: 29-30, 43,
56-57). She testified that research shows children
diagnosed with FASD have a high~r propensity to have a
split between their verbal IQ score and performance IQ
score. (WRR6: 30, 36). She also concluded Applicant's
memory testing showed "low average to below average to
most of them significantly impaired." (WRR6: 34-35).

(74)

Dr. Mayfield testified that the significant problems she
identified in Applicant's testing were the split between his
Verbal Comprehension Index of 81 and Perceptual Reasoning
Index of 96, his history of learning disabilities, one executive
functioning score evidencing attention problems, and memory
difficulties exhibited on the Wechsler memory test, California
Verbal Learning Test (CVLT), and Rey-Osterrieth test (Rey45

0). (WRR6: 56-57).

(75)

In forming her opinions, she did not consider Applicant's
chronic marijuana use, perhaps beginning as early as age
10, or his daily PCP use, from his teens until the time of
this offense. (WRR6: 38-39, 44). On cross- examination, she
testified that chronic marijuana and PCP use could affect
neurocognitive functioning, including causing memory
problems and extensive processing problems. (WRR6: 38-39).

(76)

Dr. Mayfield readily admits that conditions other than
FASD can cause ADHD; experts do not know if FASD causes
ADHD; experts do not know if FASD causes learning
disabilities; and many circumstances in a person's childhood
could contribute to disabilities like ADHD and learning
disabilities. (WRR6: 40).

(77)

Dr. Mayfield did not see any evidence of malingering in Dr.
McGarrahan's full neuropsychological battery. (WRR6: 4647).

(78)

Dr. Mayfield did not know if any of the test scores she
considered were influenced by Applicant being fatigued; if
fatigue were a factor, it could change some of her opinions.
(WRR6: 51-54).

(79)

The trial team retained Dr. McGarrahan to examine and
evaluate Applicant prior to trial. (WRR7: 58). Dr.
McGarrahan is a· licensed psychologist who specializes in
forensic and neuropsychology. (WRR7: 57). She examined
Applicant on July 5 and October 13, 2011. (WRR7: 86}.

(80)

Dr. McGarrahan conducted psychological and cognitive
testing of Applicant. (WRR7: 58). She reported to the trial
team that her testing showed "very little, if anything, in the
way of cognitive impairment;" in other words, Applicant
exhibited "mild reductions in performances in some areas at
most." (WRR7: 80, 84, 105; WRR State's Exh. 7). At the
writ hearing, Dr. McGarrahan explained that the testing did
46

not show significant cognitive impairment. (WRR7: 85). She
also explained that most of Applicant's neuropsychological
profile is consistent with his low average intellectual
abilities. (WRR7: 80-81). Applicant exhibited some mild
problems with respect to memory. (WRR7: 81) .
. (81)

(82)

Dr. McGarrahan's testing revealed Applicant to be in the low
average range of intellectual functioning. {WRR7: 103). He
had some scattered scores above the low average range
and some scattered scores below the low average range:
this is to be expected. (WRR7: 103-1 OS).
Dr. McGarrahan believes the cognitive portion of Applicant's
testing was valid; however, he exhibited faking or malingering
of psychiatric symptoms. (WRR7: 59-60).

(83)

Applicant's writ counsel, the Office of Capital and Forensic
Writs and the law firm of Kirkland & Ellis, retained Dr.
McGarrahan for the writ proceeding, in conjunction first
with the investigation related to filing the writ and second
to consult with counsel and testify at the writ hearing.
(WRR6: 167; WRR7: 58).

(84)

Dr. McGarrahan originally scored the raw data she
generated from Applicant's testing and created a score sheet.
(WRR7: 95; WRR State's Exh. 17). She provided the raw
data and score sheet to Dr. Underhill when directed to by
the Office of Capital and Forensic Writs. (WRR7: 95-96).

(85)

Applicant called Dr. McGarrahan to testify as a witness at the
writ hearing. (WRR7: 57). Dr. McGarrahan testified she has
consulted on hundreds- perhaps close to one thousandcriminal cases during her 18 years practicing forensic
psychology and neuropsychology. (WRR7: 77).

(86)

Dr. McGarrahan testified that FASD is a neurocognitive
condition that neuropsychologists come in contact with on
a regular basis; in her examinations, she looks for cognitive
impairment related to FASD or any other neurological
condition. (WRR7: 60-61). She is qualified to diagnose FASD.
47

(WRR7: 67). She testified that her cognitive testing of
Applicant is consistent with a number of conditions that
could be related to brain impairment, including FASD,
ADHD, a prenatal developmental issue, head injury, or a
variety of other things.
(WRR7:
61).
Applicant's
neuropsychological pattern reflects a pattern that is fairly
common in cases of memory impairment; his pattern is not
specific to FASD. (WRR7: 61).
(87)

Dr. McGarrahan is aware that any alcohol exposure in utero
presents a risk to a fetus. (WRR7: 69-70).

(88)

Dr. McGarrahan testified that prior to her evaluation, the
trial team did not have confirmation Ms. Maddox drank
alcohol during her pregnancy- because Ms. Maddox was
denying alcohol use during pregnancy. (WRR7: 61-62).Dr.
McGarrahan explained at the writ hearing that fetal alcohol
exposure was a concern in this case; therefore, the team set
up additional time for Dr. McGarrahan and Ms. Ross to
meet with Ms.
Maddox and Applicant's maternal
grandmother in order to narrow down whether Ms. Maddox
used
drugs
or
alcohol-specifically
alcohol-during
pregnancy. (WRR7: 66-67; WRR9: 22-23, 42).

(89)

Dr. McGarrahan testified that Ms. Maddox indicated that
during the first three months of her pregnancy she may
have used some alcohol but not much. (WRR7: 68-69).

(90)

At trial counsel's request, Dr. McGarrahan prepared a memo
to Mr. Lollar and Mr. Parks, dated May 14, 2012,
explaining the pros and cons of presenting her testimony at
trial in Applicant's punishment phase. (WRR4: 77, 138-139;
WRR7: 78; WRR State's Exh. 7). The memo was the
culmination of many months of ongoing discussions; Mr.
Lollar asked Dr. McGarrahan to document her opinion in May
2012, for his records. (WRR4: 75, 82-83; WRR7: 78-79).

48

(91)

Dr. McGarrahan's op1n1ons from her work on this case
included that the results of her neuropsychological exam
would not be helpful to Applicant in the punishment phase
of his trial because, in part, Applicant exhibited problems
with exaggeration and malingering (or faking) of mental
illness and psychiatric symptoms. (WRR7: 79, 81; WRR
State's Exh. 7). Additionally, although jail personnel had
documented a diagnosis of schizoaffective disorder for
Applicant, Dr. McGarrahan would have to testify that in
her opinion Applicant does not suffer from a severe mental
disease, such as schizophrenia spectrum disorder or bipolar
disorder. (WRR7: 79-80, 82; WRR8: 49; WRR State's Exh.
7). Dr. McGarrahan would also have to testify if asked
that Applicant meets the diagnostic criteria for Antisocial
Personality Disorder. (WRR7: 80; WRR State's Exh. 7).
Accordingly, Dr. McGarrahan believed her testimony could
potentially be more harmful than helpful to Applicant.
(WRR7: 82; WRR State's Exh. 7).

(92) The State's retained psychologist at trial, Dr. Christine Reed,

had examined Applicant prior to trial pursuant to the
State's Lagrone6 motion and was ready to testify if Applicant
called an expert to the stand who had examined him. (WRR4:
85-87; WRR7: 154-156, 163). Dr. McGarrahan opined at the
writ hearing that it would not be beneficial to Applicant for
her testimony (particularly in light of the fact Applicant
meets the diagnostic criteria for Antisocial Personality
Disorder and that he was possibly malingering mental illness
during her exam) to open the door for Dr. Reed to testify and
bring up not only the information Dr. McGarrahan believed
was potentially harmful but a possible determination
Applicant was a psychopath or had psychopathic tendencies,
which would go toward him being a potential danger to
society. (WRR7: 81; WRR State's Exh. 7).

6 See

Lagrone v. State, 942 S. W.2d 602 (Tex. Crim. App. 1997).

49

(93)

The State's expert, Dr. Reed, was waiting in the \Vlngs to
testify in the State's punishment rebuttal case at
Applicant's trial if his team called an expert to testify who
had examined him. (WRR7: 154-156, 163). Calling a defense
expert to testify who had examined Applicant would also
have placed Dr. Reed's report in the State's hands. (WRR7:
155).

(94)

Dr. McGarrahan is familiar with Dr. Reed's reputation and
knows she is well respected. (WRR7: 83).

(95)

The decision whether to call an expert who had examined
Applicant in person is a strategy decision. (WRR4: 87 -89;
WRR7: 81-82, 154-156; WRR8: 51). The trial team must
consider not only the benefit received from the' testimony of
Applicant's examining expert but also the detrimental
evidence that may come in through that expert, along with
the detrimental evidence that may come in through a
competing expert called by the State to testify in rebuttal.
(WRR7: 154-156). If Applicant uses an examining expert to
present evidence or an expert who has relied on an
examining expert, the State may present competing expert
testimony.

(96)

The defense team's decision not to call an expert who had
examined Applicant was a strategy decision.

(97)

Dr. Underhill created a list of tests Dr. McGarrahan gave
Applicant from Dr. McGarrahan's raw data. (Application Exh.
6). Dr. Underhill's list . does not include the Structured
Interview of Reported Symptoms (SIRS) test that Dr.
McGarrahan administered on October 13, 2012; this is an
error in his report of Dr. McGarrahan's work. (WRR6: 121;
WRR7: 97, 99).

(98)

On July 5, 2011, Dr. McGarrahan did malingering testing of
Applicant using the Test of Memory Malingering, the word
choice test, the Dot Counting test, and the reliable digit
span, which is an imbedded measure (meaning it is part of
50

an IQ test, not a separate measure). (WRR7: 97). These
tests evaluate performance validity, which is about general
effort on cognitive tests. (WRR7: 98).
{99)

On October 13, 2011, Dr. McGarrahan performed
additional testing of Applicant to evaluate symptom .validity
because the trial team had concerns he was malingering.
(WRR7: 94, 98). She conducted the SIRS on that date: it
showed a high probability of malingering with respect to
mental illness. (WRR7: 99).

(100)

Other experts who relied on Dr. Underhill's report, either
directly or through another expert, did not have the results of
the SIRS test that Dr. McGarrahan performed as part of
Applicant's neuropsychological profile; this could have
impacted how they viewed the full neuropsychological
battery. (WRR6: 122; WRR7: 100-101, 103; Application Exh.
6). This includes Dr. Natalie Brown, Dr. Thomas Dydek, Dr.
Courtney Robinson, Charles Rotramel, Laura Sovine, Dr.
Julian Davies, Dr. Jeffrey Lewine, and Dr. Joseph Wu.
(Application Exh. 1-5, 28; Lewine Report; Wu Report).

{1 01)

Dr. McGarrahan and the State's writ expert Dr. Jed
Falkowski testified at the writ hearing that Applicant
exhibited significant indicators of malingering mental illness
during his testing, as documented on the SIRS and MFAST.
(WRR6: 118-122; WRR7: 100-101).

{1 02)

Dr. McGarrahan testified it is problematic to explain to a jury
that a person can perform satisfactorily on performance
validity testing, reflecting effort and motivation to do well,
and simultaneously be exaggerating and malingering in
other areas. (WRR7: 101). In Dr. McGarrahan's opinion, a
jury may view a person who malingers mental illness to be a
manipulator. (WRR7: 101-102). Applicant's jail psychiatric
records likewise reflected he exaggerated mental illness
symptoms to manipulate and for purposes of medication
and attention seeking. (WRR7: 102).
51

(103)

Evidence Applicant was malingering mental illness during
his own expert's exam in the pre-trial phase, even if the
malingering went to symptom validity as opposed to the
cognitive testing, would not have been favorable to
Applicant if introduced in the punishment phase of trial.
(WRR6: 123; WRR7; 97-101).

(104)

On July 5, 2011, Dr. McGarrahan did not administer the
delayed recall portion of the Rey-Osterrieth (Rey-0) test to
Applicant because he indicated he was fatigued, was not
feeling well, and was essentially done with testing at that
point; this was reflected by a note in her raw data. (WRR6:
95-97; WRR7: 106-107). To also indicate this, she marked
multiple "Xs" through that line on the score sheet. (WRR7:
106; WRR State's Exh. 17). Because the test was
discontinued, Applicant did not receive a score on this
test. (WRR654-55; WRR7: 107). Dr. Underhill, however,
reported the score as a zero; this is an error. (WRR6: 97;
WRR7: 106-107; Application Exh. 6, at 13). A zero on this
test, on which a person can score between zero and 36
points, if accurate, would indicate severe impairment in
delayed memory. (WRR7: 107-108).

(1 05)

Other experts who relied on Dr. Underhill's score report of
a zero on the delayed recall portion of the Rey-0 test as
evidence of memory impairment, particularly Dr. Brown
and Dr. Davies, relied on incorrect information. (WRR3:
59-61; WRR6: 95-99, 106, 139; WRR7: 108-110; Application
Exh. 28, at 6). Relying on this erroneous test score would
affect an expert's conclusions. (WRR6: 95-99).

(106)

During Dr. McGarrahan's evaluation, Applicant also
exhibited fatigue during the delayed administration portion
of the California Verbal Learning Test (CVLT), a test of
verbal learning and memory. (WRR6: 98; WRR7: 109).
Because Applicant was becoming very sleepy, his effort
should be considered at that point, and must be taken into
account when analyzing the score. (WRR7: 109-110).
Applicant did poorly on this test-reflecting mild to moderate
52

impairment. (WRR7: 110). Dr. McGarrahan indicated that
Applicant's fatigue must be factored into a determination of
the degree to which his performance actually reflects
significant impairment in memory. (WRR7: 11 0).
(107)

Other experts who relied on Dr. Underhill's score report for
the delayed administration portion of the CVLT as evidence
of memory impairment, particularly Dr. Brown and Dr.
Davies, relied on a test score that was potentially impacted
by Applicant's fatigue during the test administration. (WRR6:
98-99, 106; WRR7: 108-110; Application Exh. 28, at 6-7).
Dr. Davies concluded Applicant's performance on this test
reflected significant impairment. (Application Exh. 28, at 6-7).
Failure to consider the impact of fatigue, which may have
reduced Applicant's performance on this test, is problematic
and may have resulted in misinterpretation of the test
results. (WRR6: 98-99; WRR7: 110).

(108)

Dr. McGarrahan administered a number of tests and
subtests that measure executive functioning, or frontal lobe
skills. (WRR7: 110-114). Based on all of this testing, Dr.
McGarrahan does not believe Applicant has impairment in
executive functioning. (WRR7: 114). His score on only one
test, the similarities subtest of the WAIS-IV, was lower
than what she expected based on his overall functioning,
but that might be due to his language difficulties rather
than frontal lobe dysfunction. (WRR7: 112, 114-115). After
reviewing each test related to executive functioning during
her testimony, she concluded that, overall, he did fairly
well on executive functioning: she views the results as where
she would expect them to be in some instances, given his IQ,
and he exhibited some areas of strength within the executive
functioning domain. (WRR7: 110-115). She would not
characterize his abilities as reflecting significant impairment
in executive functioning. (WRR7: 115).

( l 09)

Regarding her testing of Applicant, Dr. McGarrah an
concluded: "Really, the only areas that I saw potential deficits
were in complex memory. And both of those tests, the CVLT
53

and the Rey-0, were the tests that were being administered
when (Applicant] was tired and fatigued." (WRR7: 116).
(110)

Dr. McGarrahan's testing reflected a 15-point split between
Applicant's Verbal Comprehension Index of 81 and
Perceptual Reasoning Index of 96 on the WAIS-IV IQ test.
(WRR7: 116; WRR State's Exh. 17).

( 111)

Applicant reported to Dr. McGarrahan that he began using
PCP at age 13, and, beginning at age 19, used drugs all day
every day, including PCP and marijuana. (WRR7: 92-93). Dr.
McGarrahan testified at the writ hearing that Applicant's
history of PCP use could contribute to his attention,
concentration, and memory problems. (WRR7: 117 -118).
His history of PCP use, in its entirety, could also account
for the memory problems he exhibited. (WRR7: 119).

( 112)

Dr. McGarrahan testified that the pattem of results she saw
in Applicant's testing profile could be attributable to a
variety of things, including his ADHD, depression, emotional
influences, things he was potentially exposed to in utero,
genetic abnormalities, the head injuries he reported, his
educational environment, being raised in a disadvantaged
environment, or his PCP use. (WRR7: 118-119). She testified
"[w]e have no way of really knowing" which of these accounts
for Applicant's profile. (WRR7: 118).

(113)

Dr. McGarrahan testified that PCP is a hallucinogen and is
not a soothing drug. (WRR7: 119-120).

(I 14)

Dr. McGarrahan did not believe Applicant needed additional
psychological or medical tests after she completed her seven
hours of testing with him. (WRR7: 124). Her examination
tests for neurological deficits that are due to a medical
neurological condition and tends to encompass all cognitive
areas. (WRR7: 124). She did not have a reason to recommend
to the trial team that Applicant receive an MRI. (WRR7: 124).
Applicant did not have sufficient cognitive impairment on the
neuropsychological testing to warrant an MRI. (WRR7: 12454

125).
(115)

Mr. Lollar testified that if Dr. McGarrahan had recommended
further testing, he would have pursued that testing. (WRR4:
83).

(116)

The State retained psychologist Jed Falkowski to testify in
this writ proceeding. Dr. Falkowski has a Ph.D. in clinical
psychology from U.T. Southwestern Medical Center in Dallas
with an emphasis in neuropsychology; he practices forensic
psychology in criminal and civil cases. (WRR6: 70-71, 76,
78; WRR State's Exh. 9). He participated in a clinical
neuropsychology fellowship at the University of Colorado
School of Medicine. (WRR6: 76). He is a licensed
psychologist in Texas and Colorado. (WRR6: 76). He
reviewed a number of records in this case describing
Applicant's history including school, medical, juvenile, and
criminal records, along with materials prepared in support
of Applicant's writ. (WRR State's Exh. 13).

(117)

Dr. Falkowski reviewed Dr. McGarrahan's testing and raw
data in this case and re-scored the tests. (WRR6: 79-81). He
testified that Dr. McGarrahan's score report was accurate
and was largely consistent with his own scoring. (WRR6: 81).
He explained that, generally, the testing reflected Applicant
has below average intellectual functioning and academic
abilities consistent with his level of functioning. (WRR6: 81).
Applicant's full scale IQ score on the WAIS-IV is 84, which is
in the "below average" range of intellectual functioning.
(WRR6: 81). Applicant had a few scattered low scores, as
would be expected, but some of these were attributable to
testing factors at the time of the evaluation. (WRR6: 81, 8385). Dr. Falkowski agrees that the testing reflects little if any
cognitive impairment. (WRR6: 81-82).

( 118)

The bulk of Applicant's scores are consistent with his overall
abilities in the low average IQ range of 80 to 89 and
consistent with his educational attainment. (WRR6: 82-83).
It is quite common for an individual with low average IQ to
55

have some impaired scores. (WRR6: 82-83, 108). The
scattered impaired scores do not necessarily mean Applicant
has neurological damage. (WRR6: 83-84).
(119)

Dr. Falkowski testified that-setting aside potential issues of
fetal alcohol or lead exposure-Dr. McGarrahan's test
results are consistent with Applicant's history. (WRR6: 86).

(120)

Dr. Falkowski opined that Dr. McGarrahan's testing results
did not reveal any red flags that Applicant needed further
testing. (WRR6: 85-86).

(121)

Dr. Falkowski testified that a 15-point spread between the
Verbal Comprehension Index and Perceptual Reasoning
Index on the WAIS-IV is not necessarily indicative of brain
dysfunction or neurological damage. (WRR6: 87-88). He
explained that this 15-point spread is quite common in the
general population: the likelihood of a person having a ISpoint spread between these two indices is 20 percent.
(WRR6: 88-89). Therefore, of a sample of 100 neurologically
healthy individuals, 20 would have a 15-point spread between
these indices. (WRR6: 88-89). This data is contained in the
manual for the WAIS-IV test and in research studies.
(WRR6: 89). Ten to 13 percent of the population, like
Applicant, have the specific split where the verbal index is
the lower score and the perceptual reasoning index is the
higher score. (WRR6: 89-90). The 15-point spread is not
specific to FASD and is not necessarily driven by brain
dysfunction; there are many etiologies or causes, including
the person's general strengths and weaknesses or the
quality of a person's education. {WRR6: 94).

(122)

Dr. Falkowski testified that not only was Dr. Underhill's
scoring of the delayed portion of the Rey-0 incorrect (when he
scored a test which was not administered as a zero), but
also an evaluator should consider whether fatigue played a
role in Applicant's score of moderately impaired on the
immediate recall portion of the test, since the entire
evaluation was discontinued shortly thereafter. (WRR6: 9556

98).
( 123)

Dr. Falkowski testified that Dr. Brown and Dr. Davies relied
primarily on one low score (which fell below one percentile)
on a single subset in the Wisconsin Card· Sorting Test as
evidence of Applicant's impairment in executive functioning.
(WRR6: 100-101). Dr. Falkowski disagrees with Dr. Brown,
Dr. Davies, and Dr. Mayfield's interpretation of this subtest
because it is an embedded performance validity measure
that assesses a person's effort or motivation or task
engagement on a particular task. (WRR6: 101). In short,
Applicant scored very poorly on a subtest that measures
effort, and he did well on the other subcomponents of the
Wisconsin Card Sorting Test. (WRR6: 101-102). Therefore,
Dr. Falkowski concluded Applicant's low score on the one
subtest might not be indicative of neurological dysfunction: it
may simply be related to effort or motivation on that
particular subtest. (WRR6: 102).

( 124)

Dr. Falkowski concluded that, other than the one low score
on a subset of the Wisconsin Card Sorting Test, Applicant
performed in the average and above average range in
executive functioning; because his general abilities are in the
low average range, executive functioning is a relative strength
for him. (WRR6: 102-105).

(125)

Dr. Falkowski testified that results from both sessions of Dr.
McGarrahan's testing showed Applicant was over reporting
psychotic-type symptoms, feigning, and malingering. (WRR6:
118-121).

(126)

Dr. Falkowski testified that habitual and extensive drug use
could contribute to low test scores, even if a person has
abstained from use for a period. (WRR6: 125).

(127)

Dr. Falkowski testified that etiologies other than prenatal
alcohol or toxin exposure could produce the pattem of
results seen in Applicant's testing, including fatigue in the
testing environment, being disengaged from a task during
57

testing, having poor quality of education, or chronic substance
abuse. (WRR6: 125-126).
( 128)

The Court admitted into evidence at the writ hearing several
research articles supporting Dr. Falkowski's opinions in this
case. (WRR6: 90-94; WRR State's Exh. 10-12).

(129)

The State's expert at trial, Dr. Reed, is a clinical and forensic
psychologist. (WRR4: 5-6, 9, 13-14; WRR State's Exh. 2). She
is a licensed psychologist in California and Texas. (WRR4:
13). She estimated she has been retained in forensic cases
several hundred times by the State, court, and defense and
has testified in court about 30 times. (WRR4: 10-11).

(130)

Pursuant to the Court's Lagrone order, Dr. Reed examined
Applicant prior to his trial and administered academic,
intelligence, and personality testing along with tests of effort
and tests of malingering and exaggeration. (WRR4: 7, 16-17;
WRR State's Exh. 3). She conducted a clinical interview.
(WRR4: 16, 18}. Dr. Reed reviewed a number of records
relating to Applicant's history. (WRR4: 8, 17; WRR State's
Exh. 3, at 2).

( 131)

Dr. Reed diagnosed Applicant with Psychotic Disorder Not
Otherwise Specified, Depressive Disorder Not Otherwise
Specified, Cannabis Abuse in Remission in a Controlled
Environment, Phencyclidine Dependence in Remission in a
Controlled
Environment,
and
Antisocial
Personality
Disorder. (WRR4: 6, 29; WRR State's Exh. 3, at 12). She
noted that a diagnosis of Malingering needed to be "ruled
out." (WRR4: 6-7; WRR State's Exh. 3, at 12).

(132)

Dr. Reed testified at the writ hearing that Antisocial
Personality Disorder is a characterological disorder involving
a lifetime pattern of behaviors. (WRR4: 31). The criteria for
Antisocial Personality Disorder involves a history of engaging
in criminal activities, not abiding by the rules of society,
aggressive behavior, irresponsibility, lack of remorse, and
deceitfulness. (WRR4: 31). In Dr. Reed's experience,
58

testimony regarding Antisocial Personality Disorder before a
jury is detrimental to the defendant. (WRR4: 33).
(133)

Dr. Reed concluded Applicant may have been malingering
during the exam. (WRR4: 6-7). Malingering is the
exaggeration, feigning, or overreporting of psychological
symptoms or distress. (WRR4: 7, 26, 62-63). Applicant
showed as malingering on two screening measures, but
not on a comprehensive measure. (WRR4: 7, 26-27).

(134)

Some personality testing of Applicant indicated significant
exaggeration and overreporting of symptoms. (WRR4: 27-28).

(135)

Dr. Reed concluded Applicant did not have any gross
problems with either attention or memory; he appeared
within normal limits in those areas. (WRR4: 23). Applicant
did not exhibit a Learning Disability in Dr. Reed's testing.
(WRR4: 26).

(136)

Prior to trial, Dr. Reed provided her report to the Court, and
it was sealed. (WRR4: 15). The Court ordered Dr. Reed not
to discuss the results of her evaluation with either party;
the results would only be made available to both sides if
Applicant called a witness to testify at trial who had
examined Applicant. (WRR4: 15). The parties did not receive
a copy of Dr. Reed's report until during this writ proceeding
in 2015, pursuant to an order by this Court. (See WRR4: 1516; WRR State's Exh. 3).

(137)

Post-conviction and prior to her testimony in the writ
hearing, Dr. Reed reviewed the affidavits of Applicant's
experts in this writ, Dr. McGarrahan's raw test data, and the
writ application. (WRR4: 8-9, 64-65).

(138)

In her testimony at the writ hearing, Dr. Reed characterized
her testing as consistent with Dr. McGarrahan's testing.
(WRR4: 9).

59

(139)

(140)

Dr. Reed received Dr. McGarrahan's raw data (pursuant to a
court order) in about 2015; at the same time, she sent her raw
data to Dr. Mayfield. (WRR4: 34).
If Dr. Reed had testified at trial, she could have testified to
any information contained in her report, some of which
would have been detrimental to Applicant. (See WRR4: 35).
Some of the information conflicted with other information put
forth at trial or was contrary to defense themes or theories.
This includes that: Applicant reported he did not experience
abuse or neglect as a child; he reported he had a good
relationship with and was close to family members; he
reported no substance abuse problems in his family; he had
two fire setting incidents as a child, including setting the
grass on fire in a wooded area when he was age 11 or 12; he
was a member of the "Bloods" gang from age 14 to 18 or 19;
he was involved in 3 or 4 gang-related fights as a teen; in
Kindergarten or first grade he used razorblades that
another child brought to school to cut his and another child's
jacket; he was suspended from school a few times; he was
under the influence of PCP when he was in possession of
marijuana at school in ninth grade; when he dropped out of
high school, he hung out with friends who were selling
drugs and involved in gangs; he never sought mental health
treatment in his teens or adulthood; he inconsistently
reported whether his psychiatric problems of paranoia and
hallucinations began before or after initiating PCP use; he was
stressed and depressed due to financial problems at the time
of this offense; he denied symptoms of mental illness like
auditory or visual hallucinations or delusions at the time of
the offense; his drug use history includes using PCP and
tobacco dipped in formaldehyde every day from age 16 until
his arrest; at age 14, he took his mother's car and drove to
Longview, Texas; jail mental health records indicate he is
"medication seeking;" jail records indicate he has been moved
a number of times in the jail due to bullying and threatening
other inmates; Applicant denied engaging in bullying and
threatening other inmates and described himself as the
60

victim in these incidents; he initially denied having any
disciplinary incidents in the jail but later admitted there were
several, including altercations with other inmates; and he
reported typically receiving $1500 per month of financial
support from various women he had relationships with, and
that was how he made his money. (WRR State's Exh. 3, 4).
(141)

During this proceeding, the Court allowed Applicant to
undergo MRI testing and for both parties to file expert reports
related to the testing. (WRRS: 72- 73). Applicant underwent
MRI and Diffusor Tensor Imaging (DTI) on January 10,
2019.

(142)

On June 12, 2019, Applicant filed reports by Jeffrey
Lewine, Ph.D., and Joseph Wu, M.D. regarding their
analysis of Applicant's MRI and DTI imaging. These reports
were attached as Exhibit A and B, respectively, to Applicant's
filing titled "Roderick Harris's Submission of Additional
Evidence Pursuant to the Court's November 26, 2018 Order."

(143)

Dr. Lewine's and Dr. Wu's reports are not sworn to by
affidavit or otherwise. Because the reports are not sworn
by affirmation or oath, or verified, the Court does not
consider them to cany the same weight as sworn testimony.

( 144)

On September 16, 20 19, the State filed the affidavit of
Joshua Shimony, M.D., Ph.D., along with its attachments A
through C. Dr. Shimony has been a full time neuroradiologist
at Washington University School of Medicine in St. Louis
since 200 1. He indicates he is also involved in research in
the area of DTI, which includes the parameter of Factional
Anisotrophy (FA). (Exh. B, Shimony Report, p. 1).

(145)

Dr. Shimony's September 12, 2019 affidavit and report
indicates he reviewed the MRI images of Applicant's brain
that Applicant's counsel provided to the State. (Exh. B,
Shimony Report, p. 1). He also reviewed the reports by
Applicant's experts, Dr. Lewine and Dr. Wu.
61

(146)

After reviewing Applicant's MRI imaging, Dr. Shimony
concluded the "MRI is normal." (Exh. B, Shimony Report, p.
1).

(147)

After reviewing Dr. Lewine's and Dr. Wu's reports, Dr.
Shimony noted the two experts reach "different, conflicting
conclusions" regarding the volumetrics findings (referring to
pages 5, 8, 39, and 47-49 of Applicant's filing). Dr. Shimony
stated: "The discrepancy between these two analyses is gaping
and belies the fact that the underlying numbers present a
false sense of scientific accuracy." Applicant's own two
experts reached conflicting conclusions: Dr. Lewine found
all regions of interest in the brain to be statistically
abnormal and small, while Dr. Wu found no areas of the
brain to be significantly smaller with the exception of two
areas (although Dr. Shimony disagrees with Dr. Wu's
interpretation of the data related to those two areas). (Exh. B,
Shimony Report, p. 2).

(148)

Dr. Shimony also concludes there is again a discrepancy
between Applicant's two expert reports regarding the DTI data
(referring to pages 6, 11, 39, 40-42, and 51-65 of Applicant's
filing). (Exh. B, Shimony Report,
p. 2-3).

(149)

Regarding findings of the DTI testing, Dr. Shimony reports
that Dr. Lewine "presents a picture of widespread abnormality
involving 25 of 48 regions [of the brain] with abnormal FA
values. On Dr. Wu's interpretation of the DTI testing, Dr. Wu
reports a much smaller group of regions with decreased FA,
however he also presented regions with increased FA which
Dr. Lewine found to have decreased FA. (Exh. B, Shimony
Report, p. 2).

(150)

Dr. Shimony concludes:
[T]he application of Volumetrics and DTI in the
individual [traumatic brain injury] patient or litigant
is outside of the standard practice of medicine and
62

neuroradiology and fraught with potential pitfalls.

The large gap in the results presented by Mindset
{Dr. Lewinej and by Dr. Wu attest to this fact.
Currently, there are no studies that demonstrate
the utility, accuracy or reliability of these methods
for the diagnosis in individual patients. Currently
DTI is only used in individuals for pre- surgical
planning in the case of patients with brain tumors.
The error rates of these methods are currently
unknown and the variability in equipment,
acquisition parameters and analysis software
complicates interpretation of these methods in a
single individual.
(Exh. B, Shimony Report, p. 5).
( 151)

Dr. Shimony reports that the American College of Radiology
(ACR), the organization that establishes guidelines .for the
standards of care in the field of Radiology "does not endorse

DTI or Volumetrics for the diagnosis of [traumatic brain injury]
in individuals." In fact, the ACR explicitly states that DTI is
usually not appropriate for the diagnosis of traumatic
brain injury. (Exh. B, Shimony Report, p. 4).
(152)

Dr. Shimony reports that the "use of DTI and/or Volumetrics
is not widely used and is not generally accepted in the

clinical diagnosis of traumatic brain injury (TBI) for individual
patients. At the majority of Level I Trauma hospitals in this
country (including the biggest and best academic centers)
these methods are not performed on individuals for the
diagnosis of TBI since these methods are not reliable for
this purpose. None of these well respected academic
institutions provide reports on these techniques for
individual patients in traumatic brain injury." (Exh. B,
Shimony Report, p. 4).
(153)

Dr. Shimony concludes that the reported DTI and Volumetric
"findings" of Applicant's experts "present no evidence of an
abnormality and are of no consequence." He adds, "Given our
63

current overall lack of understanding of the application of
these methods in individuals, it is difficult to make
judgments as to what is normal or abnormal, especially in
the setting o{ litigation." (Exh. B, Shimony Report, p. 5).
(154)

Dr. Shimony notes in his report that Dr. Wu provides
references to extensive DTI literature on brain injury (80
articles); however, all but a few of these articles compare a
control group to a group of subjects with brain injury, and not
with a single individual, as in the case here. (Exh. B,
Shimony Report, p. 3). The few articles that look at
individuals are case reports and thus are not considered
scientifically valid. (Exh. B, Shimony Report, p. 3). The Court
finds that the use of quantitative analysis of volumetrics and
DTI on MRI imaging in individual subjects is not a generally
accepted practice in the medical community for the clinical
diagnosis of brain injury.

( 155)

The Court finds Dr. Shimony's affidavit regarding
Applicant's MRI imaging to be credible and reliable.

(156)

Dr. Shimony attaches in Exhibit C a well-known 2013
published report on guidelines for ethical use of
neuroimaging in medical testimony, in which the author
stated:
[T]he neuroradiology community has not arrived at a
consensus view of the value of DTI in (particularly mild)
head trauma. Nonspecific pattern or findings obtained
with DTI prohibit the confirmation or diagnosis of mild
[traumatic brain injury] with reliability.
C.C. Meltzer et al., Guidelines for the Ethical Use of
of a
Neuroimages
in Medical
Testimony:
Report
Conference, Am. J. of
Multidisciplinary · Consensus
Neuroradiology, Aug. 29, 2013.

( 157)

The Court finds the quantitative volumetric and DTI analysis
performed by Dr. Lewine and his colleagues at Mindset is not
persuasive or credible. The Court does not find Dr. Lewine's
64

conclusion that Applicant's "set of quantitative MRI
evaluations is markedly abnormal" to be persuasive or
credible. (See Exh. A, Lewine Report).
(158)

Dr. Wu concluded that Applicant's history and MRI DTI and
quantitative volumetrics patterns are consistent with
diagnoses of brain damage caused most likely by lead
toxicity, traumatic brain injury, and fetal alcohol spectrum
disorder, based on review of the clinical records and
imaging findings. (Exh. B, Wu Report). In considering
Applicant's history, Dr. Wu appears to have accepted prior
diagnoses related to exposure to lead and alcohol in utero
as conclusive.

(159)

The Court does not find Dr. Wu's conclusion that
Applicant's history and MRI DTI and quantitative
volumetrics pattems to be likely caused by lead toxicity and
fetal alcohol spectrum disorder to be persuasive or credible.
Applicant fails to prove by a preponderance of the evidence
that trial counsel was deficient by not further investigating a
possible fetal alcohol spectrum disorder and by not
presenting that diagnosis to the jury.

( 160)

There is no single test an expert can give a person to
determine if the person has a FASD diagnosis. (WRR3: 84;
WRR6: 115; WRR7: 122-123). An FASD diagnosis is based
on the clinical judgment of the examiner. (WRR3: 84; WRR6:
115-116; WRR7: 123).

(161)

Dr. Davies formed conclusions and diagnosed Applicant with
ARND in part based on incorrect test scoring by Dr.
Underhill of Dr. McGarrahan's raw data in two important
areas.

( 162)

Dr. Davies seemed to conclude that because Applicant had
some alcohol exposure in utero, because any alcohol
exposure presents a risk, and because Applicant's
neuropsychological testing is in his opinion consistent
with ARND, that a diagnosis of ARND is appropriate.
65

(163)

While Dr. Davies addressed other potential etiologies, some of
which appeared as significant as Ms. Maddox's prenatal
alcohol use, in light of other expert testimony in this
proceeding the Court does not find his ready dismissal of
those possible etiologies to be credible. (See Application Exh.
28, at 13).

( 164)

Dr. McGarrah an testified that confirmation bias in testing
occurs when an examiner goes in with a preconceived idea
about how a person should perform based on the
examiner's experiences or knowledge or what the research
says. (WRR7: 121-122). Dr. Falkowski testified confirmation
bias is when a person searches for things to confirm a
previously held hypothesis or idea-such as when an
examiner wants to consider whether a person has FASD and
looks for things consistent with FASD. (WRR6: 118).
Confirmation bias also encompasses a tendency to ignore
information that may be inconsistent with a hypothesis or
idea. (WRR6: 118).

(165)

( 166)

The Court finds both Dr. Davies and Dr. Mayfield are
influenced by confirmation bias. Particularly, Dr. Mayfield
approached her analysis in this case based on a referral
question by post-conviction counsel to examine Applicant
to identify evidence consistent with ARND. Based on the
testimony of the expert witnesses in the courtroom, the
Court finds this is not the usual approach of a neutral
examiner-to review a case to look for circumstances and
characteristics of a person consistent with a pre-determined
diagnosis. For these reasons, the Court finds Dr. Mayfield's
testimony is not persuasive in this case.
At the writ hearing, Applicant presented the testimony. of
Richard Burr regarding the guidelines for standards of care
promulgated by the American Bar Association and Texas Bar
Association for practice in a death penalty case, particularly
regarding the
adequacy of an
investigation
and
reasonableness under the standards. (WRR9: 70).
66

( 167)

Mr. Burr received his law degree from the University of
Kentucky in 1976. (WRR9: 72). He began capital defense
work in 1979. (WRR9: 72). Since 1984, his focus had been
representing inmates in Texas who have been sentenced to
death. (WRR9: 73; WRR Applicant's Exh. 15).

(168)

Mr. Burr did not review the record of the pre-trial
proceedings in this case; with the exception of small
excerpts, he did not review the trial record; he did not review
any of the trial attorneys' or mitigation specialist's billing
records; he did not interview anyone on Applicant's trial
team; and, he did not review the trial attorneys' or mitigation
specialist's trial files. (WRR9: 12-13, 125, 133-134).

(169)

To form his opinions in this case, Mr. Burr relied on and
reviewed the habeas application, a fact summary of
Applicant's writ counsel's investigation in this case, the May
14, 2012 email from Dr. McGarrahan to Mr. Lollar and Mr.
Parks, Dr. John Hagedom's affidavit regarding gang
evidence, some excerpts from the punishment phase trial
testimony, closing arguments at trial, some of Mr. Lollar's
testimony in this writ proceeding, and reports from counsel
regarding Mr. Parks' and Mr. Howard's testimony. (WRR9:
10-13).

(170)

Mr. Burr testified that counsel's trial files are the best evidence
reflecting an investigation in a death penalty case, particularly
because they are the only way to document better than the
attorneys' memories what they did or did not do. (WRR9:
132-133). Mr. Burr has often reviewed trial files in other
cases where he testified as an expert about the standards of
care in a death penalty case. (WRR9: 133). Yet, he did not
review the trial attorneys' files before forming his opinions or
testifying in this case. The Court finds Mr. Burr formed his
opinions on limited information. Particularly, he ·did not
speak to the trial attorneys or review any of the trial team's
files. Therefore, he was operating from a deficit of information
about the investigation made in this case and the factors
affecting trial counsel's decisions.
67

(171)

To form his opinions, Mr. Burr relied substantially (in part)
on the writ application and a summary of the facts
provided by Applicant's counsel, which he did not bring
with him when he testified at the writ hearing. (WRR9: 913, 13). He appeared to be operating on the belief he
was "essentially testifying about facts that were known and
established in giving his opinion." (WRR9: 134). However, the
facts he accepted as "known and established" were
compilations prepared by Applicant's counsel, which the
witness did not bring with him to court. (WRR9: 9-10, 13,
134).

(172)

Mr. Burr acknowledged it is well established that the ABA
and Texas Bar Association guidelines are not law, but
guidelines of practice. (WRR9: 126- 127). See Bobby v. Van
Hook, 130 S. Ct. 13, 17 (2009) (per curiam).

( 173)

Mr. Burr expressed no opinions regarding the tactical
decisions made in this case or the prejudice prong of
Strickland. (WRR9: 70, 127).

(174)

Mr. Burr has known Mr. Parks and Mr. Lollar for a long
time and has consulted with them on some of their cases.
(WRR9: 117). He believes they are very qualified practitioners.
(WRR9: 117 -118).

( 175)

Although Mr. Burr testified he is very familiar with death
penalty litigation in the state of Texas, he was not aware that
the trial judge in the instant case declared the Texas death
penalty scheme unconstitutional. (WRR9: 119- 121, 125).

(176)

Mr. Burr testified that he has tried two death penalty cases
during his career: the Timothy McVeigh case in federal court
and a re-sentencing case in state court in Florida in the early
1990s. (WRR9: 121-123). He has not tried a death penalty
case in Texas. (WRR9: 122). The Court finds Mr. Lollar's and
Mr. Park's experience trying death penalty cases far
exceeds Mr. Burr's expenence. (WRR4: 68-69; WRR8: 13;
WRR9: 122-123).
68

( 177)

Mr. Burr has testified or provided affidavits in at least
several post- conviction state and federal death penalty
proceedings in which he testifies in support of ineffective
assistance of counsel claims; he has never provided testimony
in this regard on behalf of the State or Government. (WRR9:
123- 124, 127).

(178)

Mr. Burr testified that the standards of care under the ABA
and Texas Bar Association guidelines call for a capital trial
defense team to have one member who has specialized
knowledge about a broad spectrurp. of mental disorders and
can point the team toward an appropriate investigationalthough this person is not required to be an expert herself.
(WRR9: 82, 84- 85, 92, 129-130).

( 179)

Mr. Burr acknowledged that adequate investigation does not
mean counsel must go down every rabbit hole, but in his
own opinion if something suggests additional information
could benefit the client, counsel should pursue it. (WRR9:
82-83).

( 180)

Mr. Burr testified that if a client has evidence of prenatal
exposure to alcohol and
evidence
of
behavioral
manifestations consistent with fetal alcohol exposure, even
with a current neuropsychological assessment showing only
mild deficits in one domain, counsel needs to keep
investigating, because in his opinion a neuropsychological
assessment resulting in limited impairment does not negate a
diagnosis of a fetal alcohol syndrome disorder. (WRR9: 8590, 92, 95-96). In Mr. Burr's opinion, a neuropsychological
exam is not the only way to confirm a diagnosis of fetal
alcohol disorder: he testified it is a tool, but it is not the only
tool. (WRR9: 89).

( 181)

Mr. Burr testified that he took a graduate course in
neuropsychology in 1983-35 years ago. (WRR9: 90). He
does not, however, conduct neuropsychological testing, have
a medical license, or have a psychologist's license that allows
him to diagnose an FASD disorder. (WRR9: 91).
69

( 182)

(183)

Cross-examination of Mr. Burr revealed that sometimes in
reviewing a case and providing opinions relating to ineffective
assistance of trial counsel, Mr. Burr testifies as to his own
recommendations for practice that go above and beyond
those contained in the ABA and Texas Bar Association
guidelines. (WRR9: 130-132).
The Court finds that a determination whether a
neuropsychological examination reflecting limited impairment
can rule out a fetal alcohol spectrum disorder is beyond the
scope of Mr. Burr's expertise as a licensed attorney. Likewise,
the
Court
finds
Mr.
Burr's
op1n1on
that
a
neuropsychological exam is not the only way to confirm a
diagnosis of FASD is beyond the scope of Mr. Burr's expertise
as a licensed attorney.

( 184)

The Court finds this level of detail in Mr. Burr's testimony
regarding an investigation of possible FASD moves beyond
the scope of the standards of care recommended by the ABA
and Texas Bar Association guidelines in a mitigation
investigation to what Mr. Burr's personal recommendations
might be under a set of facts.

( 185)

Mr. Burr, in fact, testified there were no specific prevailing
professional norms applicable to a trial counsel's response
to evidence of fetal alcohol exposure in the 2009 to 2012
time period. (WRR9: 92).

(186)

Mr. Burr testified that it is now nearly the standard of
practice in post- conviction death penalty writs of habeas
corpus to include ineffective assistance of counsel claims.
(WRR9: 127-128).

(187)

Mr. Burr acknowledges that when a defendant puts an
expert on the stand who has examined him, a State's expert
is likely to testify to a diagnosis, such as Antisocial
Personality Disorder, that is extremely prejudicial · to the
defendant. (WRR9: 97-98). He explained that, in his opinion,
based on the evolution of the DSM-11 to the DSM-5,
70

Antisocial Personality Disorder is now a diagnosis based on
behaviors rather than flawed character (i.e., criminal
behaviors, lack of responsibility in relationships, not being
truthful, and not respecting other's rights). (WRR9: 98-99).
Mr. Burr proposes defense counsel can neutralize the
impact of evidence of Antisocial Personality Disorder "by
explain[ing] it by virtue of the very mental health problems
that . . . are often explanatory of those behaviors," and by
helping jurors understand it is not pejorative, and
aggravating in and of itself, but simply a classification based
on a person's history. (WRR9: 99, 107).
( 188)

The Court fmds Applicant's symptoms which his experts say
are consistent with ARND are also consistent with other
causes, conditions, or circumstances. The Court finds that,
even if all of the evidence presented in this writ proceeding
relating to ARND had been presented at trial, the jury would
have concluded at best that fetal alcohol exposure may have
caused some of Applicant's conditions or characteristics,
such as ADHD or a learning disability, but other etiologies
could also explain those conditions.

(189)

The Court finds trial counsel were not deficient by not
presenting a diagnosis to the jury that primarily accounts for
underlying conditions such as ADHD, a learning disability,
and other conditions when the jury received some evidence
about those underlying conditions. and circumstances,
including that Applicant was diagnosed with ADHD at a
young age and participated in special education throughout
his schooling.

( 190)

The Court finds trial counsel are not deficient for not
presenting a diagnosis of ARND, which Applicant's experts in
this writ allege is based on significant cognitive impairment,
when Applicant's neuropsychological expert in the pre-trial
phase advised them that based on a full neuropsychological
battery, Applicant had little or no cognitive impairment.
71

( 191)

Had Applicant presented evidence of a diagnosis of ARND at
trial, the State could have presented a psychologist like Dr.
Reed or a similar witness to testify that Applicant's
cognitive testing revealed little or no cognitive impairment.

( 192)

Had Applicant presented evidence of a diagnosis of ARND at
trial, the Court would have required Applicant to release the
raw data and notes the ARND expert relied on in forming his
opinions-including Dr. McGarrahan's raw data and notesto the State's expert. The State's expert could have then
testified that the State's and Applicant's pre-trial
psychological exams were similar, with both showing little or
no cognitive impairment. From this, the jury may have
concluded the ARND expert had either misinterpreted the
data or interpreted it in such a way to support his own
theory.

( 193)

Evidence Applicant suffered from a permanent neurological
condition would have been inconsistent with the defense
team's punishment theme that Applicant's violent criminal
behavior was due to his PCP use, and such behavior would
cease to be a problem in a controlled environment like
prison where Applicant would not have access to PCP. (See
WRR4: 97; WRR8: 39, 41-43).

(194)

Even assuming counsel's investigation and failure to present
evidence relating to fetal alcohol spectrum disorder was
deficient, Applicant fails to demonstrate by a preponderance
of the evidence any resulting prejudice. Trial counsel's
investigation into alcohol exposure in utero and the lack of
presentation of an expert in fetal alcohol syndrome did not
prejudice applicant's defense.

( 195)

The Court finds that even if Applicant's case of ARND had
been presented to the jury, the ARND evidence would not
have altered the jury's decisions in answering the special
issues in the punishment phase.

72

(196)

The weight and credibility of ARND evidence, if presented
at trial as presented here, would have had diminished
value due to the following additional evidence. Applicant
exhibited little or no significant brain impairment during
pretrial testing by both parties. Dr. Davies' conclusions about
significant cognitive impairment were primarily based on
two test- scoring problems, an arguable misinterpretation of
the executive functioning domain testing, and without him
having knowledge of the fatigue Applicant exhibited during
the exam. Applicant's own expert Dr. Mayfield did not
examine him or diagnose him with ARND. A State's
neuroradiologist expert finds Applicant's MRI imaging to be
normal. By applying the quantitative DTI and volumetrics
analysis to an individual, Applicant's experts are using the
technology in a manner not accepted in the general medical
community and not used in major medical centers to
diagnosis brain impairment, and the medical association
publications and standards advise against it. There is
evidence that Ms. Maddox drank as little as a few glasses of
wine on the weekends during the first six weeks of
pregnancy, which-though any exposure presents risk-is
in fact minimal exposure under the guidelines describing
minimal exposure in the DSM-V. Also, the jury might have
believed that the primary deficit Applicant exhibited during
his pretrial testing, a memory deficit, was due to his history
of extreme PCP use.

( 197) The jury already knew Applicant had a childhood diagnosis of
ADHD. The jury already knew Applicant was in special
education. The jury already knew Applicant had some
childhood mental health problems. The jury already heard
evidence of other adverse childhood conditions and
circumstances Applicant experienced in addition to these
through his family members, Dr. Roache, and Dr. Kessner.
( 198)

No expert in this proceeding testified Applicant still has a
diagnosis of ADHD or a learning disability. The jury could
have concluded, therefore, that if fetal alcohol caused these
73

impairments, they appear to have
Applicant's adult psychological testing.

resolved

pnor

to

( 199)

There is no direct link between ARND and Applicant's criminal
behavior.

(200)

Calling an expert to testify who examined Applicant or
relied on another expert's psychological examination would
have opened the door to the State gaining access to Dr.
Reed's report and to any information Applicant's testifying
witness relied on in forming his or her opinion, including
Dr. McGarrahan's raw data and notes. Applicant malingered
symptoms of mental illness during his exam with Dr.
McGarrahan. The trial team had succeeded in placing some
evidence Applicant suffered from serious mental illness before
the jury, including through family members and Dr. Roache.
Juries tend to view a person who fakes mental illness and
symptoms of mental illness to be a manipulator. This
evidence, though not specifically relevant to the cognitive
testing for the ARND testimony, would have been extremely
detrimental to the rest of Applicant's case tn the
punishment phase of trial.

(201)

It is not reasonably likely that the outcome of Applicant's trial
would have been different even if counsel had presented
evidence of fetal alcohol spectrum disorder or ARND in the
punishment phase.

(202)

In assessing prejudice under Strickland, the question is
whether it is "reasonably likely" the result would have been
different. Harrington v. Richter, 562 U.S. 86, 111 (2011);
Strickland, 466 U.S. at 696. The likelihood of a different result
must be substantial, not just conceivable. Richter, 562
U.S. at 112.

(203)

There is no substantial likelihood that presenting expert
testimony like that of Dr. Davies, Dr. Mayfield, Dr. Lewine,
or Dr. Wu in support of fetal alcohol spectrum disorder or
ARND would have resulted in a different punishment
verdict. See Harrington v. Richter, 562 U.S. at 111-112;
74

Strickland, 466 U.S. at 696.

Trial Counsel Did Not Render Ineffective Assistance by Not
Investigating and Presenting Childhood-Lead-Exposure
Evidence in the Punishment Phase
(204)

Applicant presented an affidavit and the testimony of Dr.
Thomas Dydek in this writ proceeding. (Applicant's Writ Exh.
2; WRR3: 125-162).

(205)

Dr. Dydek is a board-certified toxicologist and licensed
engineer with a Ph.D. in Environmental Science and
Engineering. (Applicant's Writ Exh. 2, at 1; WRR3: 130). Dr.
Dydek has operated his own environmental consulting firm
since 1994. (Applicant's Writ Exh. 2, at 1; WRR3: 129).

(206)

Dr. Dydek testified that he has been retained as an expert
witness in toxicology approximately 250 times, almost
always in civil litigation. (WRR3: 132). Dr. Dydek has been
deposed fifty times and testified at trial ten times. (WRR3:
133). Dr. Dydek has testified in "one criminal matter" that
"was actually kind of a mixture." (WRR3: 125, 154).

(207)

Dr. Dydek has never testified in a death penalty case, and
has no expertise in the presentation of mitigation evidence in
a death penalty case. In fact, when asked whether he
understood that the jury determines what evidence is
mitigating, Dr. Dydek testified that he did not "really know
the details of those things." (WRR3: 162).

(208)

Dr. Dydek was retained by the Office of Capital and Forensic
Writs in 2014 to provide an opinion about Applicant's
childhood exposure to lead. (Applicant's Writ Exh. 2, at 1).

(209)

In order to form his opinion, Dr. Dydek reviewed affidavits
collected by Applicant's post-conviction counsel from Dr.
Brown, Applicant's mother Pamela Maddox, grandmother
Shirley Cook, and stepfather Ramon Maddox, and Garland
lSD school records from 2003. (WRR3: 127; Applicant's Writ
75

Exh. 2, at 3-5). Dr. Dydek also reviewed information
related to the RSR Corporation lead smelter located in West
Dallas and its history of pollution emissions. (WRR3: 144).
(21 0)

Dr. Dydek did not interview Applicant or any of Applicant's
family, nor did he review any medical records. (WRR3:
127-128). Dr. Dydek did not consult with any of the experts
in this case. (WRR3: 127).

(211)

Dr. Dydek presented two primary op1n1ons at the
evidentiary hearing: (1) that Applicant more likely than not
was exposed to excessive levels of lead in utero and as a
small child; and (2) early life lead exposure can result in
violent behavior in adults. (WRR3: 126, 144-145).

(212)

Dr. Dydek testified Applicant was exposed to lead via the RSR
Corporation smelter both in utero, and as a young child.
(WRR3: 145-146). According to Dr. Dydek, Applicant's
grandmother, Shirley Cook, who lived on Pueblo Street near
the smelter, would have been exposed to lead in the air and
soil which she would have passed to Applicant's mother,
Pamela Maddox, in utero. (Applicant's Writ Exh. 2, at 4).
Dr. Dydek also opines Applicant's mother would have been
exposed to lead while she lived on Nomas Street near the
smelter, and would have passed lead to Applicant in utero.
(Applicant's Writ Exh. 2, at 4). Dr. Dydek testified the RSR
Corporation smelter ceased operations several months prior to
Applicant's birth. (WRR3: 149). Dr. Dydek opined Applicant
would have been exposed to lead in the soil while playing
outside at his house on Nomas Street, at his grandmother's
house on Pueblo Street, at his elementary school, and in
Tipton Park where he played as a child. (WRR3: 145-146,
148-149).

(213)

Dr. Dydek testified that children are more susceptible than
adults to lead exposure, and the brain and central nervous
system of the child may be affected. (WRR3: 134). Children
who are exposed to lead may develop higher incidences of
ADHD and lack impulse control. (WRR3: 136).
76

(214)

(215)

Dr. Dydek also noted that there is "quite a large and
growing body of scientific evidence that shows that an in
utero and/ or early childhood exposure to lead can lead to
increases in delinquent and violent behavior and rates of
criminality when those lead-exposed children grow into
teenage and early adult[s]." (WRR3: 136-137). Based on his
review of this literature, Dr. Dydek offered the opinion that "it
is more likely than not that a child exposed to lead either in
utero and/ or as a young child is a definite risk factor for later
violent, antisocial or delinquent behavior." (WRR3: 139).
Dr. Dydek testified that recent exposure to lead 1s
determined via blood testing, whereas historic exposure to
lead is determined by measuring bone lead levels. 7 (WRR3:
141). Bone lead testing is conducted using xrayfluorescence or "XRF." (WRR3: 141-142).Measurements
are typically done using the tibia. (WRR3: 142).

(216)

No evidence regarding blood lead testing or bone lead testing
of Applicant was presented in this proceeding. Dr. Dydek
testified that he was not aware of any testing of Applicant's
blood lead levels as a child; or of bone lead testing as an
adult. (WRR3: 159).

(217)

In his affidavit, Dr. Dydek states that "[a]s a young child,
[Applicant] was diagnosed with dysthymia (mild depression)
and with ADHD. He was placed in special education classes
because he had behavioral issues and a learning disability."
(Applicant's Writ Exh. 2, at 5). Dr. Dydek further
explained that neuropsychological testing conducted in 20 11
revealed Applicant "had an IQ of 84, as well as uncovered
evidence of damage to the frontal, temporal, and parietal

7

On December 4, 2018, Applicant filed a report from Ferne Nilsa Cummings, M.D., titled "Bone
Lead Test Result and Interpretation," for Applicant's mother, Pamela Maddox. This Court
granted the State's Motion to Strike this report because it was filed by Applicant in
contravention of this Court's November 26, 2018 Order. Accordingly, the report was not
considered by this Court in this writ proceeding.

77

lobes of his brain." (Applicant's Writ Exh. 2, at 5). According
to Dr. Dydek, these medical conditions and behavioral traits
are "correlated and associated with lead exposure."
(Applicant's Writ Exh. 2, at 6).
(218)

Dr. Dydek testified that ADHD and learning disabilities are
multifactorial, meaning that there are multiple "risk factors''
for these diagnoses. (WRR3: 162). Dr. Dydek conceded that
childhood lead exposure is only one risk factor that is
correlated or associated with ADHD and learning disabilities.
(WRR3: 162).

(219)

Dr. Dydek also conceded that he had not reviewed any
medical records that reflected Applicant had structural brain
damage. (WRR3: 159). Dr. Dydek testified he was relying on
Dr. Brown's affidavit as evidence that Applicant had organic
or structural brain damage. (WRR3: 159-160). Dr. Dydek
testified he was unaware whether Dr. Brown conducted any
psychological testing of Applicant. (WRR3: 160). Dr. Dydek
testified he was not aware that the 20 11 psychological testing
Dr. Brown references in her affidavit was conducted by Dr.
McGarrahan, the trial team's neuropsychologist. (WRR3: 160).
Dr. Dydek did not consult with Dr. McGarrahan and was
unaware of her conclusions in this case. (WRR3: 160-161). Dr.
Dydek was also unaware the State's expert, Dr. Reed, had
evaluated Applicant· in 2012 and conducted psychological
testing of Applicant. (WRR3: 161). Dr. Dydek was not
provided with a copy of Dr .. Reed's report and did not
consult with her. (WRR3: 161) ..

(220)

Dr. Dydek testified that if any of the information that he relied
on in forming his opinion was incomplete or inaccurate, his
opinion could possibly change. (WRR3: 161). However, Dr.
Dydek acknowledged that he was not qualified to make
judgments about "conflicting neuropsychological effects."
(WRR3: 161).

(221)

There is no specific neurological test which determines
absolutely that a person has been exposed to a toxin. (WRR6:
78

116). A diagnosis that a person has neurological damage
from exposure to a toxin like lead is based on clinical
judgment. (WRR6: 116).
(222)

The trial team sought the opinion of a respected and
credentialed neuropsychologist, Dr. McGarrahan, who
examined Applicant and concluded he has little or no
neurological impairment. (WRR8: 40-41). Dr. McGarrahan's
conclusions are inconsistent with a theory that Applicant was
exposed to lead as a child-or, if Applicant were exposed
to lead, his neuropsychological exam as an adult shows no
evidence of that exposure.

(223)

Because Dr. Dydek was not provided with Dr. McGarrahan's
opinion that Applicant has little or no brain impairment, Dr.
Dydek's testimony, if any, suggesting Applicant may have
brain damage as a result of childhood lead exposure lacks
credibility.

(224)

The Court adopts and incorporates the above fmdings and
conclusions related to Applicant's experts Dr. Lewine and Dr.
Wu and their analysis of Applicant's brain imaging.

(225)

Applicant fails to prove by a preponderance of the evidence
any deficiency in trial counsel's failure to investigate and
present mitigating evidence related to childhood exposure to
toxic levels of lead.

(226)

Dr. Dydek opines only that Applicant may have received
lead exposure- more likely than not-relying primarily
on the geographic location of Applicant and his family,
along with dubious conclusions by Dr. Brown, a
psychologist who did not testify in this proceeding and who,
in interpreting the neuropsychological testing, relied on an
incorrect score report by Dr. Underhill and testing for
which she had no knowledge of relevant environmental
factors. At best, Dr. Dydek relies on neuropsychological
testing for which there are conflicting interpretations. There
is no medical evidence proving lead exposure.
79

(227)

A Public Health Assessment, from the Agency for Toxic
Substances and Disease Registry, that Applicant submits to
this Court in support of his claim reflects that not all
inhabitants in the neighborhoods surrounding the smelter
plant sustained elevated blood lead levels. (Applicant's Writ
Exh. 21, at 13- 16). Although counsel could have
investigated further and presented evidence to the jury that
Applicant and his mother lived close to the smelter plant and
more likely than not were exposed to lead, there is no
medical evidence to support such a conclusion. Having
possibly been exposed- even "more likely than not" having
been exposed-is a weak claim to place before a jury.
Applicant's own evidence shows that not everyone who lived
near the plant sustained lead exposure. The jury likely
would have concluded Applicant may-or may not-have
been exposed to lead as a child.

(228)

Mr. Howard testified at the writ hearing that a relatively weak
claim diminishes the impact of every other claim. (WRR7:
163). A toxicologist's opinion that Applicant more likely than
not was exposed to toxic levels of lead as a child is a weak
claim. Trial counsel testified at the writ hearing that putting
on evidence of such a weak claim runs the risk of the trial team
losing credibility with the jury. (WRR7: 161-163; WRR8: 4849). Accordingly, a toxicologist's opinion that Applicant more
likely than not was exposed to toxic levels of lead as a child
would have diminished Applicant's and his trial team's
credibility in front of jury. (WRR7: 162, WRR8: 48-49).

(229)

Testimony that childhood exposure to toxic levels of lead is
correlated and associated with violent behavior in adulthood
would have been harmful to the defense punishment casein regard to the future danger special issue. The jury could
have determined that any violent behavior related to
Applicant's childhood exposure to toxic levels of lead was a
permanent condition-meaning Applicant would continue to
be violent in prison. Likewise, such testimony would have
been inconsistent with the defense team's punishment
80

theme that Applicant's violent criminal behavior was due to
his PCP use, and such behavior would cease to be a
problem in a controlled environment like prison where
Applicant would not have access to the drug. (See WRR8: 39,
41-43).
(230)

Applicant fails to prove trial counsel is deficient for not
presenting such an unsupported theory during the
punishment phase of trial.

(231)

Calling an expert to testify at trial who relied on
neuropsychological testing would have opened the door under
Lagrone for the State to call its expert to testify. Trial counsel
testified that based on the information they had from Dr.
McGarrahan indicating Applicant had little or no cognitive
impairment, Applicant would expect a State's expert to
reach a similar conclusion. (WRR8: 48). Dr. Reed's
examination was overall consistent with Dr. McGarrahan's
examination. Testimony from the State's expert would have
placed information before the jury that was damaging to
Applicant's case, including that he had little or no
cognitive
damage,
he
was
potentially exaggerating
psychiatric symptoms, and he had a history of exaggerating
psychiatric symptoms.

(232)

Based on all of the above findings, even assuming counsel's
investigation and failure to present evidence relating to
childhood lead exposure was deficient, Applicant fails to
demonstrate by a preponderance of the evidence any resulting
prejudice.

(233)

Trial counsel's investigation into childhood lead exposure
and whether Applicant had any resulting significant
neurological damage and the lack of presentation of an
expert on childhood lead exposure did not prejudice
applicant's defense.

(234)

Because the expert testimony would have been, at best, that
Applicant may have been (more likely than not) exposed to
lead, it is not reasonably likely the outcome of Applicant's
81

trial would have been different even if counsel had presented
evidence of childhood lead exposure in the punishment phase.
(235)

There is no substantial likelihood that presenting an expert
like Dr. Dydek in support of a theory that Applicant suffered
from the effects of childhood lead exposure would have
resulted in a different punishment verdict. See Harrington v.
Richter, 562 U.S. at 111; Strickland, 466 U.S. at 696.

Trial Counsel Did Not Render Ineffective Assistance by
Not Presenting the Testimony of a Social Historian
like Laura Sovine During the Punishment
Phase ofTrial
(236)

Applicant presented an affidavit8 and the testimony of Laura
Sovine in this writ proceeding. (Applicant's Writ Exh. 5;
WRR2: 105-126; WRR7: 10-56).

(237)

Ms. Sovine has a Master's of Science Degree in Social Work
with a Clinical Concentration, and is a Licensed Master's
Social Worker with an Advanced Practitioner's license.
(Applicant's Writ Exh. 5, at 1).

(238)

Ms. Sovine works as the Executive Director at Austin
Recovery, a non-profit alcohol treatment center. (WRR2:
122). Ms. Sovine is also an adjunct faculty member at the
University of Texas, School of Social Services. (WRR2:
123).

(239)

Ms. Sovine testified that her area of expertise is in social
work with marginalized populations, with most of her direct
practice being in jails and prisons. (WRR2: 124).

8

At the evidentiary hearing, Ms. Sovine testified that she wrote her affidavit (Applicant's Writ
Exh. 5) in partnership with attorney Robert Romig, formerly with the Office of Capital and
Forensic Writs. (WRR7: 42). Ms. Sovine testified that she and Mr. Romig co-drafted the
document, meaning she would give him input and Mr. Romig would draft the document for her
to review. (WRR: 43).

82

9

(240)

Ms. Sovine has no formal training in capital litigation, and
aside from her work in the instant case, Ms. Sovine has
only worked on two other death penalty cases, both postconviction. (WRR2: 126, WRR7: 40-41). Ms. Sovine has
testified in one other Article 11.071 post-conviction writ
proceeding. (WRR7:. 40). Accordingly, Ms. Sovine has never
testified in front of a jury.

(241)

The Office of Capital and Forensic Writs retained Ms. Sovine
to "provide an opinion as to the elements of Applicant's life
history that particularly impacted his life trajectory."
(Application Exh. 5, at 2).

(242)

In order to form her op1n1on, Ms. Sovine reviewed
educational, employment, medical, juvenile criminal, and
adult criminal records; witness testimony from trial; and
thirteen affidavits9 collected by Applicant's post- conviction
counsel. (Application Exh. 5, at 31).

(243)

According to her affidavit, Ms. Sovine interviewed Applicant
at the Polunksy Unit on May 13, 2014 for five hours.
(Application Exh. 5, at 2). At the evidentiary hearing, Ms.
Sovine testified that her interview with Applicant was
approximately four hours of "face time." (WRR2: 113).

(244)

Aside from her single interview with Applicant, Ms. Sovine
did not interview or consult with any other witness in this
case, including those experts whose affidavits she relied on
in forming her opinions. (WRR2: 108, 114; WRR7: 39-40).
Ms. Sovine testified that she accepted all of the information
contained in the affidavits as true and correct. (WRR7: 49).

(245)

Ms. Sovine considered everything that Applicant told her
during her interview with him to be truthful. (WRR7: 49-50).
Ms. Sovine testified that she had "no reason to believe he

While Ms. Sovine states in her affidavit that she reviewed the affidavit of Dr. Courtney Robinson
in preparing her own affidavit, this assertion lacks credibility. (Applicant's Exh. 5, at 31). Dr.
Robinson signed and notarized her affidavit on June 9, 2014, the same day that Ms. Sovine signed
and notarized her own affidavit. (Applicant's Writ Exh. 3, 5). The Court acknowledges that Ms.
Sovine may have had a draft of the affidavit. (See finding number 293 intra).
83

was lying at the time." (WRR7: 49). Ms. Sovine testified that
her opinion would not change based on information that
Applicant had malingered or exaggerated symptoms of mental
illness during psychological evaluations by Dr. McGarrahan in
2011 and Dr. Reed in 2012, and by medical staff while
incarcerated in the Dallas County jail prior to Applicant's
trial. (WRR7: 50).
(246)

Ms. Sovine testified it was her opinion Applicant was a victim
for twenty- four years prior to committing this capital
murder. (WRR7: 56).

(247)

Ms. Sovine testified that Applicant began building "risk
factors" prior to birth due to in utero exposure to alcohol
and lead. (WRR7: 11). Applicant also developed an insecure
attachment between the ages of zero and three. (WRR7: 11).
According to Ms. Sovine:
Parents who themselves have a mental illness,
addictions, or are otherwise not sensitive parents
tend
to
raise
children
with insecure
attachments, who have a much lowered capacity
for emotional regulation and impulse control, and
who seek to .control their environment in an
unhealthy way to get needs met such as care and
belonging. Children with insecure attachments
being raised in chaotic and stressful environments,
without intervention,
will
have
significant
impairments in behavior and general social
functioning.
(Application Exh. 5, at 6).

(248)

Ms. Sovine testified that Applicant's school experience was
also not typical. (WRR7: 11-12). Ms. Sovine explained that
Applicant "exhibited some very severe behavior issues and
was diagnosed very early with major mental health
disorders that were also not treated." (WRR7: 11-12).
According to Ms. Sovine, Applicant was "punished rather
84

than receiving appropriate treatment from any kind of
standard in any kind of mental health profession, and that all
of this compounded to affect his adverse life outcomes."
(WRR7: 11-12).
(249)

In regard to Applicant's gang involvement, Ms. Sovine
testified to the following:
There was like a youth gang that he was apparently
jumped into that was - my understanding was sort
of a neighborhood gang of kids, like sort of identified
as being from a particular area. That was kind of a
way that they grouped up and the way that they
found protection and kind of alliances with each
other.
(WRR7: 30).

(250)

Ms. Sovine testified that she only spoke briefly with
Applicant about his gang membership; Applicant did not tell
her the name of the gang was the Fish Trap Bloods. (WRR7:
45). Ms. Sovine testified that she had no familiarity with the
Fish Trap Bloods. (WRR7: 45). She testified it was her
"understanding that the youth gang did participate in some
petty criminal behavior." (WRR7: 46).

(251)

Ms. Sovine did not read Detective Nelson's trial testimony,
and she did not report any knowledge of Applicant's gangrelated tattoos. (WRR7: 46). Applicant did not tell her about
any fights he was in that were gang related. (WRR7: 46).

(252)

Ms.
Sovine's testimony and knowledge concerning
Applicant's gang involvement was very limited with little
foundation; therefore, the Court finds it is neither credible
nor compelling.

(253)

Concerning Applicant's drug use, Ms. Sovine testified
Applicant began using marijuana when he was thirteen
and PCP when he was fourteen. (WRR7: 31). She stated in
her affidavit that he was smoking PCP daily by the time he
85

was in high school. (WRR7: 4 7). Ms. Sovine testified that
Applicant ended up "smoking marijuana that was dipped in
PCP, which is known as 'wet,' which is pretty-something
pretty common with young people that are self-medicating
an untreated mental health disorder." (WRR7: 31). Ms.
Sovine testified that, because Applicant had both ADHD and
a mental health diagnosis of significant depression with
suicidal ideation, he had a "busy brain," which caused him to
turn to marijuana and PCP to "calm and quiet . . . that
constant disorder in the brain." (WRR7: 31- 32).
(254)

Neuropsychologist Dr. McGarrahan, Applicant's trial expert,
testified at the writ hearing that PCP is not a soothing
drug; instead, it causes hallucinations. (WRR7: 119-120).
She explained that a person would know PCP is not a
soothing drug after using it for only a short period. (WRR7:
120). Clinical psychologist Dr. Reed testified at the writ
hearing that the effects of PCP are not soothing, "[e]specially
at higher doses, they trigger feelings of anxiety, panic, and
agitation and restlessness." (WRR4: 20). Dr. Reed testified
that PCP could cause hallucinations and paranoia. (WRR4:
20). Applicant's expert at trial, Dr. John Roache, a Ph.D.
clinical pharmacologist, testified about the agitating and
arousing effects of PCP, and explained it could cause
psychotic effects including visual hallucinations and
paranoia. (RR65: 128-144).

(255)

Based on contrary testimony from the above three experts
who have higher levels of clinical training than Ms. Sovine,
the Court finds Ms. Sovine's opinion that Applicant was
using PCP to "calm and quiet" his brain is not credible.

(256)

Ms. Sovine testified she reviewed the trial testimony of
Applicant's family members: Pamela Maddox, Ramon
Maddox, Sr., Ramon Maddox, Jr., and Shamy Conley.
(WRR7: 43; Application Exh. 5, at 31). However, Ms.
Sovine did not review the trial testimony of Dr. Kessner and
Dr. Roache. (WRR7: 43; Application Exh. 5, at 31).
86

(257)

Dr. Kessner was present during the testimony of Applicant's
family members and testified about the experiences and
circumstances in Applicant's childhood that placed him at
risk of committing criminal or violent acts in adulthood.
(WRR4: 101-102; WRR8: 50-51). Moreover, Dr. Kessner had
not interviewed Applicant and her testimony did not present
any danger of opening the door to the State's expert testifying
under Lagrone. (WRR4: 85-87; WRR7: 154-156; RR65: 154).

(258)

Trial counsel elected not to use a social historian such as
Ms. Sovine in furtherance of his punishment case. Trial
counsel believed the family witnesses were good fact
witnesses who could describe Applicant's upbringing and
schooling first-hand. (WRR7: 158; WRR8: 44). This strategic
decision fell within reasonable professional norms.

(259)

There are disadvantages to using a social historian.
Information that the social historian gathers and reviews will
become known to the State at some point. As trial counsel
explained, the State would have had access to Ms. Sovine's
notes from her interview with Applicant under Rule 705 of
the Texas Rules of Evidence. (WRR4: 102-t03). Ms. Sovine's
notes contained information that was unfavorable to the
defense, including the following: Applicant began selling
drugs at the age of sixteen; Applicant held up drug dealers at
gunpoint for money to take care of his baby; Applicant had
three children by the age of twenty-four and continued selling
drugs and robbing for a living. (WRR4: 103; WRR State's Exh.
14). There was no evidence at trial that Applicant was a drug
dealer as a teenager or adult, or that he robbed other drug
dealers; and, nothing in the record indicates the State was
aware of this information. (WRR4: 103).

(260)

Additionally, Ms. Sovine's interview notes contain her
conclusion that Applicant appeared to be suffering from
symptoms of PTSD due to his actions in this capital
murder, an opinion that would have likely alienated the jury
by suggesting Applicant was himself a victim of his own
crime. (WRR State's Exh. 14). As noted by trial counsel, while
87

some jurors could potentially have found this information to
reflect remorse, other jurors could have found this
information unfavorable.
(WRR4:
104).
Trial counsel
testified, "I don't think a juror is going to reward any
defendant for having PTSD for committing the crime that he
committed." (WRR4: 104).
(261)

Trial counsel also noted the trial team would have had to
contend with hearsay and Sixth Amendment objections from
the State if they had a social historian like Ms. Sovine
testify about what Applicant and Applicant's family
reported to her. (WRR4: 102).

(262)

Moreover, trial counsel recognized that having a social
historian testify who had interviewed Applicant would have
opened the door to the State presenting the testimony of its
expert, Dr. Reed, under Lagrone. (WRR4: 85-87, 102; WRR8:
46-47). Dr. Reed would have testified that Applicant was
malingering, or exaggerating symptoms of mental illness, and
met the diagnostic criteria for Antisocial Personality
Disorder. (WRR State's Exh. 7). Accordingly, Dr. Reed's
testimony would have been damaging to Applicant's
punishment case.

(263)

By opting not to present a social historian, trial counsel
necessarily prevented the disclosure of additional aggravating
information that the State could have used against him.

(264)

In addition to the risks it posed, Ms. Sovine's testimony would
have afforded little benefit to Applicant's punishment case.
Ms. Sovine's testimony was not particularly compelling or
credible. In short, although she did offer some explanation for
how Applicant came to be the person who committed the
capital murder of Carlos Gallardo, its mitigating value was
questionable and it posed the risk of further harm to
Applicant's defense.

(265)

Applicant presents the testimony of Richard Burr in
support of his contention that trial counsel was deficient
by failing to present a social historian at trial. (WRR9: 10688

111).
(266)

Mr. Burr testified that a number of studies have shown over
the years that jurors do not understand and believe experts,
particularly defense experts. (WRR9: 107). In his opinion, the
lesson from those studies is not to discard experts, but to
use social historians to bridge the gap between technical
opinions and language and lay understanding. (WRR9: 107).

(267)

Mr. Burr testified that professional standards reflect that a
defendant needs a blend of testimony between lay and
expert witnesses. (WRR9: 108}. Applicant's punishment
phase included a blend of lay and expert witnesses.

(268)

Mr. Burr testified that the social historian would need to
have access to the defendant, and he conceded that the social
historian's notes or records would include information that
is not helpful to the defendant's case, but he dismisses it
as "rare" that a prosecutor will not know about these
things. (WRR9: 109). He added that "very often, the bad
things are explainable by what's happened in the client's life
that he or she had no control over." (WRR9: 109).

(269)

Mr. Burr did not testify that prevailing professional norms or
the American Bar Association or Texas Bar Association
guidelines require a trial team to use a social historian in
every case; indeed, no such requirement exists. (WRR9:
106-111).

(270)

The ABA guidelines do not require that a trial team use
expert testimony to present a defendant's social history to the
jury. They provide that "[e]xpert witnesses may be useful for
this purpose and may assist the jury in understanding the
significance of the observations." See ABA Guidelines for the
Appointment and Performance of Defense Counsel in Death
Penalty Cases, Guideline 10.11, Commentary (2003). The
guidelines also state that counsel should use lay witnesses as
much as possible to provide the factual foundation for the
expert's conclusions. Id.
89

(271)

A determination whether to retain a social historian to
testify at trial is a strategy decision.

(272)

Applicant fails to demonstrate by a preponderance of the
evidence counsel was deficient for choosing not to present
a social historian such as Ms. Sovine.

(273)

Even assuming trial counsel's decision not to present a social
historian was deficient, Applicant's defense suffered no
prejudice from it.

(274)

As set out above, the testimony Ms. Sovine would have
proffered was not compelling mitigating evidence. Nothing
about Ms. Sovine's testimony is of the type and quality of
evidence that would have motivated the jury to alter its
answers to one of the special issues.

(275)

Further, her testimony created a risk of disclosure of
additional aggravating evidence that would have been
detrimental to Applicant's punishment defense.
Her
testimony further opened the door to aggravating evidence
from the State through Dr. Reed. These circumstances would
have counter balanced the benefit, if any, of Ms. Sovine's
testimony.

(276)

It is not reasonably likely the outcome of Applicant's trial
would have been different even if counsel had presented the
testimony of a social historian in the punishment phase.

(277)

There is no substantial likelihood that presenting expert
testimony from a social historian like Laura Sovine would
have resulted in a different punishment verdict. See
Harrington v. Richter, 562 U.S. at 111; Strickland, 466 U.S. at
696.

(278)

Trial counsel's decision not to present a social historian did
not prejudice Applicant's punishment case.

90

Trial Counsel Did Not Render Ineffective Assistance by
Not Presenting the Testimony of a School-to-PrisonPipeline Expert like Dr. Courtney Robinson during the
Punishment Phase of Trial
(279)

Applicant presented an affidavit and testimony of Dr.
Courtney Robinson in this writ proceeding. (WRR5: 5-70;
Application Exh. 3).

(280)

Dr. Robinson has a Ph.D. 1n Cultural Studies and
Education. (WRRS: 7). She is not a licensed psychologist.
(WRR5: 7 -8). She completed a dissertation and has
developed
expertise
in
the
school-to-prison-pipeline
phenomena, which applies to African American students.
(WRR5: 9; Application Exh. 3, at 1). She runs a non-profit
community organization devoted to combatting the schoolto-prison
pipeline
phenomena
through
prevention,
intervention, and advocacy. (WRRS: 13).

(281}

Dr. Robinson has never testified before a jury, in a death
penalty case, or even in a criminal case. (WRRS: 6, 38). She
generally works in juvenile court, and she has no knowledge
or expertise relating to the presentation of mitigation
evidence in a death penalty case. (WRR5: 38). She was
not available to testify in May 2012 in Applicant's trial,
although other school- to-prison-pipeline experts would have
been available. (WRR5: 38-39, 68).

(282)

Dr. Robinson states in her affidavit that to form her opinions
she reviewed educational, employment, medical, juvenile
criminal, and adult criminal records; witness testimony from
trial; and affidavits collected by Applicant's post-conviction
counsel. (WRRS: 6-7; Application Exh. 3, at 2). A list of
specific materials she reviewed, attached to her affidavit,
however, lists no employment or medical records.
(Application Exh. 3, at 16). Additionally, at one point in her
testimony, Dr. Robinson stated that the only records she
reviewed were school records. (WRRS: 19}. Dr. Robinson did
9!

not interview or conduct an evaluation of Applicant. (WRRS:
7, 69-70).
(283)

Dr. Robinson explained that the "school-to-prison pipeline is
a phenomena that we understand [that] through school
discipline children end up in our criminal justice system."
(WRRS: 10). She testified, "This process starts really, really
early, as early as four years old. And what we see is that ...
African-American children are disproportionately disciplined
in our schools." (WRRS: 10). This results in the children
becoming disengaged in school and entangled in the criminal
justice system. (WRR5: 11).

(284)

Dr. Robinson testified that when a student acts out, a teacher
has a choice to refer that student for services or discipline;
she stated it is more likely educators will refer an African
American student for discipline rather than services. (WRRS:
14-15).

(285)

Dr. Robinson testified research shows that, in about the third
grade, teachers begin to observe African American males as
older and more aggressive than they are. (WRRS: 20-21). Dr.
Robinson also testified African American children receive
more out-of-school suspensions than in -school suspens1ons
compared to their peers. (WRRS: 31).

(286)

Dr. Robinson testified the school district did not provide
Applicant with the services or treatment he needed at a
young age. (WRR: 26-27). She stated there were moments
Applicant was having a mental health crisis but school
personnel disciplined him instead of providing services or
treatment. (WRRS: 24). Dr. Robinson testified that if
Applicant had received the services he needed at age six,
"we wouldn't be sitting right here." (WRRS: 36).

(287)

Based on indications in Applicant's school records that he
had a desire to learn, Dr. Robinson concluded he had an
organ1c brain problem. (WRR5:28-30). Her testimony,
92

however, failed to provide adequate support or explanation
for this conclusion.
(288)

Dr. Robinson's affidavit and testimony presents two primary
theories about the school-to-prison-pipeline phenomena: that
the school-to-prison-pipeline is a "system of misidentified
[need for] special education and over use of school
discipline." (Application Exh. 3, at 6). Dr. Robinson applies
both theories to Applicant in her affidavit. She states that
"research suggests that African American students are more
often referred to special education for behavioral reasons
rather than learning disability." (Application Exh. 3, at 7).
After discussing how cultural biases affect the potential
for greater special education and disciplinary referrals for
African American boys, she states, "[Applicant's] experience
of being assigned to special education mirrors the finding
of this research," and he was assigned to a special
education program in 1991 "because of behavioral issues."
(WRRS: 39; Application Exh. 3, at 7-8). During her
testimony at the writ hearing, Dr. Robinson initially
indicated the school misidentified Applicant as a special
education student. (WRRS: 39). She could not pinpoint,
however, the source of the information in her affidavit that
Applicant was placed in special education due to behavioral
difficulties; and then, she seemed to contradict the
conclusion in her affidavit by testifying, "I'm not suggesting
he should not have been in special education." (WRRS: 4143). The school records that exist do not identify the
reason for Applicant's initial placement in special
education. (WRRS: 43-44; See WRR Applicant's Exh. 8).
Because Applicant's elementary school special education
records do not exist, Dr. Robinson should have recognized
that the reason for his· referral to special education is
unknown (with the exception of what family may recall),
rather than seemingly working to fit Applicant into one of the
theories she researches and supports. {See WRR Applicant's
Exh. 8).
93

(289)

Although Dr. Robinson asserts in her testimony and
affidavit that the educational system failed to provide
sufficient services and meet Applicant's needs, particularly
at a young age, Dr. Robinson's testimony lacks credibility
because Applicant's special education records for elementary
and middle school are not available; therefore, it is not
known what services he received. (WRR5: 19, 26-27, 44,
46-50; see WRR Applicant's Exh. 8).

(290)

Dr. Robinson expressed an opinion that school officials
improperly handled one situation where Applicant returned
to Brandenburg Middle School-a school he was not
attending at that time. (WRR5: 32-33). Dr. Robinson had not,
however, reviewed any written reports or the trial testimony
about the incident and admitted she did not know specifically
what occurred. Because substantial material existed about
the incident that she had not reviewed, this Court finds she
lacked sufficient information to form an opinion about the
incident, and finds Dr. Robinson's conclusion to be not
credible. (WRR5: 32-33, 56; RR62: 27 -38).

(291)

Dr. Robinson testified that school authorities should treat a
school fight as non-criminal behavior, but would warrant
discipline. (WRR5: 53). She testified that a six or seven year
old who brings razor blades to school and cuts his and
another child's clothing, or even cuts another child, should
receive discipline and treatment, without anyone labeling the
behavior as a criminal act. (WRR5: 54-55). She agreed that
possession of a knife with a six-inch blade by a high school
student, drug possession, and selling drugs are criminal
acts. (WRRS: 55). Accordingly, the jury could have concluded
from her testimony that at least some behaviors Applicant
engaged in as a youth warranted at least discipline in some
instances, and was properly treated as criminal in other
instances.

94

(292)

Dr. Robinson testified that research shows school
authorities disproportionately discipline African American
children and special needs children in the school system,
and she opined Applicant was over- disciplined beginning in
kindergarten; yet, she did not identify a single, specific
incident, from Applicant's history where this occurred. (WRR:
10- 12, 14, 18, 21-22, 23-24, 36-37, 54).

(293)

During her testimony, Dr. Robinson acknowledged that her
affidavit contains a conclusion about Applicant's juvenile
gang association that was identical verbatim to a statement
in Ms. Sovine's affidavit:
Th~se

gangs were not the violent adult street gangs
of popular TV culture, but were more just groups of
youth self-identifying as being in a gang to feel like
they belonged to something and were with people
that cared about them.
(WRRS: 57-58; Application Exh. 3, at 11). Dr. Robinson
reviewed Ms. Sovine's affidavit to prepare her own affidavit.
(Application Exh. 3, at 16). In response to being confronted
with the fact that she and another expert included the same
word-for-word conclusion, she commented, "We looked at it
in the same way." (WRR5: 56-58}. This highly unusual
response indicates to the Court that Dr. Robinson copied
this statement from Ms. Sovine's affidavit. This plagiaristic
element of Dr. Robinson's work greatly reduces her credibility
in this proceeding.
(294)

Dr. Robinson indicated that Applicant's drug use, including
his PCP use, was likely a way to self-medicate. (Application
Exh. 3, at 15; WRR5: 51- 52). Dr. Robinson testified that any
drug, including PCP, can be used to self- medicate. (WRRS:
52). Other experts in this proceeding reached contrary
conclusions-that PCP, unlike some drugs, is not used to
self-medicate. (WRR4: 20; WRR7: 119-120). The Court finds
Dr. Robinson's opinion regarding PCP use to be not credible.
95

(295)

Dr. Robinson's testimony and affidavit repeatedly reveal
credibility problems that would not have presented well to
a jury and would have negatively affected the overall value
of her testimony.

(296)

Counsel elected not to use a school-to-prison pipeline
expert such as Dr. Courtney Robinson in furtherance of his
punishment case. This strategic decision fell within
reasonable professional norms.

(297)

Applicant fails to rebut the presumption that his trial
counsel acted consistent with reasonable trial strategy.

(298)

The defense team believed the family witnesses were good
fact witnesses who could describe Applicant's upbringing
and schooling first-hand. (WRR7:
158). Based on
information learned from jurors in individual voir dire, the
team was wary of presenting what the jury might perceive
as excuses for Applicant having committed the offense,
including through use of an expert. (WRR7: 159). The
attorneys tailored closing arguments to these concerns.
(WRR7: 149, 159). Mr. Howard's testimony indicates the
team utilized a strategy, in part, of presenting evidence of
Roderick's upbringing
through
fact
witnesses
and
contextualizing it in closing arguments. (WRR7: 149, 158160).

(299)

The selection of experts, if any, to explain Applicant's
upbringing and history is a strategy decision.

(300)

The trial attorneys presented two experts in punishment, Dr.
Gilda Kessner and Dr. John Roache, who provided
testimony to assist the jury in understanding portions of
Applicant's life history. These experts, like Dr. Robinson, did
not interview or evaluate him.

(301)

After presenting facts of Applicant's upbringing through lay
witnesses, trial counsel then presented the testimony of
Dr. Gilda Kessner, a licensed psychologist, to point to
experiences and circumstances in Applicant's childhood that
96

placed him at risk of committing criminal or violent acts in
adulthood. (WRR4: 101-102; WRR8: 50-51; RR65: 155-162).
Dr. Kessner did not interview Applicant. (RR65: 20, 154).
She observed the testimony of Applicant's family members
in the courtroom and testified about risk factors in a child's
life and Applicant's life that correlated with the potential for
violence in the future. (RR65: 155-162). Risk factors Dr.
Kessner identified for Applicant included his ADHD, being
born to a young mother with no parenting skills, being left as
a young child to be cared for by other people, his mother not
being affectionate, lacking a secure attachment to a primary
caretaker, his biological father being incarcerated, only
meeting his biological father at ages three and 11, and his
mother's significant mental illness. (RR65: 155-162).
(302)

Trial counsel also presented the testimony of John Roache,
a Ph.D. pharmacologist, who specializes in clinical
pharmacology, performs research on the causes and
consequences of drug addiction, and has 30 years of clinical
experience working with patients. (RR65: 119-122, 140).
Dr. Roache reviewed Dallas County jail records reflecting
that in December 2008, Applicant was in the Dallas County
jail on a marijuana charge, and a jail physician diagnosed
him with Cannabis Dependence, along with an indication
to rule out Drug-induced Psychosis and Mood Disorder.
(RR65: 137-138, 142-143). Other jail records reflected
Applicant had a PCP dependence that included a history of
daily PCP use. (RR65: 138-139, 144- 145).

(303)

Dr. Roache testified at trial that early life risk factors can
lead a person to begin using drugs, and repeated use and
exposure causes the drugs to act biologically on the brain.
(RR65: 124-126). Over time, drugs take control of the reward
center of the brain (which is a motivational brain circuit)
and other rewards and pleasures in life diminish in
importance-life all becomes about drug involvement,
seeking and procuring a supply, consuming and using
drugs, and recovering from drug effects. (RR65: 124-125).
This chronic drug condition affects the frontal lobes of the
97

brain, which involve conscious decision making and
planning; ultimately, the drug user has less volitional control
and exhibits more impulsive action. (RR65: 125-126).
ADHD in early childhood involves the frontal lobes, and the
inability to control oneself, by acting impulsively without
thought and planning. (RR65: 126). Individuals already driven
by impulse and urge, who lack thought and planning, are
vulnerable to addiction, leading to a vicious cycle. (RR65:
126-127}.
(304)

Dr. Roache also testified at trial about the effects of chronic
marijuana and PCP
use. (RR65: 127 -135). PCP, or
phencyclidine, affects the neurochemical systems in the
brain that are involved in motivational circuitry. (RR65:
128). PCP has both sedative and stimulant properties,
which is very unsettling for most people. (RR65: 129-130).
It simultaneously causes a dissociative state where nothing
matters (dulling sensations and relaxing a person), while at
the same time also agitating and arousing him. (RR65: 130).
PCP additionally has a euphoria affect and creates a sense
of empowerment, invincibility, and invulnerability. (RR65:
130). PCP can create visual hallucinations and psychotic
effects, including paranoia and persecutory delusions. (RR65:
130:-133). PCP can in addition rarely cause extreme
violence. (RR65: 133-134). Some people are particularly
vulnerable to PCP-induced psychosis involving paranoia
and violence, and experts do not know why, although bipolar
mania and schizophrenia produce risks for PCP-induced
mania or psychosis. (RR65: 133-134, 144). Engaging in
extreme violence under the influence of PCP, though rare,
tends to be associated with individuals who have underlying
vulnerabilities, like bipolar and schizophrenia, in their
personal or family history. (RR65: 135, 143-144). Dr. Roache
testified that once a person is in a setting without PCP, the
person would ·become more clear, more coherent, and more in
control. (RR65: 140).

(305)

From Dr. Roache's testimony, the jury could have
concluded that: Applicant's early childhood ADHD was a
98

risk factor for drug addiction; drug addiction is based on
chemical processes in the brain, which Applicant could not
control; and Applicant's drug addiction spurred poor
decision making and impulsive acts. The jury could have
concluded Applicant's criminal behavior followed from his
drug use-to obtain funds to support a daily PCP habit-and
that the dissociative state and euphoria caused by PCP
impacted his judgment. The jury could have concluded
Applicant was vulnerable to PCP-induced psychosis and
violence, based on his own and his mother's significant
mental illness, which could explain some of the violent acts
they heard evidence about in the punishment phase.
(306)

One of the themes the defense team implemented in the
punishment phase of trial was that Applicant's most violent
behavior occurred as a result of his PCP use, and because he
was incarcerated, no longer on PCP, and would not have
access to PCP in prison, he would not be a future danger.
(WRR8: 39, 41-43).

(307)

The Court finds Dr. Roache's trial testimony encompasses
information the jury could have applied to both special
issues. (See WRR8: 42).

(308)

Applicant does not prove by a preponderance of the evidence
counsel that was deficient for choosing not to present the
testimony of a school-to-prison- pipeline expert such as Dr.
Robinson.

(309)

Even assuming counsel's decision not to present a school-toprison-pipeline expert were deficient, Applicant's defense
suffered no prejudice from it.

(31 0)

The testimony Dr. Robinson proffered was not compelling
mitigating evidence. She frequently failed to tie her primarily
didactic testimony regarding the school-to-prison-pipeline
phenomena to specific instances in Applicant's life. Some of
her testimony was contradictory and lacked support. She
appeared to have copied a conclusion from another expert's
report, which negated her credibility. Having never testified
99

in a criminal case or before a jury, she did not seem
prepared to withstand the cross- examination expected in a
contested criminal proceeding.
(311)

The extent of Applicant's criminal activity, including an
extraneous capital murder and multiple robberies of
innocent victims in their homes in the weeks prior to the
case-in-chief capital murder, constituted strong and
persuasive evidence in the punishment phase.

(312)

It is not reasonably likely the outcome of Applicant's trial

would have been different even if counsel had presented the
testimony of a school-to-prison- pipeline expert.
(313)

Dr. Robinson did not discover any significant aspect of
Applicant's school experience of which trial counsel were
unaware.

(314)

There is no substantial likelihood that presenting expert
testimony from a school-to-prison-pipeline expert like Dr.
Courtney Robinson would have resulted in a different
punishment verdict. See Harrington v. Richter, 562
U.S. at 111; Strickland, 466 U.S. at 696.

(315)

Counsel's decision not to present a school-to-prison-pipeline
expert did not prejudice Applicant's punishment case.

Trial Counsel Did Not Render Ineffective
Assistance by Not Presenting the
Testimony of a Gang Expert to
Contextualize Applicant's Gang
Membership as Mitigating
(3 16) The Court incorporates its findings of fact and
conclusions of law for Ground 2 below into its findings and
conclusions for this claim; both allege trial counsel rendered
ineffective assistance for failing to present a gang expert in
his defense.
100

(317)

Applicant has not proven counsel was deficient for not calling
a gang expert to testify at trial in order to contextualize
Applicant's gang membership as mitigating.

(318)

Applicant fails to prove that not presenting the testimony of
a gang expert to contextualize Applicant's gang membership
as mitigating prejudiced his defense.

(319)

Applicant has not proven counsel rendered ineffective
assistance by not calling a gang expert to testify in his case
in the punishment phase.

Conclusions - Ground 1
(320)

Applicant has failed to prove by a preponderance of the
evidence that: trial counsel rendered ineffective assistance by
not sufficiently investigating and presenting evidence during
the punishment phase of trial that he suffers from a fetal
alcohol spectrum disorder and was exposed to toxic levels of
lead as a child; trial counsel rendered ineffective assistance
by not presenting the testimony of a social historian or a
school-to-prison-pipeline expert during the
punishment
phase of trial; and trial counsel rendered ineffective
assistance by not presenting a gang expert to contextualize
Applicant's gang membership as mitigating.

(321)

Applicant's claims in Ground 1 are without merit. The Court
recommends that Ground 1 be denied.

GROUND
2
Gang-Related Evidence
In Ground Two, Applicant contends trial counsel rendered
ineffective assistance during the punishment phase of trial for not
offering the testimony of his own gang expert to rebut the· State's
gang expert and to rebut evidence of Applicant's association with a
West Dallas street gang. (Application at 70-75).

101

The Court incorporates into the below findings on Ground 2
its findings of fact and conclusions of law related to Applicant's
allegations in Ground 1 that trial counsel rendered ineffective
assistance by not presenting the testimony of a gang expert to
contextualize Applicant's gang membership as mitigating.
(322)

Prior to trial, Applicant requested a Rule 705 hearing to
challenge the admissibility of the expert testimony of
Detective Barrett Nelson, a Dallas police officer who was
previously assigned to the Dallas Gang Unit. (WRR8: 18-1 9;
RR62: 43). The Court conducted the hearing on May 11,
2012, pursuant to Menno v. State, 970 S.W.2d 549 (Tex.
Crim. App. 1998). (RR61: 5-40). Applicant's counsel
challenged the admissibility of Detective Nelson's testimony
because there was no evidence of a direct connection
between Applicant and any actions by the Fish Trap Bloods
(or any other Bloods). (RR61: 34). Trial counsel urged the
evidence violated Applicanfs rights under the First and
Fourteenth Amendments, was inadmissible as improper
character evidence, was not relevant, and was more
prejudicial than probative under Texas Rules of Evidence
401, 402, and 403. (RR61: 34-35). The Court overruled
Applicant's objections. (RR61: 35-36).

(323)

An investigator with the Dallas County District Attorney's
office took photos of Applicant's tattoos approximately
three weeks prior to trial. (WRR8: 18; RR62: 40-42; SE 150163).

(324)

Detective Nelson testified that Applicant's tattoos indicate he
is a member of the Fish Trap Bloods, a criminal street gang
in Dallas. (RR62: 51-53, 64;SE 159-160). This street gang is
named after the former Fish Trap projects on Fish Trap
Street in West Dallas. (RR62: 50-51).

(325)

Particularly, Applicant has tattoos of "Fish Trap," "West,"
"212," and "3500." (RR62: 50-52; SE 158-159). Barrett
testified the number 212 is associated with West Dallas,
which has the zip code 75212, and is associated with the Fish
102

Trap Bloods. (RR62: 51). The number 3500 represents the
3500 block in front of the former Fish Trap projects. (RR62:
52; SE 162). Barrett testified Applicant's star tattoos also
mean he is associated with the Bloods. (RR62: 51).
(326)

Applicant also has tattoos of "STR8" "HOOD," meaning
"straight hood," and "HUSTLA." (RR62: 46-49; SE 152-156).
Barrett testified that "straight hood'' means Applicant comes
from the hood, or street, and will handle his business in a
hood-type manner.
(RR62: 46-47). Barrett testified
"HUSTLA," means "hustler" and indicates Applicant is
hustling for his money-in life and to get ahead-and
includes selling narcotics. (RR62: 48-49).

(327)

Applicant's left forearm also has a tattoo of "Piru," which is the
street in Los Angeles where the Bloods were founded. (RR62:
53; SE 163). According to Detective Barrett, the tattoo of
"CK," means "Crip killer," again indicating Applicant is a
Blood member; in West Dallas, the rival gang to the Fish Trap
Bloods are the Rupert Circle Crips. (RR62: 53).

(328)

On cross-examination, Nelson explained that the Fish Trap
Bloods are not an organized gang with a leader, an
organizational hierarchy, or a meeting place. (RR62: 65-68).
His testimony included that the Fish Trap Bloods do not
engage in criminal activity as a group. (RR62: 65-66). He
indicated Applicant is not identified as a gang member in the
DPD Gang Unit's files. (RR62: 68-69). Mr. Parks suggested
during cross-examination that the "CK" tattoo Detective
Nelson identified was actually "CO." (RR62:68). Regardless,
Detective Barrett testified there is no evidence Applicant had
ever killed a Crip. (RR62: 68).

(329)

Mr. Parks testified at the writ hearing that he believes the
defense got what they needed from Detective Nelson on
cross-examination. (WRR8: 25). When the witness left the
stand, the jury knew Applicant was in a juvenile gang that
was generally identified by the neighborhood where they
lived- and that neighborhood no longer exists because the
103

Fish Trap projects had been torn down. (WRR8: 25).
Applicant's tattoos also indicate the gang was associated with
a particular neighborhood. (WRR8: 25). Mr. Parks recalled
that Detective Nelson's testimony indicated he knew of no
crime Applicant committed while he was in the juvenile
gang; and, importantly, Detective Nelson testified Applicant's
name was not among those identified by the Dallas Police
Department as a gang member. (WRRB: 26). Prior to the
testimony, trial counsel believed that if Detective Nelson
testified truthfully, they would get all of this information from
him-and they did. (WRRB: 26).
(330)

Trial counsel sought and the Court granted a limiting
instruction on Detective Nelson's testimony and the gangrelated evidence. (WRR8: 19- 20; RR62: 56-57, 60-62, 7071). The Court gave the limiting instruction orally at the
conclusion of Detective Nelson's testimony and included a
written instruction in the punishment charge. (WRR8: 20;
RR61: 70-71; CR: 682).

(331)

Applicant reported to his expert, Dr. McGarrahan, that he
began his involvement in a gang at around age 13 or 14 and
left the gang at age 19 or 20. (WRR7: 126).

(332)

Applicant alleges a defense gang expert could have
informed the jurors Applicant was only a former member of
a juvenile gang and that certain sociological, environmental,
and developmental factors led to Applicant's gang affiliation.
(Application, at 70).

(333)

With his application, Applicant filed the affidavit of Charles
Rotramel in support of his claim that trial counsel should
have presented a gang expert to turn the aggravating aspect
of Applicant's gang membership into mitigating evidence
and to challenge the ·meaning of Applicant's gang
affiliation. (Application, at 44, 56-58, 68-69, 70-75;
Application Exh. 4).

104

(334)

Charles Rotramel did not testify at the writ hearing. (WRR2:
116). The State moved to strike Mr. Rotramel's affidavit on
the basis he was not appearing to testify and Applicant was
replacing him with a different gang expert. (WRR2: 116;
WRR6: 7-8; WRR7: 6-9). The Court denied the State's
request to. strike the affidavit but ruled the Court would not
consider it for any purpose except to the extent another expert
in the proceeding relied upon it. (WRR2: 116-118; WRR7: 69).

(335)

Dr. Robinson testified briefly during her direct-examination
in the writ hearing regarding gang issues. (WRR 5: 34-36).
She testified that her work with school systems intersects
with the study of gang behavior and gang membership.
(WRR 5: 34). She opined that the schools assign children with
a gang affiliation without the child actually participating in
an actual gang; she takes a role in educating teachers about
this phenomena by advocating that children who have
known each other their whole lives, who hang out together,
and who may get in fights together, are not a gang. (WRR 5:
34- 36). She explained that when the school system attaches
a gang label to a referral, this in turn affects the child's
treatment in the court system. (WRR 5: 34-35).

(336)

Applicant has not alleged in this proceeding that the schools
identified him as a gang member. There is no evidence his
schools identified him as a gang member. Dr. Robinson did
not testify Applicant's schools misidentified him as a gang
member-merely
that
the
phenomena
exists.
Dr.
Robinson's testimony regarding school systems who
misidentify students as gang members is irrelevant to this
proceeding.

(337)

Dr. Robinson recalled reading in the materials she reviewed in
this case that Applicant's gang membership was "just a group
of people that he connected with and cared about." (WRR 5:
36). She testified she did not read anything about true gang
activity. (WRR 5: 36).
105

(338)

When asked about Applicant's teenage gang membership,
Dr. Robinson's testimony included "I do remember reading
about it . . . " and "this other person [referring to an expert
in this proceeding} suggested that the gang involvement was
not unusual for youth in the neighborhoods where
[Applicant] grew up." (WRR5: 57). Based on her testimony
and affidavit, Dr. Robinson appears to have adopted her
opinions specific to Applicant and gang issues entirely from
Ms. Sovine's or Mr. Rotramel's work. (WRR5: 56-58;
Application Exh. 3, at 11; See Application Exh. 4-5).

(339)

Dr. Robinson did not review Dr. Hagedorn's affidavit. Dr.
Hagedorn completed his affidavit after Dr. Robinson testified.

(340)

The Court finds Dr. Robinson's testimony regarding gang
issues in its entirety to be irrelevant or not credible. Although
her research on the school- to-prison pipeline phenomena has
centered on the Dallas area, she does not have any
specialized knowledge regarding Dallas juvenile street gangs
or the Fish Trap Blo~ds street gang.

(341)

Ms. Sovine's testimony, too, indicates she primarily received
her information about Applicant's gang association from
her review of Mr. Rotramel's affidavit. (WRR7: 30). Describing
the "information in the record related to [Applicant's]
involvement in any sort of gang activity," she testified:
There was like a youth gang that he was apparently
jumped into that was - - my understanding was
sort of a neighborhood gang of friends, like sort of
identified as being from a particular area. That was
kind of a way that they grouped up and the way
that they found protection and kind of alliance with
each other.
(WRR7: 30).

(342)

Ms. Sovine did not review Dr. Hagedorn's affidavit.
106

(343)

Ms. Sovine admitted she has no familiarity with the Fish
Trap Bloods. (WRR7: 45).

(344)

Applicant told Ms. Sovine during her interview with him
that he was initiated into the gang-by being "jumped in"at age 8. (WRR7: 45; RR State's Exh. 14).

(345)

Ms. Sovine's limited testimony and knowledge about
Applicant's gang membership and the Fish Trap Bloods
does not support Applicant's contention his trial counsel
were ineffective for failing to present a gang expert to
contextualize his gang membership as mitigating.

(346)

At the writ hearing, Mr. Burr explained his opinions about
prevailing professional norms for investigating gang-related
evidence. (WRR9: 112- 114). Applicant has no allegation in
his writ, however, that trial counsel was ineffective for failing
to conduct an investigation related to gang evidence.

(347)

Mr. Burr testified that, if a defendant acquires gang tattoos
after an arrest while he is awaiting trial, it could mean he
was not involved or was only minimally involved in gang
activity prior to his arrest and that his gang activity likely
had nothing to do with his offense. (WRR9: 114-115). Mr.
Burr opined that if a defendant acquires gang tattoos while
he is in jail, it may reflect he is a vulnerable inmate who is
trying to protect himself by aligning with a gang, because he
. is scared. (WRR9: 115).

(348)

Based on all of the gang-related evidence in this proceeding,
this Court does not find Mr. Burr's opinions regarding the
gang issues to be persuasive.

(349)

On September 19, 2019, Applicant filed the affidavit of Dr.
John M. Hagedorn, along with Exhibits A through 0
attached to the affidavit, in support of his claims that trial
counsel should have used a gang expert to rebut the State's
gang expert and to contextualize Applicant's gang
membership as mitigating.
107

(350)

Dr. Hagedorn explains in his affidavit that society and the
criminal justice system have a prejudice against gang
association which is often rooted in misleading stereotypes.
(Hagedorn Affidavit, at 2-5). He further exp~ains that
juvenile gang membership is transitory-or of a short
duration-for most youth, and is not a permanent identity.
(Hagedorn Affidavit, at 5-6). Further, he opined youth gang
membership is not a predictor of long-term gang affiliation.
(Hagedorn Affidavit, at 7).

(351)

Dr. Hagedorn indicated in his affidavit that a gang is "a unit
of individuals with traditions, solidarity, and attachment to
local territory," and membership is "a means for an
individual to assert his or her identity as a member of a
neighborhood community'' and "a source of self-identity and
stability," but is not a "reliable indicator of the type of adult a
young person will become." (Hagedorn Affidavit, at 5-7).

(352)

Dr. Hagedorn's opinion that youth gang membership does
not reliably indicate the type of adult a person will become
stands in contrast to the facts here-that Applicant was a
member of a juvenile gang and, regardless of whether that
gang membership extended into his adulthood, Applicant
committed multiple violent robberies, shootings, and
murders as an adult, and then exhibited a demeanor and
attitude reflecting little or no remorse or empathy for his
victims.

(353)

Dr. Hagedorn did not conduct an interview of Applicant. He
did not meet with him and ask him about his gang
affiliation. Dr. Hagedorn's affidavit does not reflect he has
specialized knowledge of Dallas juvenile street gangs or
conducted any research on the Fish Trap Bloods. In response
to Dr. Hagedorn's Affidavit, the State filed the Affidavit of
Assistant District Attorney Justin Lord. Mr. Lord was the
attorney at trial who handled the direct examination of
Detective Nelson.

108

(354)

Mr. Lord stated in his affidavit that based on his research
relating to Dr. Hagedorn and his work, if Applicant had
called Dr. Hagedorn at trial, Mr. Lord's cross-examination
would have included the following topics: whether Dr.
Hagedorn was aware that after Applicant committed this
capital murder on March 17, 2009, an officer in the
emergency room with him noticed he was wearing one red
glove (RR59: 150-153; SE 115), whether wearing red gloves
might indicate a continuing desire to be associated with the
Bloods, and whether this evidence might influence Dr.
Hagedorn's opinion about Applicant's gang affiliation at the
time of the offense; whether Dr. Hagedorn was aware that
Applicant committed an extraneous aggravated robbery of
Luis Gonzalez on February 15, 2009 and that Applicant and
a second robber each wore one red glove and one white glove
during that offense (RR62: 230, 243; SE 176); whether-even
if it were true that Applicant only acquired his tattoos while
awaiting trial-this might indicate Applicant was either a
gang member at the time of trial or had a continuing desire
to be associated with a gang; that Dr. Hagedorn's gang
research primarily has been conducted in Chicago and
Milwaukee; that Dr. Hagedom has not conducted research
or published materials relating to Dallas area gangs or the
Fish Trap Bloods; that the Bloods, whether referring to a
juvenile or adult gang, is one of the two most well~known
gangs; and that juvenile street gang members-not just adult
gang members-commit crimes and engage in violence,
including robbery, murder, sex assault, and selling drugs.
(Lord Affidavit, at 3-4).

(355)

By examining two photos and an "AIS report" listing
identifying information, Dr. Hagedorn concluded Applicant
appeared not to have his gang-related tattoos when he
committed the capital murder of Carlos Gallardo. (Hagedorn
Affidavit, at 9-10, 14; Exh. B, C). On this basis, he alleges
Detective Nelson's testimony misled the jury about
Applicant's status as a gang member. (Hagedorn Affidavit, at
10).
109

(356)

Dr. Hagedorn attaches two photographs to his affidavit, one
depicting Applicant in a hospital bed and the other of
Applicant holding a child; both show an exposed left forearm.
(Hagedorn Affidavit, at 9). Dr. Hagedorn also relies on a photo
of a Dallas County Adult Information System profile for
Applicant
with
the
"scarsfmarks/tattoos/piercings/
amputations" section of the form left blank. (Hagedorn
Affidavit, at 9).

(357)

The Court finds it is difficult to ascertain, due to the quality
of the photos, what tattoos Applicant had when the photos
were taken. Some writing on his left forearm is evident in at
least one photo-but is unclear what it is. The date of the
photo of Applicant holding the child is unknown.

(358)

Regardless, there is evidence contrary to Dr. Hagedorn's
theory that Applicant had no tattoos associated with the Fish
Trap Bloods at the time of this capital murder and that he
only acquired his gang-related tattoos while incarcerated and
awaiting trial.

(359)

Mr. Lord attached various records to his affidavit that
refute a theory Applicant acquired his tattoos while
incarcerated prior to trial. If Applicant had proffered this
theory at trial, the State could have offered the following
evidence in rebuttal:
A
Garland
Police
Department
Incident/Investigation Report for the May 9, 2003
burglary of a building which indicates Applicant
had the tattoo "Dallas" on his right forearm, "Piru,
tx" on his right upper arm, "Texas" and "3500"
on his left forearm, and "West Dallas" on his left
upper arm.
A Garland Police Department Arrest Report for the
December 23, 2003 arrest of Applicant for the
offense of burglary of a building and unauthorized
use of a motor vehicle which indicates Applicant
had the tattoo "Dallas" on his right forearm, and
110

"Piru, tx" on his right upper arm.
A DPD Arrest Report forthe April 19, 2007 arrest of
Applicant for the offense of unauthorized use of a
motor vehicle which indicates Applicant had the
tattoo of "West Dallas" on his left arm.
A DPD Arrest Report for the December 27, 2008
arrest of Applicant for the offense of possession
of marijuana which indicates Applicant had
tattoos on both arms.
A Dallas Adult Information System Identification
Information page printed April 8, 2009 which
indicates Applicant had tattoos on his right
shoulder, right forearm, left shoulder, and left
forearm.
A Justice Exchange Person Summary report
printed April 8, 2009 which indicates Applicant
had tattoos on his upper left arm, left forearm,
right forearm, and right shoulder.
(360)

The Court finds this evidence indicates Applicant had some
tattoos related to a gang affiliation (primarily "Piru" and
"3500") as early as 2003.

(361)

The Court finds it is unclear when Applicant acquired many
of the tattoos that were the subject of Detective Nelson's
testimony.

(362)

Even if the jury believed Applicant acquired some of his gangrelated tattoos while awaiting trial, evidence he had at least
some other gang-related tattoos, including "Piru," "3500,"
and "West Dallas" as early as 2003, negates Hagedorn's
theory.

(363)

Dr. Hagedorn reviewed over 500 pages of Applicant's Dallas
County Juvenile Department criminal and probation
records and concluded the records repeatedly reflect either
Ill

that Applicant was not a gang member or that Applicant and
his parents did not report any gang affiliation for Applicant,
with a single exception of one indication of gang affiliation
(specifically that Applicant hung out with the Fish Trap
Bloods). (Hagedorn Affidavit, at 10-13).
(364)

Dr. Hagedorn reviewed Applicant's criminal records from the
Dallas Police Department (DPD) (which Applicant's writ
counsel obtained by subpoena during this writ proceeding)
and noted those records do not mention any involvement in
a gang or reflect that Applicant's offenses were gang-related.
(Hagedorn Affidavit, at 13).

(365)

Dr. Hagedorn · concluded the Dallas County Juvenile
Department and DPD records do not support a conclusion
Applicant was a gang member at the time of the capital
murder of Carlos Gallardo. (Hagedorn Affidavit, at 14).

(366)

Dr. Hagedorn concluded that, if Applicant had an association
with a gang as a youth (as he reported one time in the
juvenile records in 2000), that association was likely a loose
and transitory affiliation. (Hagedorn Mfidavit, at 14).

(367)

Based on the records, it appears that to form his opinions
Dr. Hagedorn reviewed all DPD offense reports associated
with Applicant's name. Although the jury heard evidence in
the punishment phase about a number of extraneous
offenses, there was no evidence at trial about the following
four offenses that were included in those DPD records: (1)
04/25/2006 Assault of Pamela Reese, the mother of
Applicant's children; (2) 05/25/2007 Aggravated Assault
(shooting) of Reginald Stanley; (3) 08/18/2008 Aggravated
Assault (shooting) of Rodrigo Martinez; and (4) 03/14/2009
Aggravated Robbery of Wilbur Morgan.

(368)

An expert's review of information to form an opinion opens
the door to that information being admitted into evidence
before the jury. Evidence Applicant was involved in four
additional, alleged extraneous offenses would have been
112

detrimental to Applicant's case.
(369)

Dr. Hagedorn noted that school and juvenile records
regularly describe Applicant as a loner, which is uncommon
for a gang-involved youth. (Hagedorn Affidavit, at 13-14). He
expressed an opinion Applicant must not have been "an
involved gang member" because his juvenile and school
records reflect he mostly kept to himself, had few friends,
and had significant difficulties in interpersonal relationships.
(Hagedorn Mfidavit, at 14-15).

(370)

Evidence that Applicant participated in numerous cliques
with other Dallas County jail inmates, however, strongly
refutes evidence Applicant would not participate in a gang
because he was a loner. Also, Dr. Hagedorn's hypothesis is
strongly refuted by evidence admitted at trial related to the
Luis Gonzalez extraneous robbery and Roberto ·Ramos
capital murder, which Applicant committed with other
assailants. If Dr. Hagedorn or a similar expert had
expressed an opinion to the jury that Applicant was likely not
an involved gang member because he had a tendency to be a
loner, the State likely would have refuted that opinion in
closing arguments with these obvious, contradictory facts.

(371)

Dr. Hagedorn believes Applicant may have acquired his gangrelated tattoos while incarcerated and awaiting trial.
(Hagedorn Affidavit, at 14-15).

(372)

Dr. Hagedorn concluded that if Applicant acquired his gangrelated tattoos while awaiting trial, "it is highly likely that he
did so as a matter of survival in prison." (Although Dr.
Hagedorn refers to "prison," Applicant was detained in the
Dallas County jail, not prison, prior to trial.) Dr. Hagedorn
continues, "This would be consistent with [gang] research
that inmates join gangs during their incarceration as a
means of protection and security 1n a dangerous
environment." (Hagedorn Affidavit, at 15).

113

(373)

An expert's opinion that Applicant acquired his gang-related
tattoos while awaiting trial would have done far more harm
than good to his punishment case. (See Hagedorn Affidavit, at
9-10, 13-15).

(374)

Mr. Parks testified the trial team would not have proffered
a theory or evidence that Applicant acquired his gangrelated tattoos after the offense and while he was
incarcerated in the Dallas County jail awaiting trial
because this theory would "torpedo our suggestion to the
jury at least that his gang days were long over after he left
the juvenile gang." (WRR8: 35). Applicant's brother had
testified Applicant entered the gang at age ten. Evidence
Applicant acquired gang tattoos shortly before trial would
convey to the jury that Applicant was in a gang from age ten
until the time of trial. (See WRR8: 35).

(375)

Evidence Applicant acquired gang-related tattoos while
incarcerated prior to trial could have led the jury to believe
Applicant was a current, active gang member.

(376)

If trial counsel had presented a theory that Applicant
acquired gang-related tattoos while awaiting trial, the jury
could have concluded this was clear evidence of Applicant's
continuing intent to be associated with a gang,· which
supported a "yes" answer to the future-danger special issue.

(377)

Dr. Hagedorn's suggestion Applicant may have acquired his
tattoos as a means of self-protection while awaiting trial
tends to portray Applicant as a person who was at risk of
being victimized while in jail. This would have invited the
State to offer additional, more detailed rebuttal evidence of
Applicant's bad acts in the Dallas County jail and would
have been incredibly harmful to Applicant's case.

(378)

At trial,
Sergeant
Sheriff's
Applicant

the State introduced rebuttal evidence through
Curfey Henderson, commander of the Dallas
Office's Special Response Team division, that
had disciplinary problems with fellow inmates in
114

the Dallas County jail due to "running" his tank, bullying
other inmates, and attempting to use other inmates'
commissary accounts. (RR65: 268, 270-278, 282-283). These
incidents resulted in Applicant repeatedly being moved to
new housing locations within the jail. (RR65: 270-274, 282283). Sergeant Henderson further testified Applicant is very
clever and used his size to intimidate other inmates. (RR65:
275-276). He explained that Applicant formed cliques with
other inmates in order to "run" a tank. (RR65: 276).
(379)

Sergeant Henderson's testimony conflicts directly with Dr.
Hagedorn's theory that Applicant needed to acquire tattoos
in order to protect himself while incarcerated.

(380)

The State utilized only· two Sheriff's Office employees to
testify generally about Applicant's inappropriate behavior
while in the Dallas County jail. Mr. Lord attached a number
of jail incident reports to his Affidavit containing details of
numerous incidents involving Applicant in the jail. (Lord
Affidavit, Exh. C). If Dr. Hagedorn or a similar witness had
testified in Applicant's punishment case, the State likely
would have called additional rebuttal witnesses Uailers
and/ or inmates) who were directly involved and would have
testified about the following incidents in which Applicant
was often reported to be a bully and aggressor:
On October 14, 2009, an inmate in Tank 4E04 gave
a detention officer a kite [i.e. note] stating that
Applicant was causing problems in the tank. As a
result, jail authorities transferred Applicant to
another housing location.
On February 20, 2010, an inmate rep<?rted
Applicant and two other inmates were causing
problems by harassing him and others. The inmate
reported Applicant and his two cohorts threatened
the inmates who had television privileges. Additional
inmates confirmed Applicant and two others were
bullying the occupants of the tank. Applicant and
11

s

the two inmates were transferred to new housing
locations as a result.
On March 25, 2010, an inmate in Tank 7W09
reported that Applicant and another inmate had
stolen his commissary. Officers investigated.
Several other inmates confirmed the first inmate's
report. Officers learned that inmates in Tank 7W 10
had been picking the lock and entering Tank
7W09. Applicant and the other inmate were
transferred to a new housing location.
On April 27, 2010, three inmates including
Applicant were observed to be boxing (horse-playing)
in the dayroom. Officers had previously addressed
the inmates' disruptive behavior in the tank and
toward officers. Officers were aware the three
inmates had formed a clique and were running the
tank. Officers moved Applicant and the other two
inmates to new housing locations and instituted
procedures to keep Applicant and the two inmates
separate from one another in the future.
On June 21, 2010, an inmate in Tank 6W07 gave a
kite to an officer with a written note indicating
Applicant was causing problems in the tank with
other inmates and taking their food. Several
inmates had signed the kite. Applicant was
transferred to administrative custody.
On January 11, 20 11, an inmate reported he was
being threatened by Applicant and another inmate in
Tank 2W02. Officers spoke to other inmates in the
tank and learned Applicant was "trying to control the
tank." Officers transferred Applicant to another
location and instituted procedures to keep Applicant
separate in the future from all other inmates housed
in that tank.
116

On March 21, 2011, several inmates in Tank
5W06 reported Applicant was bullying them and
they were afraid of him. They reported that several of
them had to purchase commissary items for him the
prior week; he threatened that if they told anyone he
would "handle them." Officers confirmed the report
with several individuals. As a result, officers
transferred Applicant to another housing location.
On April 6, 20 11, an inmate reported that he was
fearful of Applicant and two other inmates in Tank
4 E08 who were threatening him if he did not buy
them commissary items. Applicant and the two other
inmates were transferred for running a clique in the
tank, and the reporting inmate was separated for his
safety.
On May 2, 2011, ajail employee observed Applicant
collecting another inmate's commissary items.
Applicant reported that he was on commissary
restriction but that a family member had
contributed money to the other inmate's account.
As a result, Applicant was transferred to
administrative custody.
On August 31, 2011, officers observed two inmates
in a verbal confrontation. After investigation,
officers concluded Applicant was "trying to run the
tank." Applicant was transferred in order to reduce
problems in the tank.
On September 30, 20 11, several inmates reported
Applicant was causing problems in Tank 3E06 by
"running" the television. Applicant was transferred
to another location.
On April 14, 2012, an inmate in Tank SWOS told an
officer the inmates in the tank were "living in fear of'
Applicant. The inmate gave the officer a kite
explaining that Applicant was using his size to get
117

what he wanted, had been very physically and
verbally aggressive, and controlled the television.
Upon investigation, another inmate in the same
tank indicated Applicant caused racial tension, the
other inmates were "fed up" with Applicant, and
physical altercations might result. Officers moved
Applicant to a new housing location as a result.
(Lord Affidavit, Exhibit C).
(381)

Additional evidence that Applicant was known for forming
cliques in the Dallas County jail, running his tank, bullying
other inmates, and using other inmates' commissary funds,
would have demonstrated to the jury Applicant would be an
aggressor in prison rather than a victim.

(382)

There is no evidence in this writ proceeding consistent with
Dr. Hagedorn's theory that Applicant may have been a
vulnerable inmate. The evidence, in fact, reflected quite the
opposite.

(383)

An expert theory that is so contrary to evidence already
before the jury and which would invite additional evidence
harmful to Applicant would not have been favorable to
Applicant in any way and would have invited distrust of
Applicant's case by the jury.

(384)

Dr. Hagedorn opines in his affidavit that Detective
Nelson's testimony misled the jury due to "the fact that the
tattoos at issue do not appear to accurately reflect Mr.
Harris's gang affiliation at the time of the crime." (Hagedorn
Affidavit, at 10).

(385)

Applicant's gang affiliation at the time of the offense was not a
primary issue at trial. There were no specific allegations that
the case-in-chief robbery and capital murder was a gangmotivated offense. The victims had no association with
gangs. The evidence indicated Applicant committed
I 18

robberies as his way of making a living, as opposed to
furthering some gang agenda.
(386)

Although it was not the focus of the State's case, there was
some collateral evidence at trial Applicant had a continuing
association with a gang as an adult-by wearing a red glove
during the capital murder, by his handwritten drawings made
during the voir dire proceedings (SX 164), by the fact he
carried red items at the time of the offense (red cell phone and
red key chain) (RR59: 154-155 SX 116), and by wearing one
red glove and one white glove during an extraneous robbery
shortly before the capital murder. Ramon Maddox, Sr., also
seemed to indicate he heard Applicant was in the Bloods,
although the timing of that association was unclear.

(387)

Having a testifying expert review all of Applicant's juvenile
and adult criminal records and rely on them to form an
opinion would have opened the door for all of this information
to be admitted into evidence. (See WRR8: 33). No competent
counsel would purposefully undertake such a strategy.
Particularly, the adult criminal records included a case in
which Applicant was a suspect in a non-charged aggravated
assault for the May 25, 2007 shooting of Reginald Stanley,
who suffered four gunshot wounds and was rendered a
paraplegic. (Lord Affidavit, Exh. A).1o

(388)

10

Immediately prior to trial, the State gave Applicant notice
of intent to introduce
this
aggravated
assault,
or
attempted capital murder, as an extraneous offense in the
punishment phase. (RR54: 4-16). Applicant's trial team
objected to insufficient notice and succeeded in keeping this
case out of evidence. The Court warned Applicant, however,
that if the defense team opened the door, the case could

Mr. Lord stated in a footnote in his affidavit that the State provided the offense report to
Applicant's trial counsel prior to trial. (Lord Affidavit, at 6). (RR54: 7-8, 12-14). In this writ
proceeding, Applicant originally filed un-redacted DPD records with Dr. Hagedorn's affidavit.
(WRR8: 5-9). The State asked the Court to require Applicant to redact confidential information in
the records; Applicant agreed. (WRR8: 5-9). In the amended filing of Dr. Hagedorn's affidavit,
Applicant redacted the report for the May 25, 2007 shooting of Reginald Stanley in its entirety
119

come in as rebuttal evidence. (RR54: 16). Having an expert
testify who reviewed those records would have been
directly contrary to the Court's warning and to the trial team's
efforts to keep that information from being admitted into
evidence.
(389)

Evidence of this May 2007 shooting would have provided
evidence at trial that Applicant had shot and nearly killed a
man almost two years prior to the February/March 2009
robberies and shootings, thus indicating Applicant's history
of extreme violence was quite lengthy.

(390)

Placing documentation of Applicant's entire juvenile and
adult criminal history before the jury, including every Dallas
Police Department offense and prosecution report associated
with Applicant's name, would have been profoundly
detrimental to his case.

(391)

The defense team's credibility with the jury would have been
substantially diminished if they called a gang-expert to testify
to an opinion that Applicant was not in fact a gang member
because DPD records did not mention a gang association and
juvenile records only mentioned a gang association once.

(392)

Dr. Hagedorn's proffered testimony, as set out in his
affidavit, would not have provided effective rebuttal at trial
because it does nothing to demonstrate that Detective
Nelson's testimony-that Applicant had tattoos reflecting a
gang-association-was in fact wrong.

(393)

Applicant admitted to his trial team, to his own experts at
trial and in this writ, and to the State's expert that he was a
member of the Fish Trap Bloods. (WRR8: 22, 32}.

(394)

Applicant's brother, Ramon Maddox, Jr. testified at trial
Applicant joined a gang when he was about 10 years old.
(WRR8: 23-24; RR64: 267-268, 276- 277). The jury also
heard testimony from Applicant's step-father, Ramon
Maddox, Sr., during the State's cross-examination, that Mr.
Maddox heard Applicant was in a gang when Applicant lived
120

in the Highland Hills area; it was unclear when this was.
(RR65: 78-79).

(395)

There was no valid evidence Applicant was not 1n a gang.
(WRR8: 22, 24).

(396)

Trial counsel could not have proffered Dr. Hagedorn's
testimony at trial that he reviewed a discrete set of records
and concluded there was no evidence Applicant was a gang
member. This testimony would have been highly improper:
trial counsel could not support false testimony. Also, such
expert testimony would have been contrary on its face to
Applicant's own brother's testimony at trial acknowledging
Applicant's gang membership.

(397)

Dr. Hagedorn authored an essay titled "Gang Stereotypes in
Court," in the January 2013 edition of the "Chronicle,"
which is published by the International Association of
Youth and Family Judges and Magistrates. (Lord Affidavit,
Exh. D). In this essay, Dr. Hagedorn ~dmits that gangs do
real harm, that research shows gang members are typically
more violent and criminal than non-gang members, "and this
should be kept in mind by judges and juries." (Lord Affidavit,
Exh. D}.

(398)

The Court finds thact, if asked, Dr. Hagedorn would have
likely admitted in his testimony that some gangs do real
harm in society and some gang members are typically more
violent and criminal than non-gang members.

(399)

Dr. Hagedorn has testified in court in other cases that gang
members often do not admit their membership, gang members
can be violent and dangerous, gang members commit crimes
or violent acts for personal reasons at times and to help the
gang at other times, gangs vary from location to location, and
to know how a gang operates in an area one must
conduct research by speaking with law enforcement, gang
members, and local schools. (Lord Affidavit, at 16).
121

(400)

Mr. Parks indicated he believes a defense team would have a
"steep hill to climb" to flip gang evidence into mitigating
evidence, and such an attempt might not be effective with
some jurors. (WRR8: 37-38). In his opinion based on trying
cases in Dallas County for many years, Mr. Parks believes
some jurors would reject a theory that gang involvement
could be mitigating. (WRR8: 38).

(401)

Even juvenile street gangs, like the Fish Trap Bloods, commit
crimes, and a defense gang expert would be expected to
make this admission if asked. (WRR8: 21-22, 24).

(402)

If the defense team had brought their own gang expert to trial,
the State may have chosen to place greater emphasis on
evidence of Applicant's possible ongoing participation in a
gang. (WRR8: 29).

(403)

If Dr. Hagedorn or a similar gang expert had testified in
Applicant's punishment case that his DPD and Dallas
County Juvenile Department records do not support a
conclusion he was a gang member (Hagedorn Affidavit, at
14), the State could have pointed out in its closing
arguments that this opinion is illogical in the face of
testimony from Applicant's own brother that Applicant was a
member of a gang. (RR64: 267-268, 276-277).

(404)

Mr. Parks testified he believes there is a risk that calling a
defense gang expert would serve to emphasize the gang
evidence before the jury. (WRR8: 24). Mr. Parks believes it
made no sense to drag out the testimony about gang
membership, particularly because Applicant was no longer a
juvenile. (WRR8: 24). Mr. Parks view was to not keep
hammering on the issue, rather "[g]et it out the door and
move on." (WRR8: 27).

(405)

Gang crime was not the focus of this case. The case-in-chief
murder did not involve gang-on-gang violence or any direct
evidence of gang involvement. (WRR8: 27). There was
evidence at trial that Applicant was stealing for personal
122

gain, to s~pport himself and his family. (WRR8: 27 -28). The
State did not allege at trial Applicant's robberies were
committed with fellow gang members. Applicant's gang
affiliation was a collateral issue in the case. There was some
innuendo in the record, however, that Applicant had an
ongoing affiliation with the gang-based on his tattoos, that
he wore one white glove and one red glove (representing the
Bloods) when he committed robberies, that he carried a red
cell phone, and that he made some drawings containing gang
symbols on his legal pad during voir dire. (WRR8: 28-29). The
evidence Applicant was not on the Dallas· gang roster stood in
contrast to this evidence. (WRR8: 28-29).
(406)

Dr. Hagedorn's testimony, as presented in his affidavit,
presents two contradictory, irreconcilable opinions: first that
Applicant's gang affiliation, if any, was a loose and transitory
affiliation at a young age (based on a single report in the
juvenile records), but second that Applicant only recently
acquired his gang tattoos in the Dallas County jail, indicating
a recent gang- affiliation. (See Hagedorn Mfidavit, at 14).

(407)

Counsel's decision to challenge the State's gang expert in a
702 hearing, to cross-examine the State's gang expert, and
not to elaborate and emphasize the gang evidence through
an additional expert fell within reasonable professional
norms.

(408)

Based on all of the Court's findings related to Ground 2,
the lack of presentation of a defense gang expert like Dr.
Hagedorn was not deficient and, alternatively, did not
prejudice Applicant's defense in the punishment phase.

(409)

"Strickland does not enact Newton's third law for the

presentation of evidence, requiring for every prosecution
expert an equal and opposite expert from the defense."
Harrington v. Richter, 562 U.S. 86, 111 (2011).
(410)

Applicant suffered no prejudice when trial counsel did not
present a gang expert in Applicant's punishment phase case
123

to counter the State's expert or to contextualize Applicant's
association with the gang.
(411)

Dr. Hagedom 's suggestion that an expert could review
juvenile and adult criminal records and testify those records
contain little evidence of gang membership would have
opened the door to the State putting on extraneous offense
evidence that had been excluded from evidence. No
competent attorney would have undertaken such an action.

(412)

Dr. Hagedorn's testimony in Applicant's case would not
have altered the outcome of the case.

(413)

Applicant fails to prove by a preponderance of the evidence
that counsel's decision not to present the testimony of his
own gang expert in the punishment phase constituted
deficient representation or that it prejudiced his defense. See
Thompson, 9 S.W.3d at 812 (explaining the standard under
Strickland).

(414)

The State's rebuttal to a defense gang expert would have
strongly supported the jury's answer of "yes" to the futuredanger special issue. The evidence Applicant presents in this
writ proceeding in support of his claim that trial counsel
should have presented a gang expert to rebut the State's gang
expert is not the type or quality of evidence which would
have altered the jury's answers to the special issues.

(415)

The evidence Applicant presents in this writ proceeding for
his contention that trial counsel should have used a defense
gang expert to contextualize Applicant's gang membership as
mitigating, when considered along with the whole of the trial
evidence, is not evidence which would have changed the
jury's answer to the mitigation special issue.

(416)

The jury was presented with mitigating evidence about
Applicant's difficult childhood, that he was exposed to
alcohol and marijuana in utero, that his mother was an
inattentive teen parent who frequently left him with others,
124

that he suffered from ADHD from an early age, that he
participated in special education throughout his schooling,
that his mother suffered from serious mental illness, that
Applicant and his siblings were exposed to violence
between their parents at an early age, including
witnessing an incident in which one parent wielded a knife
and the other an iron, that in his late teens Applicant spent
time on the streets, and that Applicant suffered from
addiction to PCP and marijuana. The evidence Applicant now
claims should have been added to his case-including that
his gang membership was a juvenile, short term, and
primarily non-violent association which may have substituted
for what he was lacking in other areas of his life-is simply
insufficient to persuade the jury to change an answer to
either of the special issues.
(417)

Ground 2 should be denied.
GROUND 3

Counsel's Decision not to Object to
Evidence Applicant Wore a Restraint
Device During Voir Dire
Applicant contends trial counsel rendered ineffective
assistance by not objecting to a State witness's testimony in the
punishment phase during cross- examination by the defense
attorney that informed the jury Applicant was restrained during trial
by a custody control device, or stun belt, and by then eliciting
further testimony from the witness about the stun belt. (Application,
at 75-83).
Review of a trial counsel's performance is highly deferential,
as there is a "strong presumption that counsel's conduct {fell]
within the wide range of reasonable professional assistance; that
is, [applicant] must overcome the presumption that, under the
circumstances, the challenged action might be considered sound
trial strategy." Strickland, 466 U.S. at 689.
125

To establish ineffective assistance of counsel based on a
failure to object, an applicant must show the trial court would have
committed harmful error in overruling such an objection. Ex parte
Martinez, 330 S.W.3d 891, 901 (Tex. Crim. App. 2011); Vaughn v.
State, 931 S. W.2d 564, 566 (Tex. Crim. App. 1996) (en bane) (per
curiam). An applicant bears the burden of proving by a
preponderance of the evidence that counsel was ineffective, and
any allegations of ineffectiveness must be firmly founded in the
record. Thompson, 9 S.W.3d at 813.
(418)

At trial, the State called Bobby Moorehead, a deputy sheriff
with the Dallas County Sheriff's Department, who acted as a
bailiff during the individual voir dire proceedings in this
case. (RR65: 234). Deputy Moorehead identified two
drawings Applicant made during the voir dire proceedings.
(RR65: 235; SE 164-165). On cross-examination, Mr. Lollar
elicited the following information from the witness:
- The bailiffs, defendant, and the parties saw each
other daily for a 12-week period during voir dire.
- Voir dire sometimes took place in a courtroom,
but if no courtroom was available, it was held in
the judges' conference room on the second floor.
- Everyone got to know each other well. Deputy
Moorehead and Applicant spoke to each other all
the time. Applicant was never disrespectful to
Deputy Moorehead.
- Applicant did not give Deputy Moorehead "one
minute of trouble" during the 12 weeks.
- Applicant made the drawings while sitting
through 12 weeks of "stultifyingly boring'' jury
selection.
- Applicant knew Deputy Moorehead's first name
was Bobby and that he had worked for the
Garland Police Department.
126

One of Applicant's drawings reflects two people
holding guns, one person is labeled "G PD" for
Garland Police Department and the other
"FWPD." One individual is saying, "Neal [another
bailiff for this case] go and get that scumbag. Do
you feel lucky, punk? ... I'm Bobby, the great."
A third figure, wearing a Tommy Hilfiger shirt,
is saying, "Please don't bust a cap in my ass, Sir
Bobby."
- Applicant certainly never tried to assault Deputy
Moorehead and was never any trouble to
superv1se.
(RR65: 236-240).

Trial counsel then elicited testimony regarding an "elevator
incident" in which the bailiffs supervising Applicant
accidentally left him unattended on the judges' elevator one
day on the way to individual voir dire. In describing this
incident, Deputy Moorehead spontaneously told the jury
Applicant was wearing a stun belt. (RR65: 240-241). Counsel
did not object, allowed the witness to explain what the stun
belt was, and continued inquiring about the incident, in
which both bailiffs stepped off the elevator, the doors closed,
and Applicant-through no fault of his own-was left on the
elevator alone. {RR65: 241-242). Applicant was not wearing
handcuffs or leg irons-only the stun belt. (RR65: 242-243).
Applicant did not try to leave the elevator or escape. (RR65:
245). If he had pushed the button, the elevator would have
gone to the judicial parking level and opened. (RR65: 244245). After the elevator traveled up, two court reporters got
on the elevator with Applicant; he did not threaten them or
anyone else or take anyone hostage. (RR65: 245).
( 419)

Relying on caselaw that a due process violation may occur if
a jury sees or has knowledge a defendant is wearing shackles
in the courtroom, Applicant alleges defense counsel has a
duty to object when a jury is informed about a defendant's
127

restraints or shackles. {Application, at 78-80).
(420)

At the writ hearing, Mr. Lollar testified that if the State had
not planned to call Deputy Moorehead as a witness, he had
planned to call him to testify about the January 9, 2012
incident in which the bailiffs inadvertently left Applicant on
the elevator, allowing him to ride the elevator unattended.
(WRR4: 107-109). Applicant was dressed in a suit, wearing no
handcuffs or leg irons. (WRR4: 110). He rode the elevator to
the seventh floor (and did not get off). (WRR4: 110). Without
recognizing Applicant, two court reporters got on the
elevator; when one of them mentioned this case, Applicant,
standing behind them, told them he was the defendant.
(WRR4: 110-111). Applicant made no attempt to escape.
(WRR4: 111).

(421)

Mr. Lollar explained at the writ hearing that the defense team
"felt that was, again, powerful evidence to show a jury that he
would not be a future danger once he's off of PCP, and like he
had been for three years waiting to go to trial. We thought
that was evidence that he could be trusted in that type of a
situation." (WRR4: 111).

(422)

Mr. Lollar testified that when Deputy Moorehead interjected
the information about the RACC, or stun belt, into the
description of what happened, he made a strategy decision
at that point. (WRR4: 111-112). He believed the information
being conveyed to the jury-describing what could have been
a very bad situation that turned out positively-outweighed
the jury learning that Applicant was wearing a stun belt.
(WRR4: 113).

(423)

The complained-of testimony occurred during the punishment
phase of trial. (RR65: 240-245; WRR4: 113). Thus, the
presumption-of-innocence
concems
connected
to
circumstances in which a jury observes a defendant wearing
restraints during the guilt/innocence phase of trial. do not
apply here.
128

(424) The testimony indicated Applicant wore the stun belt during
the 12 weeks of individual voir dire, when voir dire was
sometimes held in a conference room instead of a
courtroom. (RR65: 240). Neither the prosecutor, the
defense attorney, nor Deputy Moorehead indicated Applicant
was wearing the stun belt during the jury trial portion of the
proceedings. (RR65: 240- 248; WRR4: 113-114). Moreover,
there was a substantial lapse in time between the
individual voir dire and the jury proceedings. (WRR4: 113).
Individual voir dire was held from January 9, 2012 through
February 29, 2012. (RR9 - RR38). The jury trial did not begin
until May 8, 2012. (RR58).
(425)

Applicant fails to demonstrate by a preponderance of the
evidence that counsel's decision not to object to this
evidence or by soliciting further evidence to explain the
circumstances to the jury was deficient or that it prejudiced
his defense.

(426)

To prove counsel was deficient, an applicant must rebut the
strong presumption that counsel's conduct fell within the
wide range of reasonable professional assistance. Thompson,
9 S.W.3d at 812-13. Applicant fails to rebut this
presumption.

(427)

Evidence of the elevator incident strongly supported
Applicant's trial theory that he was not a danger when he was
detained and had no access to PCP.

(428)

Mr. Lollar solicited the description of the elevator incident
for a strategic reason-to demonstrate Applicant was
neither a danger nor a flight risk while in custody. In a
highly unusual incident, Applicant traveled up and down an
elevator in the courthouse unattended. He proved himself not
to be opportunistic in the face of someone else's
vulnerability. He could have stepped off the elevator when
the court reporters got on or potentially accessed a parking
garage and fled. From Applicant's perspective, this was
valuable evidence to offer to the jury in Applicant's favor.
129

(429)

Importantly, the parties did not inform the jury that
Applicant was wearing the stun belt during the jury trial
proceeding. (WRR4: 113-114). Nothing in the record
affirmatively indicates the jurors knew Applicant wore the
stun belt before the jury. The jurors may have reasonably
believed the stun belt was utilized due to the close quarters
in the conference room for voir dire. Further, the issue of
the stun belt was raised in evidence during the punishment
phase of trial, not the guilt/ innocence phase of trial, when
the presumption of innocence is key.

(430)

Counsel's decision to solicit testimony from Deputy
Moorehead about the elevator incident, even if at the same
time the Court allowed evidence about the stun belt, was a
strategy decision.

(431)

Counsel's decision not to object to Deputy Moorehead's
reference to the fact Applicant wore a restraint device during
voir dire was based on reasonable trial strategy.

(432)

Even assuming trial counsel's decision not to object was
deficient,
Applicant fails
to
demonstrate
by
a
preponderance of the evidence any resulting prejudice.

(433)

Regarding the future dangerousness special issue, when
general evidence that Applicant wore a stun belt during
some court proceedings is balanced with the information of
Applicant's favorable behavior during the elevator incident,
at worst for Applicant's case, the favorable behavior
weighed evenly in the jury's consideration to cancel out the
negative factor of the stun belt, and Applicant did not suffer
any prejudice.

(434)

It is highly unlikely that the jury's knowledge of the stun belt,

which at worst countered the favorable evidence of the
elevator incident, weighed so strongly that without it, the
jury would have answered one of the special issues in
Applicant's favor.
130

(435)

Knowledge of the stun belt would have been irrelevant to
the mitigation special issue; however, the favorable evidence
of the elevator incident might have influenced a juror to
answer "yes" to the mitigation special issue.

( 436)

Applicant fails to demonstrate a reasonable probability that,
but for counsel's decision not to object to evidence regarding
the stun belt, the result of Applicant's proceeding would have
been different.

( 437)

Additionally, Applicant has not met his burden to show the
trial court would have committed harmful error in overruling
the objection had trial counsel objected. See Vaughn, 931
S.W.2d at 566.

( 438)

Ground 3 should be denied.

GROUND 4
Admission of Medical Examiner's Testimony and
Forensic Evidence Related to the Death of Carlos
Gallardo
In Ground 4 of his writ application, Applicant contends he
was denied due process because the Court erred in overruling trial
counsel's pre-trial objections to the admission of Carlos Gallardo's
autopsy photos and because trial counsel rendered ineffective
assistance in the guilt/innocence phase of trial by failing to
object to the admissibility of the medical examiner's testimony
about Carlos Gallardo-which was allegedly unduly graphic and
prejudicial. (Application, at 84- 95).
Applicant contends the murder of Carlos Gallardo was an
extraneous offense, and subject to Texas Rules of Evidence 401
(relevance), 403 (prejudice), and 404(b) (extraneous offense
exceptions). (Application, at 86-88).
(439)

To demonstrate ineffective assistance of counsel for failure to
object to the admission of testimony, an applicant must
identify the specific objection and prove that it would have
been successful. Ortiz v. State, 93 S.W.3d 79, 93 (Tex. Crim.
131

App. 2002). An isolated failure to object does not amount to
deficient representation because whether "counsel provides
a defendant adequate assistance is to be judged by the
totality of the representation rather than by isolated acts or
omissions." Vasquez v. State, 819 S.W.2d 932, 938 (Tex.
App.-Corpus
Christi
1991,
pet.
ref'd)
(finding
counsel's performance was not deficient, given the totality
of the circumstances, though he made the wrong objection
to a jury argument).
(440)

Defense counsel's failure to object to admissible evidence
does not constitute ineffective assistance of counseL Lee v.
State, 29 S.W.3d 570, 579-580 (Tex. App.-Dallas 2000, no
pet.); see Ex parte Jimenez, 364 S.W.3d 866, 887 (Tex.
Crim. App. 20 12) (((The failure to object to proper questions
and admissible testimony ... is not ineffective assistance.").

(441)

Applicant shot and killed Carlos Gallardo immediately after
killing Alfredo Gallardo, the named complainant in this
capital murder case. (RR58: 82, 104, 107, 110, 116, 118).
The two murders were so intertwined that excluding
evidence of Carlos Gallardo's murder would have made
the State's case incomplete.

(442)

The autopsy photos and medical examiner's testimony
related to Carlos Gallardo were relevant and admissible as
same-transaction contextual evidence.

(443)

At the writ hearing, Mr. Lollar indicated that he believed
evidence related to the killing of Carlos Gallardo, such as
the autopsy photos and medical examiner's testimony, was
admissible as same-transaction contextual evidence. (WRR4:
115-117).

(444)

Extraneous-offense evidence may be admissible as sametransaction contextual evidence when several offenses are so
intermixed, blended, or connected as to form a single,
indivisible criminal transaction, such that in narrating the
one, it is impracticable to avoid describing the other. Prible v.
State, 175 S.W.3d 724, 731 (Tex. Crim. App. 2005); McDonald
132

v. State, 179 S.W.3d 571, 577 (Tex. Crim. App. 2005); Rogers
v. State, 853 S.W.2d 29, 33-34 (Tex. Crim. App. 1993). For
extraneous evidence to fall into this category, the
extraneous matter must be so intertwined with the charged
crime that avoiding reference to it would make the State's
case incomplete or difficult to understand. Prible, 175 S.W.3d
at 732.
(445)

An offense is not tried in a vacuum; the jury is entitled to
know all relevant surrounding facts and circumstances of
the charged offense. Prible, 175 S.W.3d at 732; Wyatt v.
State, 23 S.W.3d 18, 25-26 (Tex. Crim. App. 2000) (holding
evidence that defendant sexually assaulted child before
smothering the
child
constituted
same-transaction
contextual evidence); Wesbrook v. State} 29 S.W.3d 103,
114-15 (Tex. Crim. App. 2000) (holding evidence that
defendant committed three other homicides on night of
charged homicide constituted same-transaction contextual
evidence).

(446)

It was reasonable for trial counsel to believe the murder of

Carlos Gallardo was sufficiently intertwined with the charged
offense to be same-transaction contextual evidence.
(447)

Defense counsel's performance was not deficient. He did not
object based on his reasonable belief that evidence of
Carlos Gallardo's murder was admissible as sametransaction contextual evidence.

(448)

During the home invasion robbery, Applicant forced the
family from the living room through the master bedroom and
bathroom and into the master bedroom closet. (RR58: 89-90,
93-94, 131-133). While the family was in the closet, they
heard Applicant ransacking the house. (RR58: 96-98, 133;
SE 19). Applicant started to remove first the mother and
then the daughter from the closet. (RR58: 100-101, 134,
136). Applicant then pointed the gun at Alfredo and grabbed
his shirt, pulling him out of the closet and into the adjacent
bathroom. (RR58: 101-103, 136, 148-149). Carlos followed.
133

(RR58: 104, 116, 137). Applicant and Alfredo fell into a large
Jacuzzi tub, and Applicant began shooting. (RR58: 102-103,
113-116). Applicant shot Alfredo first. (RR58: 106). He
continued to shoot, killing Carlos, who had crouched down
near the bathroom sink at the first gunshots. (RR58: 104,
107, 116). After shooting the men, Applicant left. (RR58: 107).
(449)

In addition, Applicant has failed to demonstrate that the
Court would have abused its discretion by overruling a Rule
401, Rule 402, Rule 403, or Rule 404(b) objection to the
medical examiner's testimony. (See Application, at 89-94).

(450)

Because this evidence was admissible, Applicant cannot
demonstrate the Court would have committed error in
admitting the medical examiner's testimony over objection.

(451)

As to the medical examiner's testimony, Applicant has failed
to meet the first prong of Strickland to establish deficient
performance.

(452)

Moreover, Applicant cannot show prejudice. He fails to show
that even if trial counsel had objected and the Court had
sustained the objection, the outcome of the guilt/ innocence
phase would have been any different.

(453)

Applicant seems to incorporate in this complaint an allegation
that the Court erred by overruling his pre-trial·objections to
the autopsy photos of Carlos Gallardo. Such a claim,
however, is based on the rules of evidence, or state statutory
law. Violations of state statutory law are not cognizable in a
habeas application. See Ex parte Graves, 70 S.W.3d 103,
109 {Tex. Crim. App. 2002). Habeas corpus is available only
to review jurisdictional defects or denials of fundamental or
constitutional rights. See Ex parte Banks, 769 S.W.2d 539,
540 (Tex. Crim. App. 1989). Accordingly, Applicant's
complaints regarding the Court's denial of his objections to
the autopsy photos are not cognizable on habeas review and
should be denied.
134

(454)

Applicant fails to demonstrate a denial of due process based
on this Court overruling his evidentiary objections to the
admission of Carlos Gallardo's autopsy photos.

(455)

Applicant has not demonstrated trial counsel rendered
ineffective assistance by not objecting to the admissibility of
the medical examiner's testimony about Carlos Gallardo's
autopsy.

(456)

Trial counsel rendered effective assistance.

(457)

Applicant very briefly asserts in this issue that appellate
counsel was ineffective for failing to raise the admissibility
of the medical examiner's testimony on appeal. (Application,
at 84, 88). Appellate counsel was not deficient, however, for
failing to raise a frivolous issue on appeal. Because the
medical examiner's testimony was admissible, was relevant,
and was not subject to exclusion under Rules 404(b) or 403,
appellate counsel was not deficient for not raising the issue.

(458)

Appellate counsel did not render ineffective assistance related
to this claim.

(459)

Ground 4 should be denied.

GROUND 5
Counsel's Alleged Failure to Object to Certain Evidence
During the Guilt/Innocence Phase of Trial
In Ground 5, Applicant contends trial counsel rendered
ineffective assistance and he was denied due process when
counsel did not raise guilt/ innocence phase complaints about the
admission of (a) crime scene photographs and testimony by police
officers regarding their attempts to save Alfredo Gallardo's life at the
scene, (b) recurrent references in other police officers' testimony that
Applicant shot at the officers when he exited the Gallardo's trailer,
(c) a gun, ammunition, and gloves seized from Applicant's vehicle,
which authorities found parked in the driveway next door, and (d)
a jail book-in sheet which identified Applicant's vehicle.
135

(Application, at 96-1 02).
(460)

To prove counsel was deficient, Applicant must rebut
strong presumption that counsel's conduct fell within
wide range of reasonable professional assistance.
Thompson, 9 S.W.3d at 812-13. Applicant fails to rebut
presumption.

the
the
See

this

(461)

To establish ineffective assistance of counsel based on a
failure to object, an applicant must show the trial court
would have committed harmful error in overruling such an
objection. Martinez, 330 S.W.3d at 901.

(462)

Applicant complains of trial counsel's failure to object to the
admission of Officer Bronc McCoy's and Officer Daniel
Fogle's descriptions of their efforts to save Alfredo Gallardo's
life under Texas Rule of Evidence 403, and to State's
Exhibits 31-42 (crime scene photos). (Application, at 98-100).

(463)

Applicant fails to demonstrate by a preponderance of the
evidence any deficiency in his counsel's failure to object to
crime scene photos and first- responder testimony about
attempts to save Alfredo Gallardo's life, much less any
resulting prejudice.

( 464)

Evidence of Applicant's guilt for the capital murder of Alfredo
Gallardo was strong. He was the only assailant who entered
the home. Multiple witnesses saw and interacted with him
during the robbery. Police officers surrounded the trailer
while he was still inside it. He exchanged gunfire with police
upon exiting the trailer, was shot, and was apprehended
at the scene. In the guilt/ innocence phase, he challenged
the evidence of his intent to kill Alfredo Gallardo.

(465)

Because evidence of Applicant's guilt was strong, Applicant
fails to demonstrate a reasonable probability that, but for
counsel's failure to object to crime scene photos and firstresponder testimony about attempts to save Alfredo
Gallardo's life, the result of the proceeding would have been
136

different.
(466)

Applicant complains of trial counsel's failure to object to the
admission of testimony by five officers from the scene to
Applicant's attempts to shoot at them when he exited the
Gallardo's trailer, on the basis the testimony was prejudicial,
minimally relevant to culpability,
and cumulative.
(Application, at 100-101).

(467)

Applicant fails to demonstrate by a preponderance of the
evidence any deficiency in his counsel's failure to object to
recurrent references by police officers that Applicant shot at
them when he exited the Gallardo's trailer, much less any
resulting prejudice.

(468)

Applicant fails to demonstrate a reasonable probability that,
but for counsel's decision not to object to recurrent
references by police officers that Applicant shot at them
when he exited the Gallardo's trailer, the result of the
proceeding would have been different.

(469)

Applicant complains of trial counsel's failure to object to the
admission of evidence seized from the Ford Crown Victoria,
including a .22 caliber submachine gun, ammunition, and
gloves, on the bases of Rules 401, 403, and 404(b).
(Application, at 101-102). Applicant drove the car· to the
scene that night and parked it in the driveway next door.

(470)

Applicant fails to demonstrate by a preponderance of the
evidence any deficiency in his counsel's failure to object to
evidence regarding a gun, ammunition, and gloves seized
from his vehicle, which authorities found parked in the
driveway next door, much less any resulting prejudice.

(471)

Applicant fails to demonstrate a reasonable probability that,
but for counsel's failure to object to evidence regarding a
gun, ammunition, and gloves seized from Applicant's vehicle,
which authorities found parked in the driveway next door,
the result of the proceeding would have been different.
137

(472)

Applicant complains of trial counsel's failure to object to the
admission of State's Exhibit 46, Applicant's book-in sheet
for the Dallas County jail because it was "the only link
between
[Applicant]
and
the vehicle
next door."
(Application, at 102). Applicant alleges trial counsel should
have objected on the basis of hearsay and Texas Rule of
Evidence 901. (Application, at 102-1 03). Applicant alleges
that if the book-in sheet had not been admitted, the State
could not have laid the proper foundation for admission of
the items from the vehicle. (Application, at 102).

(473)

Applicant fails to demonstrate by a preponderance of the
evidence any deficiency in his trial counsel's failure to object
to evidence of a jail book- in sheet which identified
Applicant's vehicle, much less any resulting prejudice. Mr.
Lollar testified at the writ hearing that the links between
Applicant and the vehicle in the driveway next door included
that, not only had Applicant driven it to the scene and
planned to drive it home that night, but also the police
discovered a person hiding in the vehicle who had been
waiting for Applicant. (WRR4: 122-123).

(474)

Applicant also fails to demonstrate a reasonable probability
that, but for trial counsel's failure to object to admission of
the jail book-in sheet, the result of the proceeding would
have been different.

(475)

In his complaints in Ground 5, Applicant fails to show the
trial court would have committed harmful error in overruling
the proposed objections.

(476)

The allegations in Ground 5 did not collectively prejudice
Applicant's case.

(4 77)

Applicant raises a claim that, to the extent the claims in
Ground 5 should have been raised on appeal, appellate
counsel was ineffective for failing to present them.
(Application, at 95, 103-104). The Court denies this claim;
Applicant fails to prove deficient performance or prejudice
under Strickland.
138

( 478)

Ground 5 should be denied.
GROUND 6

"As Applied" Challenge to Article 37.071's Mandate Not
to Tell Jurors that Failure to Reach a Verdict Results in a
Life Sentence
Applicant's Ground 6 is based on his pre-trial request for a
jury instruction that a life sentence would result if the jury were
unable to answer one of the special issues in accordance with the
parameters set out in the Court's instructions. The Court denied
Applicant's request because such an instruction is directly contrary
to Article 3 7. 071 of the Texas Code of Criminal Procedure.
In Ground 6, Applicant alleges the statutorily-mandated
instructions violate the Eighth and Fourteenth Amendments and
that Article 37.071 "as applied" to him deprived him of a fair
sentencing hearing. (Application at 85-89, 104, 106-109). In
support of his claim, he submitted an affidavit by Juror Gail Mackey
describing the jury's deliberations in this case. (Application Exh.
14).
In Saldana v. State, 232 S.W.3d 77 {T~x. Crim. App. 2007),
Saldana complained the trial court erred in not informing the jury
that failure to unanimously agree on the special issue would have
the same legal effect as an answer in the defendant's favor. Id. at
106. Saldana further alleged the court's instruction requiring 10
jurors to agree in order to answer the future-dangerousness special
issue "no" was a misrepresentation. Id. The Court of Criminal
Appeals rejected Saldana's challenges. Id. at 107.
Article 37.071, Section 2(a)(1) of the Texas Code of Criminal
Procedure provides that "[t]he court, the attorney representing the
state, the defendant, or the defendant's counsel may not inform a
juror or a prospective juror of the effect of a failure of a jury to
agree
on issues
submitted
[under this Article]." The
constitutionality of this provision has been repeatedly upheld. See)
139

e.g., Freeman v. State, 340 S.W.3d 717, 731 (Tex. Crim. App. 2011)

(noting the court had previously rejected complaints that the Texas
death penalty scheme is unconstitutional because jurors cannot be
told of the effect of even one life vote); Busby v. State, 990 S.W.2d
263, 272 (Tex. Crim. App. 1999) (rejecting claim that the failure to
inform a jury that a holdout vote or hung jury results in the
automatic imposition of a life sentence violates the Eighth and
Fourteenth Amendments to the United States Constitution).In the
punishment phase, the Court charged the jury pursuant to
Texas's statutorily-mandated instructions in death penalty cases.
See Tex. Code of Crim. Proc. Ann. art. 37.071, § 2(a)(l), (b)( I), (e)( I).
(479)

In accordance with Article 37.071, the Court submitted two
special issues to the jury, the first concerning whether
Applicant is a future danger and the second regarding
mitigating circumstances:
Special Issue No. 1: Do you find from the evidence
beyond a reasonable doubt that there is a
probability that the Defendant, Roderick Harris,
would commit criminal acts of violence that would
constitute a continuing threat to society?
Special Issue No. 2: Do you find, taking into
consideration all of the evidence, including the
circumstances of the offense, the Defendant's
character and background, and the personal moral
culpability of the Defendant, Roderick Harris, that
there is a sufficient mitigating circumstance or
circumstances to warrant that a sentence of life
imprisonment without parole rather than a death
sentence be imposed?
(CR2: 678-679).

(480)

The Court also instructed the jury, as required by Texas law,
that to answer the issues in such a way as to result in a
death sentence, all twelve jurors must answer "yes" to the
140

future dangerousness special issue and "no" to the mitigation
special issue. (CR2: 679-680). To answer either issue it?the defendant's favor (a "no" to the future dangerousness
issue or a "yes" to the mitigation issue), at least ten jurors
had to agree, as required by Texas law. (CR2: 679-680). This
is generally referred to as the "1 0 I 12 rule."
(481)

The Court correctly
the jury that failure
accordance with the
would result in a
S.W.3d at 731.

overruled Applicant's request to inform
to respond to one of the special issues in
Court's punishment phase instructions
life sentence. See, e.g., Freeman, 340

(482)

Both state and federal courts have repeatedly rejected
constitutional challenges to the 10/12 rule even when a
claim is based on Mills v. Maryland, 486 U.S. 367 (1988).
(See Application, at 109-110). Allen v. Stephens,. 805 F.3d
617, 631-32 (5th Cir. 2015), abrogated in part on other
grounds by Ayestas v. Davis, 138 S. Ct. 1080 (2018); Turner v.
Quarterman, 481 F.3d 292, 300 (5th Cir. 2007) (federal
precedent forecloses argument that Eighth Amendment and
due process require death penalty jury to be informed of
consequence of deadlock); Jones v. United States, 527 U.S.
373, 381 (1999) (Eighth Amendment does not· require death
penalty jury to be instructed on the consequence of a
deadlock); Soliz v. State, 432 S.W.3d 895, 904 (Tex. Crim.
App. 2014); Russeau v. State, 171 S.W.3d 871, 886 (Tex.
Crim. App. 2005).

(483)

Applicant alleges that because the Texas statutory scheme
"misinforms the jury and brings outside considerations that
impermissibly bear on the jury's verdict, the Texas statute
["as applied" to him violated] the principles of the Eighth and
Fourteenth Amendments, depriving [him] of a fair
sentencing trial." (Application, at 106). The outside
influences Applicant refers to are the 10-12 rule itself and
juror discussions during deliberations whether failure to
reach a unanimous verdict would result in a mistrial.
(Application, at 107-109, 111-112).
141

(484)

In addition to his "as applied" claim, which is based on
Juror Mackey's affidavit, Applicant asserts (in a footnote)
that Article 37.071 is facially unconstitutional due to the
improper inhibitive effects of the 10 I 12 rule on juror
deliberations and the statutorily mandated sentencing
instructions regarding the number of votes required for a life
sentence. (Application, at 112).

(485)

On direct appeal, Applicant alleged both that (a) the Court
erred in not allowing him to inform jurors that the judge
would assess a life sentence if the jury was unable to reach a
verdict on either of the special issues and (b) the 10/12 rule
is unconstitutional. The Court of Criminal Appeals rejected
these complaints. See Harris, 2014 WL 2155395, at *18.

(486)

Habeas corpus is not to be used to re-litigate matters that
were addressed on appeal. See Ex parte Drake, 883 S.W.2d
213, 215 (Tex. Crim. App. 1994); Ex parte Acosta, 672 S.W.2d
470, 472 (Tex. Crim. App. 1984).
·

(487)

Because Applicant's facial constitutional challenge was raised
and rejected on direct appeal, it is not cognizable in this
habeas proceeding.

(488)

(489)

Further, to the extent Applicant raises any new facial claims
to the 10/12 rule, if any, these claims are procedurally
barred. See Ex parte Boyd, 58 S.W.3d 134, 136 (Tex. Crim.
App. 2001} (indicating that the writ of habeas corpus may not
be used to litigate matters that could have been raised at trial
and on direct appeal); Ex parte Bagley, 509 S.W.2d 332, 334
(Tex. Crim. App. 1974).
Applicant briefly alleges that the 10/12 rule and the
provision that jurors may not be told of the result of a failure
to answer the special issues violate state statutory law and
state case law. (Application, at 104). Violations of state
statutory law, however, are not cognizable in a habeas
application. See Ex parte Graves, 70 S.W.3d 103, 109 (Tex.
Crim. App. 2002). Habeas corpus is available only to review
jurisdictional defects or denials of fundamental or
142

constitutional rights. See Ex parte Banks, 769 S.W.2d 539,
540 (Tex. Crim. App. 1989). Accordingly, Applicant's statutory
complaints about Article 37.071 are not cognizable on
habeas review and should be denied.
(490)

In support of his "as applied" challenge to Article 37.071,
Applicant presents an affidavit from Juror Mackey,
describing the jury's deliberations. (Application Exh. 14).

(491)

Juror Mackey's affidavit describes her individual deliberation
process and the group's deliberation process. It conveys
numerous statements by other jurors during deliberations
and provides analysis of the deliberations. Juror Mackey
describes her own thought processes and the reasons she
changed her vote. She states in her affidavit that she
believed there were mitigating circumstances and she wanted
Applicant to receive a sentence of life without parole. She
explains that two other jurors also initially voted for life
without parole with her but ultimately all three changed
their votes. Juror Mackey indicates that, of the three, she
was the second person to change her vote. Juror Mackey
states the jury foreman wanted the vote to be unanimous; so,
although she would have been happy to continue
deliberating, she changed her vote. (Application Exh. 14).

(492)

Juror Mackey's affidavit is not admissible in this proceeding.
With very few exceptions which are inapplicable here, the
Supreme Court's ruling in Pena- Rodriguez v. Coloradoll and
Texas Rule of Evidence 606(b) preclude the use of juror
testimony about deliberations to challenge a judgment.

II

137

s.

Ct. 855 (2017).

143

(493)

Texas Rule of Evidence 606(b)(1) provides that juror
deliberations cannot be used to challenge a judgment:
During an inquiry into the validity of a verdict or
indictment, a juror may not testify about any
statement made or incident that occurred during
the jury's deliberations; the effect of anything on
that juror's or another juror's vote; or any juror's
mental processes concerning the verdict or
indictment. The court may not receive a juror's
affidavit or evidence of a juror's statement on these
matters.
Tex. R. Evid. 606(b)(1).

(494)

There are only two statutory exceptions to this rule. A
juror may testify "about whether an outside influence was
improperly brought to bear on any juror," and "to rebut a
claim that the juror was not qualified to serve." Tex. R. Evid.
606(b)(2)(A), (B).

(495)

The Court finds neither exception in Rule 606(b) applies here.

(496)

Generally, unless allowed by statute, a party cannot go
behind the verdict to question jurors regarding their
deliberations. See Tanner v. United States, 483 U.S. 107,
127 (1987) (rejecting a Sixth Amendment exception for
evidence that some jurors were under the influence of
drugs and alcohol during the trial).

(497)

Also, in Pena-Rodriguez v. Colorado} 137 S. Ct. 855, 862
(2017), the Supreme Court recognized the general rule of
substantial protection of verdict finality: once a verdict has
been entered, it cannot be questioned later based on
comments or conclusions jurors expressed during their
deliberations. Pena-Rodriguez} 137 S. Ct. at 861. The Court
did, however, establish a narrow non-statutory exception to
the "no impeachment" rule for deliberations involving racial
an1mus. Pena-Rodriguez, 137 S. Ct. at 869. The Pena144

Rodriguez exception does not apply here.
(498)

Without mentioning Rule 606(b), Applicant proffers Juror
Mackey's testimony under the outside influence exception.
Applicant claims Juror Mackey's affidavit demonstrates that
the 10/12 rule allowed the jury to consider outside
influences during jury deliberations because the Court
misled the jurors as to the result of their failure to reach a
unanimous or 10-person agreement and the jury was coerced
"into [a] death sentence[] on the basis of stimuli divorced from
the merits of the case." (Application, at 108). The Court fmds
this contention is without merit.

( 499)

An outside influence is something originating from a source
outside the jury room and from other than the jurors
themselves-in other words, other than from the jurors' own
personal knowledge and experience (although an outside
influence does not include influences or information not
related to the trial issues). Colyer v. State, 428 S.W.3d 117,
125, 127 (Tex. Crim. App. 2014). Furthermore, an outside
influence must be "improperly brought to bear" with an
intent to influence the jury. Id. at 128-129; Tex. R. Evid.
606(b).

(500)

Examples of outside influences include (1) internet research
on the effects of a date rape drug at issue in the case, (2)
factual or legal information conveyed to the jury through
court personnel or an unauthorized person who intends to
affect the deliberations, or (3) a threat made against the
safety of a juror's family member. Colyer, 428 S.W.3d at
125. Examples of information or events that do not amount
to outside influences under Rule 606(b) include hearing a
weather report of an approaching storm that causes pressure
to hasten deliberations, coercion by a fellow juror, discussion
of a juror's own personal knowledge, or a call from the
juror's doctor about an ill child that induces the juror to
agree with the verdict. Id. at 125, 128-129.

(501)

The Court finds Juror Mackey's affidavit is not competent,
admissible evidence, and the Court is not considering it in
145

this proceeding. See Tex. R. Evid. 606(b)(l); Hicks v. State, 15
S.W.3d 626, 631 (Tex. App.-Houston [14th Dist.J 2000,
pet. ref'd) (upholding trial court's finding that juror
affidavit describing jury deliberations was inadmissible under
606(b)); Sanders v. State, 1 S.W.3d 885, 886, 888 (Tex. App.Austin 1999, no pet.) uurors could not testify about their
misinterpretation of the trial court's statutory instructions
under Rule 606(b)).
(502)

Alternatively even if the Court were to consider Juror
Mackey's affidavit, nothing in the affidavit indicates an
outside influence impacted this jury. An outside influence is
something outside of both the jury room and the juror: it
refers to a force external to the jury and its deliberations.
White v. State, 225 S.W.3d 571, 574 (Tex. Crim. App. 2007).
What Juror Mackey describes in her affidavit was merely the
deliberative process in this case. Pressure from other jurors
in the jury room to wrap up deliberations is not an outside
influence and is not the proper subject of a writ. See
Franks v. State, 90 S.W.3d 771, 800 (Tex. App.-Fort Worth
2002, no pet.) (holding that a juror's claim the other jurors
forced her to change her vote is not an outside influence).

(503)

Applicant alleges the 10/12 rule and Juror Mackey's or
the jury's misunderstanding of the 10/12 rule acted as an
outside influence rather than as a proper incentive to reach a
verdict. (Application, at 109).

(504)

This Court finds the 10/12 rule and Juror Mackey's-or the
jury's- misunderstanding, if any, of the 10/12 rule did not
act as an outside influence. See Franks, 90 S.W.3d at 800802 (trial court's instruction was not an outside influence).

(505)

The jury's consideration and debate regarding the court's
instructions emanated from within the jury and did not
amount to an outside influence. Juror Mackey's recollection
that at least one juror voiced an opinion that a nonunanimous vote would result in a mistrial was not an outside
influence. The comment or belief, though mistaken,
originated from a juror in the jury room and emanated from
146

the juror's own personal knowledge and experience. This
opinion was not an outside influence, and Rule 606(b) does
not allow testimony that the jury decided a case based on a
juror's incorrect interpretation of the law. See Hines v. State, 3
S.W.3d 618, 621 (Tex. App.- Texarkana 1999, pet. refd).
(506)

Nothing in Juror Mackey's affidavit originated from
sources outside of information from the Court (i.e. the
Court's instructions) or the jury's deliberations; the
affidavit, though improper evidence here, arises from the
jurors' understanding, opinions, and thoughts regarding
the Court's instructions.

(507)

The complained-of statutorily-mandated instructions in
Article 3 7. 071 do not violate the Eighth and Fourteenth
Amendments, and Article 37.071 "as applied" to Applicant
did not deprive him of a fair sentencing hearing.

(508)

Ground 6 should be denied.
CONCLUSION

(509)

Applicant has not been denied any rights guaranteed him
by the United States and Texas Constitutions.

(510)

Applicant's Application for Writ of Habeas Corpus is without
merit. The Court recommends that all relief requested be
denied.

THE CLERK IS ORDERED to prepare a transcript of all
papers in cause number W09-00409-Y(A) and to transmit the same
to the Texas Court of Criln.inal Appeals as provided by article 11.071
of the Texas Code of Criminal Procedure. The transcript shall include
certified copies of the following documents:
I.

Applicant's Original Application for Writ of Habeas
Corpus and all other pleadings filed by Applicant,
including any exhibits, excepting:
147

(a) Applicant's "Supplemental Bone Lead Evidence - Bone

Lead Testing Result for
December 4, 2018; and

Pamela

Maddox,"

filed

(b)Expert Rebuttal Affidavit of Dr. Julian Davies, dated
April 4, 2019, attached as Exhibit C to "Roderick
Harris's Submission of Additional Evidence Pursuant
to the Court's November 26, 2018 Order," filed June
12, 2019.
2.

The State's Answer to Applicant's Original Writ Application
and all other pleadings filed by the State;

3.

The proposed fmdings of fact and conclusions of law filed by
the State and Applicant;

5.

This Court's findings of fact and conclusions of law, and order;

6.

Any and all orders issued by the Court; and

7.

The indictment, judgment, sentence, docket sheet, and
appellate record in cause number F09-00409-Y, unless they
have been previously forwarded to the Court of Criminal
Appeals.

THE CLERK IS FURTHER ORDERED to send a copy of this
Court's signed findings of fact and conclusions of law to the
following counsel:
Benjamin Wolff
Benjamin. Wolff@ocfw. texas.g
ov Office of Capital and
Forensic Writs 1700 N.
Congress Ave., Suite 460
Austin, TX 7870 1

148

Gwendolyn Payton
Kilpatrick Townsend & Stockton LLP
G Payton0lkilpatricktownsend. com
1420 Fifth Avenue, Suite 700
Seattle, Washington 98101
O'Brien Yeatts, Assistant District
Attorney syeatt~bdallascounty.org
Dallas County District Attorney's Office
Frank Crowley Courts Bldg.
133 N. Riverfront Blvd., LB-19
Dallas, TX 75207-4399.

SIGNED the

2020.

!49

APPENDIX C

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

1/27/2021
HARRIS, RODERICK
Tr. Ct. No. F09-00409
WR-80,923-01
This is to advise that the applicant’s suggestion for reconsideration has been
denied without written order.
Deana Williamson, Clerk
RODERICK HARRIS
C/O BENJAMIN WOLFF
1700 N CONGRESS AVENUE, SUITE 460
AUSTIN, TX 78711

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

1/27/2021
HARRIS, RODERICK
Tr. Ct. No. F09-00409
WR-80,923-01
This is to advise that the applicant’s suggestion for reconsideration has been
denied without written order.
Deana Williamson, Clerk
DISTRICT CLERK DALLAS COUNTY
FELICIA PITRE
133 N. RIVERFRONT BLVD., LB 12
DALLAS, TX 75207-4300
* DELIVERED VIA E-MAIL *

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

1/27/2021
HARRIS, RODERICK
Tr. Ct. No. F09-00409
WR-80,923-01
This is to advise that the applicant’s suggestion for reconsideration has been
denied without written order.
Deana Williamson, Clerk
BENJAMIN WOLFF
OFFICE OF CAPITAL AND FORENSIC WRITS
1700 NORTH CONGRESS AVE SUITE 460
AUSTIN, TX 78701
* DELIVERED VIA E-MAIL *

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

1/27/2021
HARRIS, RODERICK
Tr. Ct. No. F09-00409
WR-80,923-01
This is to advise that the applicant’s suggestion for reconsideration has been
denied without written order.
Deana Williamson, Clerk
PRESIDING JUDGE CRIMINAL DISTRICT COURT
NO. 7 DALLAS COUNTY
133 N RIVERFRONT BLVD., LB 11
DALLAS, TX 75207-4313
* DELIVERED VIA E-MAIL *

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

1/27/2021
HARRIS, RODERICK
Tr. Ct. No. F09-00409
WR-80,923-01
This is to advise that the applicant’s suggestion for reconsideration has been
denied without written order.
Deana Williamson, Clerk
EDWARD L. MARSHALL
ASSISTANT ATTORNEY GENERAL
PO BOX 12548
AUSTIN, TX 78711
* DELIVERED VIA E-MAIL *

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

1/27/2021
HARRIS, RODERICK
Tr. Ct. No. F09-00409
WR-80,923-01
This is to advise that the applicant’s suggestion for reconsideration has been
denied without written order.
Deana Williamson, Clerk
DEBRA GIBBS
ASSISTANT DIRECTOR
RECORDS & CLASSIFICATIONS
P. O. BOX 99
HUNTSVILLE, TX 77340
* DELIVERED VIA E-MAIL *

OFFICIAL NOTICE FROM COURT OF CRIMINAL APPEALS OF TEXAS
P.O. BOX 12308, CAPITOL STATION, AUSTIN, TEXAS 78711

FILE COPY

1/27/2021
HARRIS, RODERICK
Tr. Ct. No. F09-00409
WR-80,923-01
This is to advise that the applicant’s suggestion for reconsideration has been
denied without written order.
Deana Williamson, Clerk
DISTRICT ATTORNEY DALLAS COUNTY
FAITH JOHNSON
APPELLATE SECTION
133 N. RIVERFRONT BLVD, LB 19
DALLAS, TX 75207
* DELIVERED VIA E-MAIL *

APPENDIX D

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

Vernon’s Texas Statutes and Codes Annotated
Code of Criminal Procedure (Refs & Annos)
Title 1. Code of Criminal Procedure
Habeas Corpus
Chapter Eleven. Habeas Corpus (Refs & Annos)
Vernon’s Ann.Texas C.C.P. Art. 11.071
Art. 11.071. Procedure in death penalty case
Effective: September 1, 2015
Currentness

Sec. 1. Application to Death Penalty Case
Notwithstanding any other provision of this chapter, this article establishes the procedures for an application for a writ of
habeas corpus in which the applicant seeks relief from a judgment imposing a penalty of death.

Sec. 2. Representation by Counsel

(a) An applicant shall be represented by competent counsel unless the applicant has elected to proceed pro se and the
convicting trial court finds, after a hearing on the record, that the applicant’s election is intelligent and voluntary.

(b) If a defendant is sentenced to death the convicting court, immediately after judgment is entered under Article 42.01, shall
determine if the defendant is indigent and, if so, whether the defendant desires appointment of counsel for the purpose of a
writ of habeas corpus. If the defendant desires appointment of counsel for the purpose of a writ of habeas corpus, the court
shall appoint the office of capital and forensic writs to represent the defendant as provided by Subsection (c).

(c) At the earliest practical time, but in no event later than 30 days, after the convicting court makes the findings required
under Subsections (a) and (b), the convicting court shall appoint the office of capital and forensic writs or, if the office of
capital and forensic writs does not accept or is prohibited from accepting an appointment under Section 78.054, Government
Code, other competent counsel under Subsection (f), unless the applicant elects to proceed pro se or is represented by retained
counsel. On appointing counsel under this section, the convicting court shall immediately notify the court of criminal appeals
of the appointment, including in the notice a copy of the judgment and the name, address, and telephone number of the
appointed counsel.
(d) Repealed by Acts 2009, 81st Leg., ch. 781, § 11.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

1

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

(e) If the court of criminal appeals denies an applicant relief under this article, an attorney appointed under this section to
represent the applicant shall, not later than the 15th day after the date the court of criminal appeals denies relief or, if the case
is filed and set for submission, the 15th day after the date the court of criminal appeals issues a mandate on the initial
application for a writ of habeas corpus under this article, move for the appointment of counsel in federal habeas review under
18 U.S.C. Section 3599. The attorney shall immediately file a copy of the motion with the court of criminal appeals, and if
the attorney fails to do so, the court may take any action to ensure that the applicant’s right to federal habeas review is
protected, including initiating contempt proceedings against the attorney.
(f) If the office of capital and forensic writs does not accept or is prohibited from accepting an appointment under Section
78.054, Government Code, the convicting court shall appoint counsel from a list of competent counsel maintained by the
presiding judges of the administrative judicial regions under Section 78.056, Government Code. The convicting court shall
reasonably compensate as provided by Section 2A an attorney appointed under this section, other than an attorney employed
by the office of capital and forensic writs, regardless of whether the attorney is appointed by the convicting court or was
appointed by the court of criminal appeals under prior law. An attorney appointed under this section who is employed by the
office of capital and forensic writs shall be compensated in accordance with Subchapter B, Chapter 78, Government Code.1

Sec. 2A. State Reimbursement; County Obligation

(a) The state shall reimburse a county for compensation of counsel under Section 2, other than for compensation of counsel
employed by the office of capital and forensic writs, and for payment of expenses under Section 3, regardless of whether
counsel is employed by the office of capital and forensic writs. The total amount of reimbursement to which a county is
entitled under this section for an application under this article may not exceed $25,000. Compensation and expenses in excess
of the $25,000 reimbursement provided by the state are the obligation of the county.

(b) A convicting court seeking reimbursement for a county shall certify to the comptroller of public accounts the amount of
compensation that the county is entitled to receive under this section. The comptroller of public accounts shall issue a warrant
to the county in the amount certified by the convicting court, not to exceed $25,000.

(c) The limitation imposed by this section on the reimbursement by the state to a county for compensation of counsel and
payment of reasonable expenses does not prohibit a county from compensating counsel and reimbursing expenses in an
amount that is in excess of the amount the county receives from the state as reimbursement, and a county is specifically
granted discretion by this subsection to make payments in excess of the state reimbursement.

(d) The comptroller shall reimburse a county for the compensation and payment of expenses of an attorney appointed by the
court of criminal appeals under prior law. A convicting court seeking reimbursement for a county as permitted by this
subsection shall certify the amount the county is entitled to receive under this subsection for an application filed under this
article, not to exceed a total amount of $25,000.

Sec. 3. Investigation of Grounds for Application

(a) On appointment, counsel shall investigate expeditiously, before and after the appellate record is filed in the court of
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

2

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

criminal appeals, the factual and legal grounds for the filing of an application for a writ of habeas corpus.

(b) Not later than the 30th day before the date the application for a writ of habeas corpus is filed with the convicting court,
counsel may file with the convicting court an ex parte, verified, and confidential request for prepayment of expenses,
including expert fees, to investigate and present potential habeas corpus claims. The request for expenses must state:

(1) the claims of the application to be investigated;

(2) specific facts that suggest that a claim of possible merit may exist; and

(3) an itemized list of anticipated expenses for each claim.

(c) The court shall grant a request for expenses in whole or in part if the request for expenses is timely and reasonable. If the
court denies in whole or in part the request for expenses, the court shall briefly state the reasons for the denial in a written
order provided to the applicant.

(d) Counsel may incur expenses for habeas corpus investigation, including expenses for experts, without prior approval by
the convicting court or the court of criminal appeals. On presentation of a claim for reimbursement, which may be presented
ex parte, the convicting court shall order reimbursement of counsel for expenses, if the expenses are reasonably necessary
and reasonably incurred. If the convicting court denies in whole or in part the request for expenses, the court shall briefly
state the reasons for the denial in a written order provided to the applicant. The applicant may request reconsideration of the
denial for reimbursement by the convicting court.

(e) Materials submitted to the court under this section are a part of the court’s record.

(f) This section applies to counsel’s investigation of the factual and legal grounds for the filing of an application for a writ of
habeas corpus, regardless of whether counsel is employed by the office of capital and forensic writs.

Sec. 4. Filing of Application

(a) An application for a writ of habeas corpus, returnable to the court of criminal appeals, must be filed in the convicting
court not later than the 180th day after the date the convicting court appoints counsel under Section 2 or not later than the
45th day after the date the state’s original brief is filed on direct appeal with the court of criminal appeals, whichever date is
later.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

3

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

(b) The convicting court, before the filing date that is applicable to the applicant under Subsection (a), may for good cause
shown and after notice and an opportunity to be heard by the attorney representing the state grant one 90-day extension that
begins on the filing date applicable to the defendant under Subsection (a). Either party may request that the court hold a
hearing on the request. If the convicting court finds that the applicant cannot establish good cause justifying the requested
extension, the court shall make a finding stating that fact and deny the request for the extension.

(c) An application filed after the filing date that is applicable to the applicant under Subsection (a) or (b) is untimely.

(d) If the convicting court receives an untimely application or determines that after the filing date that is applicable to the
applicant under Subsection (a) or (b) no application has been filed, the convicting court immediately, but in any event within
10 days, shall send to the court of criminal appeals and to the attorney representing the state:

(1) a copy of the untimely application, with a statement of the convicting court that the application is untimely, or a statement
of the convicting court that no application has been filed within the time periods required by Subsections (a) and (b); and

(2) any order the judge of the convicting court determines should be attached to an untimely application or statement under
Subdivision (1).

(e) A failure to file an application before the filing date applicable to the applicant under Subsection (a) or (b) constitutes a
waiver of all grounds for relief that were available to the applicant before the last date on which an application could be
timely filed, except as provided by Section 4A.

Sec. 4A. Untimely Application; Application Not Filed

(a) On command of the court of criminal appeals, a counsel who files an untimely application or fails to file an application
before the filing date applicable under Section 4(a) or (b) shall show cause as to why the application was untimely filed or not
filed before the filing date.

(b) At the conclusion of the counsel’s presentation to the court of criminal appeals, the court may:

(1) find that good cause has not been shown and dismiss the application;

(2) permit the counsel to continue representation of the applicant and establish a new filing date for the application, which
may be not more than 180 days from the date the court permits the counsel to continue representation; or

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

4

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

(3) appoint new counsel to represent the applicant and establish a new filing date for the application, which may be not more
than 270 days after the date the court appoints new counsel.

(c) The court of criminal appeals may hold in contempt counsel who files an untimely application or fails to file an
application before the date required by Section 4(a) or (b). The court of criminal appeals may punish as a separate instance of
contempt each day after the first day on which the counsel fails to timely file the application. In addition to or in lieu of
holding counsel in contempt, the court of criminal appeals may enter an order denying counsel compensation under Section
2A.

(d) If the court of criminal appeals establishes a new filing date for the application, the court of criminal appeals shall notify
the convicting court of that fact and the convicting court shall proceed under this article.

(e) Sections 2A and 3 apply to compensation and reimbursement of counsel appointed under Subsection (b)(3) in the same
manner as if counsel had been appointed by the convicting court, unless the attorney is employed by the office of capital and
forensic writs, in which case the compensation of that attorney is governed by Subchapter B, Chapter 78, Government Code.

(f) Notwithstanding any other provision of this article, the court of criminal appeals shall appoint counsel and establish a new
filing date for application, which may be no later than the 270th day after the date on which counsel is appointed, for each
applicant who before September 1, 1999, filed an untimely application or failed to file an application before the date required
by Section 4(a) or (b). Section 2A applies to the compensation and payment of expenses of counsel appointed by the court of
criminal appeals under this subsection, unless the attorney is employed by the office of capital and forensic writs, in which
case the compensation of that attorney is governed by Subchapter B, Chapter 78, Government Code.

Sec. 5. Subsequent Application

(a) If a subsequent application for a writ of habeas corpus is filed after filing an initial application, a court may not consider
the merits of or grant relief based on the subsequent application unless the application contains sufficient specific facts
establishing that:

(1) the current claims and issues have not been and could not have been presented previously in a timely initial application or
in a previously considered application filed under this article or Article 11.07 because the factual or legal basis for the claim
was unavailable on the date the applicant filed the previous application;

(2) by a preponderance of the evidence, but for a violation of the United States Constitution no rational juror could have
found the applicant guilty beyond a reasonable doubt; or

(3) by clear and convincing evidence, but for a violation of the United States Constitution no rational juror would have
answered in the state’s favor one or more of the special issues that were submitted to the jury in the applicant’s trial under
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

5

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

Article 37.071, 37.0711, or 37.072.

(b) If the convicting court receives a subsequent application, the clerk of the court shall:

(1) attach a notation that the application is a subsequent application;

(2) assign to the case a file number that is ancillary to that of the conviction being challenged; and

(3) immediately send to the court of criminal appeals a copy of:

(A) the application;

(B) the notation;

(C) the order scheduling the applicant’s execution, if scheduled; and

(D) any order the judge of the convicting court directs to be attached to the application.

(c) On receipt of the copies of the documents from the clerk, the court of criminal appeals shall determine whether the
requirements of Subsection (a) have been satisfied. The convicting court may not take further action on the application before
the court of criminal appeals issues an order finding that the requirements have been satisfied. If the court of criminal appeals
determines that the requirements have not been satisfied, the court shall issue an order dismissing the application as an abuse
of the writ under this section.

(d) For purposes of Subsection (a)(1), a legal basis of a claim is unavailable on or before a date described by Subsection
(a)(1) if the legal basis was not recognized by or could not have been reasonably formulated from a final decision of the
United States Supreme Court, a court of appeals of the United States, or a court of appellate jurisdiction of this state on or
before that date.

(e) For purposes of Subsection (a)(1), a factual basis of a claim is unavailable on or before a date described by Subsection
(a)(1) if the factual basis was not ascertainable through the exercise of reasonable diligence on or before that date.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

6

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

(f) If an amended or supplemental application is not filed within the time specified under Section 4(a) or (b), the court shall
treat the application as a subsequent application under this section.

Sec. 6. Issuance of Writ

(a) If a timely application for a writ of habeas corpus is filed in the convicting court, a writ of habeas corpus, returnable to the
court of criminal appeals, shall issue by operation of law.

(b) If the convicting court receives notice that the requirements of Section 5 for consideration of a subsequent application
have been met, a writ of habeas corpus, returnable to the court of criminal appeals, shall issue by operation of law.

(b-1) If the convicting court receives notice that the requirements of Section 5(a) for consideration of a subsequent
application have been met and if the applicant has not elected to proceed pro se and is not represented by retained counsel,
the convicting court shall appoint, in order of priority:

(1) the attorney who represented the applicant in the proceedings under Section 5, if the attorney seeks the appointment;

(2) the office of capital and forensic writs, if the office represented the applicant in the proceedings under Section 5 or
otherwise accepts the appointment; or

(3) counsel from a list of competent counsel maintained by the presiding judges of the administrative judicial regions under
Section 78.056, Government Code, if the office of capital and forensic writs:

(A) did not represent the applicant as described by Subdivision (2); or

(B) does not accept or is prohibited from accepting the appointment under Section 78.054, Government Code.

(b-2) Regardless of whether the subsequent application is ultimately dismissed, compensation and reimbursement of
expenses for counsel appointed under Subsection (b-1) shall be provided as described by Section 2, 2A, or 3, including
compensation for time previously spent and reimbursement of expenses previously incurred with respect to the subsequent
application.

(c) The clerk of the convicting court shall:
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

7

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

(1) make an appropriate notation that a writ of habeas corpus was issued;

(2) assign to the case a file number that is ancillary to that of the conviction being challenged; and

(3) send a copy of the application by certified mail, return receipt requested, or by secure electronic mail to the attorney
representing the state in that court.

(d) The clerk of the convicting court shall promptly deliver copies of documents submitted to the clerk under this article to
the applicant and the attorney representing the state.

Sec. 7. Answer to Application

(a) The state shall file an answer to the application for a writ of habeas corpus not later than the 120th day after the date the
state receives notice of issuance of the writ. The state shall serve the answer on counsel for the applicant or, if the applicant is
proceeding pro se, on the applicant. The state may request from the convicting court an extension of time in which to answer
the application by showing particularized justifying circumstances for the extension, but in no event may the court permit the
state to file an answer later than the 180th day after the date the state receives notice of issuance of the writ.

(b) Matters alleged in the application not admitted by the state are deemed denied.

Sec. 8. Findings of Fact Without Evidentiary Hearing

(a) Not later than the 20th day after the last date the state answers the application, the convicting court shall determine
whether controverted, previously unresolved factual issues material to the legality of the applicant’s confinement exist and
shall issue a written order of the determination.

(b) If the convicting court determines the issues do not exist, the parties shall file proposed findings of fact and conclusions of
law for the court to consider on or before a date set by the court that is not later than the 30th day after the date the order is
issued.

(c) After argument of counsel, if requested by the court, the convicting court shall make appropriate written findings of fact
and conclusions of law not later than the 15th day after the date the parties filed proposed findings or not later than the 45th
day after the date the court’s determination is made under Subsection (a), whichever occurs first.
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

8

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

(d) The clerk of the court shall immediately send to:

(1) the court of criminal appeals a copy of the:

(A) application;

(B) answer;

(C) orders entered by the convicting court;

(D) proposed findings of fact and conclusions of law; and

(E) findings of fact and conclusions of law entered by the court; and

(2) counsel for the applicant or, if the applicant is proceeding pro se, to the applicant, a copy of:

(A) orders entered by the convicting court;

(B) proposed findings of fact and conclusions of law; and

(C) findings of fact and conclusions of law entered by the court.

Sec. 9. Hearing

(a) If the convicting court determines that controverted, previously unresolved factual issues material to the legality of the
applicant’s confinement exist, the court shall enter an order, not later than the 20th day after the last date the state answers the
application, designating the issues of fact to be resolved and the manner in which the issues shall be resolved. To resolve the
issues, the court may require affidavits, depositions, interrogatories, and evidentiary hearings and may use personal
recollection.
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

9

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

(b) The convicting court shall hold the evidentiary hearing not later than the 30th day after the date on which the court enters
the order designating issues under Subsection (a). The convicting court may grant a motion to postpone the hearing, but not
for more than 30 days, and only if the court states, on the record, good cause for delay.

(c) The presiding judge of the convicting court shall conduct a hearing held under this section unless another judge presided
over the original capital felony trial, in which event that judge, if qualified for assignment under Section 74.054 or 74.055,
Government Code, may preside over the hearing.

(d) The court reporter shall prepare a transcript of the hearing not later than the 30th day after the date the hearing ends and
file the transcript with the clerk of the convicting court.

(e) The parties shall file proposed findings of fact and conclusions of law for the convicting court to consider on or before a
date set by the court that is not later than the 30th day after the date the transcript is filed. If the court requests argument of
counsel, after argument the court shall make written findings of fact that are necessary to resolve the previously unresolved
facts and make conclusions of law not later than the 15th day after the date the parties file proposed findings or not later than
the 45th day after the date the court reporter files the transcript, whichever occurs first.

(f) The clerk of the convicting court shall immediately transmit to:

(1) the court of criminal appeals a copy of:

(A) the application;

(B) the answers and motions filed;

(C) the court reporter’s transcript;

(D) the documentary exhibits introduced into evidence;

(E) the proposed findings of fact and conclusions of law;

(F) the findings of fact and conclusions of law entered by the court;
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

10

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

(G) the sealed materials such as a confidential request for investigative expenses; and

(H) any other matters used by the convicting court in resolving issues of fact; and

(2) counsel for the applicant or, if the applicant is proceeding pro se, to the applicant, a copy of:

(A) orders entered by the convicting court;

(B) proposed findings of fact and conclusions of law; and

(C) findings of fact and conclusions of law entered by the court.

(g) The clerk of the convicting court shall forward an exhibit that is not documentary to the court of criminal appeals on
request of the court.

Sec. 10. Rules of Evidence
The Texas Rules of Criminal Evidence apply to a hearing held under this article.

Sec. 11. Review by Court of Criminal Appeals
The court of criminal appeals shall expeditiously review all applications for a writ of habeas corpus submitted under this
article. The court may set the cause for oral argument and may request further briefing of the issues by the applicant or the
state. After reviewing the record, the court shall enter its judgment remanding the applicant to custody or ordering the
applicant’s release, as the law and facts may justify.

Credits
Added by Acts 1995, 74th Leg., ch. 319, § 1, eff. Sept. 1, 1995. Amended by Acts 1997, 75th Leg., ch. 1336, §§ 1 to 5, eff.
Sept. 1, 1997; Acts 1999, 76th Leg., ch. 803, §§ 1 to 10, eff. Sept. 1, 1999; Acts 2003, 78th Leg., ch. 315, §§ 1 to 3, eff. Sept.
1, 2003; Acts 2005, 79th Leg., ch. 787, § 13, eff. Sept. 1, 2005; Acts 2005, 79th Leg., ch. 965, § 5, eff. Sept. 1, 2005; Acts
2007, 80th Leg., ch. 593, § 3.06, eff. Sept. 1, 2007; Acts 2009, 81st Leg., ch. 781, §§ 2 to 5, eff. Sept. 1, 2009; Acts 2009,
81st Leg., ch. 781, § 11, eff. Jan. 1, 2010; Acts 2011, 82nd Leg., ch. 1139 (H.B. 1646), § 1, eff. Sept. 1, 2011; Acts 2013,
© 2021 Thomson Reuters. No claim to original U.S. Government Works.

11

Art. 11.071. Procedure in death penalty case, TX CRIM PRO Art. 11.071

83rd Leg., ch. 78 (S.B. 354), § 2, eff. May 18, 2013; Acts 2015, 84th Leg., ch. 1215 (S.B. 1743), §§ 1 to 5, eff. Sept. 1, 2015.
Notes of Decisions (202)

Footnotes

1

V.T.C.A., Government Code § 78.051 et seq.
Vernon’s Ann. Texas C. C. P. Art. 11.071, TX CRIM PRO Art. 11.071
Current through legislation effective June 4, 2021, of the 2021 Regular Session of the 87th Legislature. Some statute sections
may be more current, but not necessarily complete through the whole Session. See credits for details.
End of Document

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

© 2021 Thomson Reuters. No claim to original U.S. Government Works.

12

